<html>
<title> - THE STRATEGY IN AFGHANISTAN AND RECENT REPORTS BY THE AFGHANISTAN STUDY GROUP AND THE ATLANTIC COUNCIL OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 110-612]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-612
 
THE STRATEGY IN AFGHANISTAN AND RECENT REPORTS BY THE AFGHANISTAN STUDY 
          GROUP AND THE ATLANTIC COUNCIL OF THE UNITED STATES

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2008

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE

45-501 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

The Strategy in Afghanistan and Recent Reports by the Afghanistan Study 
          Group and the Atlantic Council of the United States

                    february 14, 2008 (a.m. session)

                                                                   Page

Shinn, Hon. James J., Assistant Secretary of Defense for Asian 
  and Pacific Security Affairs, Office of the Secretary of 
  Defense for Policy.............................................     9
Boucher, Hon. Richard A., Assistant Secretary of State for South 
  and Central Asian Affairs......................................    13

 Continuation of the Strategy in Afghanistan and Recent Reports by the 
 Afghanistan Study Group and the Atlantic Council of the United States

                    february 14, 2008 (p.m. session)

Jones, Gen. James L., USMC (Ret.), President and CEO of the 
  Institute for 21st Century Energy, United States Chamber of 
  Commerce, and Chairman of the Board of Directors, the Atlantic 
  Council of the United States...................................    62
Inderfurth, Hon. Karl F., John O. Rankin Professor of the 
  Practice of International Affairs, The George Washington 
  University.....................................................    65
ANNEX A..........................................................   100
ANNEX B..........................................................   104
ANNEX C..........................................................   141
ANNEX D..........................................................   155
ANNEX E..........................................................   166
ANNEX F..........................................................   169
ANNEX G..........................................................   178

                                 (iii)


THE STRATEGY IN AFGHANISTAN AND RECENT REPORTS BY THE AFGHANISTAN STUDY 
          GROUP AND THE ATLANTIC COUNCIL OF THE UNITED STATES

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:15 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Warner, Inhofe, 
Sessions, Collins, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Michael J. McCord, professional 
staff member; and William G.P. Monahan, counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David M. Morriss, minority counsel; Lynn F. 
Rusten, professional staff member; Sean G. Stackley, 
professional staff member; and Dana W. White, professional 
staff member.
    Staff assistants present: Kevin A. Cronin, Ali Z. Pasha, 
and Benjamin L. Rubin.
    Committee members' assistants present: Sharon L. Waxman, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Bonni Berge, assistant to Senator Akaka; Christopher Caple, 
assistant to Senator Bill Nelson; Tim Becker, assistant to 
Senator Ben Nelson; Jon Davey, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Anthony J. 
Lazarski, assistant to Senator Inhofe; Todd Stiefler, assistant 
to Senator Sessions; Mark J. Winter, assistant to Senator 
Collins; Jason Van Beek, assistant to Senator Thune; Brian W. 
Walsh, assistant to Senator Martinez; and Erskine W. Wells III, 
assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    First, let me welcome our witnesses. We very much 
appreciate their being with us today. They're adjusting their 
schedules to accommodate ours. There is a memorial service 
going on for Congressman Tom Lantos, which is the reason that 
I, at least, had to delay this until now. We very much 
appreciate, as always, the cooperation and advice of Senator 
Warner as to how to approach these delays in the scheduling 
today.
    Senator Warner. But, this was very, very well-deserved. 
Congressman Lantos was an extraordinary member; and you and I, 
throughout our long careers, have intertwined our official 
duties with him many times in many places of the world.
    Chairman Levin. Indeed, we've traveled with Tom Lantos, and 
know him and Annette well. The eloquent testimony that's now 
being delivered about his life goes on as we speak here, and we 
shall all miss him, his committee, and his love of this Nation.
    The committee, today, receives testimony on the situation 
in Afghanistan, including the assessments contained in two 
recently released reports from the Afghanistan Study Group and 
The Atlantic Council of the United States.
    Our witnesses on this morning's panel are Assistant 
Secretary of Defense for Asian and Pacific Security Affairs, 
James Shinn; Assistant Secretary of State for South and Central 
Asian Affairs, Richard Boucher; and Lieutenant General John 
Sattler, the Director for Strategic Plans and Policy, J-5, of 
the Joint Staff.
    This afternoon at 2:30, this committee will hear from two 
experts who participated in preparing the independent reports 
on Afghanistan, Retired General Jim Jones, chairman of the 
board of directors of The Atlantic Council, and Ambassador Rick 
Inderfurth, professor of the Practice of International Affairs 
at George Washington University. Both General Jones and 
Ambassador Inderfurth participated in the Afghanistan Study 
Group, which is established under the auspices of the Center 
for the Study of the Presidency.
    The American people understand the stakes in Afghanistan. 
Unlike the war in Iraq, the connection between Afghanistan and 
the terrorist threat that manifested itself on September 11 has 
always been clear. American support for the mission in 
Afghanistan remains strong.
    Last week, the Director of National Intelligence (DNI), 
Admiral McConnell, reiterated the significance of the threat 
emanating from the Afghanistan-Pakistan border region. He told 
the Senate Select Committee on Intelligence that al Qaeda's 
central leadership based in the border area of Pakistan is al 
Qaeda's, ``most dangerous component.'' He added that the safe 
havens that extremists enjoy in the tribal areas along the 
Pakistan border serve, ``as a staging area for al Qaeda's 
attacks in support of the Taliban in Afghanistan, as well as a 
location for training new terrorist operatives for attacks in 
Pakistan, the Middle East, Africa, Europe, and the United 
States.''
    For too long, U.S. military operations in Afghanistan have 
taken a backseat to the war in Iraq, leaving our forces in 
Afghanistan short of what they need. Admiral Mullen 
acknowledged as much in December, calling the Afghanistan 
mission an, ``economy-of-force operation.'' He added, ``it is 
simply a matter of resources, of capacity. In Afghanistan, we 
do what we can; in Iraq, we do what we must.''
    Last year, Congress took action to strengthen the focus on 
Afghanistan. The National Defense Authorization Act included 
several measures to increase transparency and expand 
congressional oversight, including establishing a special 
inspector general for Afghanistan reconstruction, requiring the 
President to submit a comprehensive strategy for security and 
stability in Afghanistan, and provide regular updates on the 
progress of that strategy, and requiring a report on plans for 
the long-term sustainment of the Afghanistan National Security 
Forces. The President continues to paint a rosy picture of the 
situation in Afghanistan. Last Friday, he said that, in 
Afghanistan, ``the Taliban, al Qaeda, and their allies are on 
the run.'' But, the reports by the Afghanistan Study Group and 
The Atlantic Council provide more sobering assessments of the 
situation on the ground. Among the findings of those reports 
are the following:
    Efforts to stabilize Afghanistan are, quote, ``faltering,'' 
according to the Afghanistan Study Group report. That report 
finds that, since 2002, ``violence, insecurity, and opium 
production have risen dramatically as Afghan confidence in 
their government and its international partners falls.''
    The Atlantic Council report states that, ``Make no mistake, 
the North Atlantic Treaty Organization (NATO) is not winning in 
Afghanistan.'' Instead, the security situation, according to 
The Atlantic Council report, is ``a strategic stalemate, with 
NATO and Afghan forces able to win any head-to-head 
confrontation with the Taliban, but not being able to eliminate 
the insurgency, so long as the Taliban enjoys safe haven across 
the border with Pakistan.''
    The antigovernment insurgency threatening Afghanistan ``has 
grown considerably over the last 2 years,'' according to the 
Afghanistan Study Group. Last year was the deadliest since 2001 
for U.S. and international forces. The Taliban are relying 
increasingly on terrorism and ambushes, including over 140 
suicide bombings in 2007. The Afghanistan Study Group report 
also finds that ``the Taliban have been able to infiltrate many 
areas throughout the country,'' intimidating and coercing the 
local Afghan people.
    The reports find that more U.S. and international forces 
are needed for Afghanistan. The NATO-led International Security 
Assistance Force (ISAF) currently consisting of more than 
43,000 soldiers from 40 countries, remains short of the troops 
and equipment that it needs to meet mission requirements. These 
shortfalls include maneuver battalions, helicopters, and 
intelligence, surveillance, and reconnaissance assets.
    The United States has announced its intention to deploy an 
additional 3,200 marines, and other NATO members have upped 
their contributions, including Britain and Poland. Yet, as the 
Afghanistan Study Group points out, more NATO countries need to 
share the burden and remove national caveats that limit the 
ability of their troops to participate in ISAF operations.
    Opium production continues to be at record levels. The 
Atlantic Council calls drug production ``the most striking sign 
of the international community's failure.'' That report cites 
World Bank estimates that around 90 percent of the world's 
illegal opium comes from Afghanistan. A report this month from 
the United Nations Office on Drugs and Crime finds that 
cultivation levels this year are likely to be similar to last 
year's ``shockingly high level.''
    The Afghanistan Study Group finds that the need for greater 
international coordination is ``acute,'' in their word. 
Contributors to Afghanistan reconstruction include over 40 
countries, the United Nations, the World Bank, the European 
Union, and nongovernmental organizations (NGOs). Unfortunately, 
the recent withdrawal of the widely respected Paddy Ashdown 
from consideration for the position of United Nations 
International Coordinator for Afghanistan, reportedly at the 
request of the Karzai Government, is a real setback. The 
Atlantic Council report concludes, ``In summary, despite 
efforts of the Afghan Government and the international 
community, Afghanistan remains a failing state. It could become 
a failed state.''
    We look forward to hearing from our witnesses this morning 
concerning recommendations for getting Afghanistan on the right 
track. I hope they'll address the assessments and 
recommendations of the reports of the Afghanistan Study Group 
and The Atlantic Council. These reports highlight the urgent 
need for the administration to reassess its approach, to ensure 
that Afghanistan moves towards a stable and progressive state, 
and never again becomes a safe haven for terrorists intent on 
exporting violence and extremism.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Good morning and welcome to our witnesses.
    Today, the committee receives testimony on the situation in 
Afghanistan, including the assessments contained in two recently-
released reports from the Afghanistan Study Group and the Atlantic 
Council of the United States.
    Our witnesses on this morning's panel are: Assistant Secretary of 
Defense for Asian and Pacific Security Affairs, James Shinn; Assistant 
Secretary of State for South and Central Asian Affairs, Richard 
Boucher; and Lieutenant General John Sattler, Director for Strategic 
Plans and Policy, J5, the Joint Staff.
    This afternoon at 2:30 the committee will hear from two experts who 
participated in preparing the independent reports on Afghanistan: 
retired General Jim Jones, Chairman of the Board of Directors of the 
Atlantic Council; and Ambassador Rick Inderfurth, Professor of the 
Practice of International Affairs, at the George Washington University. 
Both General Jones and Ambassador Inderfurth participated in the 
Afghanistan Study Group, which is established under the auspices of the 
Center for the Study of the Presidency.
    The American people understand the stakes in Afghanistan. Unlike 
with the war in Iraq, the connection between Afghanistan and the 
terrorist threat that manifested itself on September 11 has always been 
clear. American support for the mission in Afghanistan remains strong.
    Last week, Director of National Intelligence Admiral McConnell 
reiterated the significance of the threat emanating from the 
Afghanistan-Pakistan border region. He told the Senate Select Committee 
on Intelligence that al Qaeda's central leadership, based in the border 
area of Pakistan, is al Qaeda's ``most dangerous component.'' He added 
that the safe havens that extremists enjoy in the tribal areas along 
the Pakistan border serve ``as a staging area for al Qaeda's attacks in 
support of the Taliban in Afghanistan as well as a location for 
training new terrorist operatives, for attacks in Pakistan, the Middle 
East, Africa, Europe, and the United States.''
    For too long, U.S. military operations in Afghanistan have taken a 
back seat to the war in Iraq, leaving our forces in Afghanistan short 
of what they need.
    Admiral Mullen acknowledged as much in December, calling the 
Afghanistan mission an ``economy of force operation.'' He said, ``It is 
simply a matter of resources, of capacity. In Afghanistan, we do what 
we can. In Iraq, we do what we must.''
    Last year, Congress took action to strengthen the focus on 
Afghanistan. The National Defense Authorization Act included several 
measures to increase transparency and expand congressional oversight, 
including: establishing a Special Inspector General for Afghanistan 
Reconstruction; requiring the President to submit a comprehensive 
strategy for security and stability in Afghanistan and provide regular 
updates on the progress of that strategy; and requiring a report on 
plans for the long-term sustainment of the Afghanistan National 
Security Forces.
    The President continues to paint a rosy picture of the situation in 
Afghanistan. Last Friday, he said that in Afghanistan ``The Taliban, al 
Qaeda, and their allies are on the run.''
    But the reports by the Afghanistan Study Group and the Atlantic 
Council provide more sobering assessments of the situation on the 
ground.
    Among the findings of the reports are the following:

        <bullet> Efforts to stabilize Afghanistan are ``faltering,'' 
        according to the Afghanistan Study Group report. That report 
        finds that since 2002 ``violence, insecurity, and opium 
        production have risen dramatically as Afghan confidence in 
        their government and its international partners falls.''
        <bullet> The Atlantic Council report states, ``Make no mistake, 
        the North Atlantic Treaty Organization (NATO) is not winning in 
        Afghanistan.'' Instead, the security situation is ``a strategic 
        stalemate,'' with NATO and Afghan forces able to win any head-
        to-head confrontation with the Taliban, but not being able to 
        eliminate the insurgency so long as the Taliban enjoys safe 
        haven across the border with Pakistan.
        <bullet> The anti-government insurgency threatening Afghanistan 
        ``has grown considerably over the last 2 years,'' according to 
        the Afghanistan Study Group. Last year was the deadliest since 
        2001 for U.S. and international forces. The Taliban are relying 
        increasingly on terrorism and ambushes, including over 140 
        suicide bombings in 2007. The Afghanistan Study Group report 
        also finds that ``the Taliban have been able to infiltrate many 
        areas throughout the country,'' intimidating and coercing the 
        local Afghan people.
        <bullet> The reports find that more U.S. and international 
        forces are needed for Afghanistan. The NATO-led International 
        Security Assistance Force (ISAF) currently consisting of more 
        than 43,000 soldiers from 40 countries, remains short of the 
        troops and equipment it needs to meet mission requirements. 
        These shortfalls include maneuver battalions; helicopters; and 
        intelligence, surveillance, and reconnaissance assets. The 
        United States has announced its intention to deploy an 
        additional 3,200 marines and other NATO members have upped 
        their contributions, including Britain and Poland. Yet, as the 
        Afghanistan Study Group points out, more NATO countries need to 
        share the burden, and remove national caveats that limit the 
        ability of their troops to participate in ISAF operations.
        <bullet> Opium production continues to be at record levels. The 
        Atlantic Council calls drug production ``the most striking sign 
        of the international community's failure.'' That report cites 
        World Bank estimates that around 90 percent of the world's 
        illegal opium comes from Afghanistan. A report this month from 
        the United Nations Office on Drugs and Crime finds that 
        cultivation levels this year are likely to be similar to last 
        year's ``shockingly high'' level.
        <bullet> The Afghanistan Study Group finds that the need for 
        greater international coordination is ``acute.'' Contributors 
        to Afghanistan reconstruction include over 40 countries, the 
        United Nations, the World Bank, the European Union, and 
        nongovernmental organizations. Unfortunately, the recent 
        withdrawal of the widely-respected Paddy Ashdown from 
        consideration for the position of United Nations International 
        Coordinator for Afghanistan, reportedly at the request of the 
        Karzai Government, is a set back.
        <bullet> The Atlantic Council report concludes, ``In summary, 
        despite efforts of the Afghan Government and the international 
        community, Afghanistan remains a failing state. It could become 
        a failed state.''

    We look forward to hearing from our witnesses this morning 
concerning recommendations for getting Afghanistan on the right track. 
I hope they will address the assessments and recommendations of the 
reports of the Afghanistan Study Group and the Atlantic Council. These 
reports highlight the urgent need for the administration to reassess 
its approach to ensure that Afghanistan moves toward a stable and 
progressive state and never again becomes a safe haven for terrorists 
intent on exporting violence and extremism.

    Chairman Levin. I will now submit Senator Byrd's statement 
for the record.
    [The prepared statement of Senator Byrd follows:]

              Prepared Statement by Senator Robert C. Byrd
    Thank you, Secretary Shinn, Secretary Boucher, and General Sattler, 
for updating us on progress being made in Afghanistan. I am 
particularly concerned by the continuing reports of a lack of 
coordination among the international coalition on a plan of action for 
Afghanistan, as well as continuing reports that progress among civilian 
reconstruction efforts and local police security efforts lag so far 
behind progress in fielding an Afghan National Army.

    Chairman Levin. Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you very much, Mr. Chairman.
    I'd like to ask unanimous consent that my entire statement 
be placed in the record this morning.
    Chairman Levin. It will be.
    Senator Warner. Given that we started at a late hour, I'm 
going to abbreviate my comments here.
    But, I'd like, first, to begin by commending Secretary of 
Defense Robert Gates. By the way, we all wish him well with his 
current problem with his arm. But, I want to commend him for 
his efforts over the past few weeks to impress upon our NATO 
allies the importance of the NATO mission in Afghanistan. He 
also emphasized that militant extremists, either in Afghanistan 
or elsewhere, still pose a significant threat. The threat posed 
by these extremists may be greater in Europe than some in 
Europe may now believe.
    The debate on the importance of the mission in Afghanistan 
may be among the most complicated that the NATO allies have 
faced since the alliance was formed to counter the Soviet Union 
threats.
    Mr. Chairman, I request unanimous consent to place the 
entire statement of Secretary Gates, on February 10, when he 
addressed the Munich Conference on Security Policy, into the 
record (see Annex A).
    Chairman Levin. That will be made part of the record.
    Senator Warner. In addition to expressing my strong support 
for Secretary Gates's remarks, I'd like to highlight a few 
matters concerning Afghanistan.
    First, I concur with those who assert that the credibility 
of NATO, the most successful political and military alliance in 
contemporary military history--that credibility is at stake as 
they continue to perform their missions in Afghanistan.
    In Afghanistan today, there's been no doubt that progress 
has been made since 2001, that the Taliban's recent resurgence 
in Afghanistan, the escalating opium economy, and the presence 
of cross-border sanctuaries in Pakistan threatens to challenge 
positive momentum and potentially lead Afghanistan to slip back 
into the pre-September 11 role as a safe haven for terrorists.
    You mentioned General Jones; I'll overlook that part.
    I also want to point out that we should never forget that 
the failure of Afghanistan would be a significant boost to 
militant extremists. Secretary Gates said that the Islamic 
extremist movement, so far, was built on the illusion of 
success, that all the extremists have accomplished recently is 
the death of thousands of innocent Muslims. Secretary Gates 
went on to say, ``Many Europeans question the relevance of our 
actions and doubt whether the mission is worth the lives of 
their sons and daughters.'' Well, the bombings in Madrid and 
London, and the disruption of cells and plots throughout 
Europe, should remind all of us that the threat posed by the 
extremism in Afghanistan, the Middle East, Europe, and 
globally, remains, as Secretary Gates said, ``a steep 
challenge.''
    I'll put the balance of my statement in the record, so we 
may get started.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Mr Chairman, thank you.
    I join you in welcoming our witnesses here today and I thank you 
for scheduling the two panels for this very important hearing.
    I would like to begin by commending our Secretary of Defense, 
Robert M. Gates, for his efforts over the last few weeks to impress 
upon our North Atlantic Treaty Organization (NATO) allies the 
importance of the NATO mission in Afghanistan. He also emphasized that 
militant extremists, either in Afghanistan or elsewhere, still pose a 
significant threat and that the threat posed by these extremists may be 
greater in Europe than some in Europe may believe.
    The debate on the importance of the mission in Afghanistan may be 
among the most complicated that the NATO allies have faced since the 
alliance was formed to counter the Soviet threat.
    Mr. Chairman, I request unanimous consent to place the entirety of 
Secretary Gates' February 10 address to the Munich Conference on 
Security Policy into the record (see Annex A).
    In addition to expressing my strong support for Secretary Gate's 
remarks, I would like to highlight a few matters concerning 
Afghanistan.
    First, I concur with those who assert that the credibility of the 
NATO--the most successful political organization and military alliance 
in recent history--is at stake in Afghanistan.
    In Afghanistan today, there has no doubt been progress since 2001: 
but the Taliban's recent resurgence in Afghanistan; the escalating 
opium economy; and the presence of cross-border sanctuaries in Pakistan 
threatens to challenge positive momentum and potentially lead 
Afghanistan to slip back to its pre-September 11 role as a safe haven 
for terrorists.
    General Jim Jones, the former NATO supreme allied commander, and 
co-chair--with Ambassador Thomas Pickering--of the Afghanistan Study 
Group Report which was sponsored by the Center for the Study of the 
Presidency, has said: ``Make no mistake; NATO is not winning in 
Afghanistan.''
    In his recent remarks in Munich, Secretary Gates reiterated a 
warning he made last Wednesday in testimony before the Senate Armed 
Services Committee. In that testimony, Secretary Gates expressed 
concern about ``the alliance evolving into a two-tiered alliance, in 
which some are willing to fight and die to protect people's security, 
and some are not.''
    Over the past 6 years NATO forces have grown from 16,000 to 43,000. 
The ground commander is now calling for another 7,500 troops. This is a 
troop requirement NATO should work vigorously to meet.
    All of the nations of NATO should reexamine their contributions to 
military operations in southern Afghanistan and lift the incapacitating 
restrictions, known as national caveats, on where, when, and how their 
forces can fight.
    Second, we should never forget that failure in Afghanistan would be 
a significant boost to militant extremists.
    Secretary Gates said that the Islamic extremist movement so far was 
``built on the illusion of success'' and that all the extremists have 
accomplished recently is ``the death of thousands of innocent 
Muslims.'' Secretary Gates went on to say: ``Many Europeans question 
the relevance of our actions and doubt whether the mission is worth the 
lives of their sons and daughters.''
    The bombings in Madrid and London and the disruption of cells and 
plots throughout Europe should remind all of us that the threat posed 
by global extremism in Afghanistan, the Middle East, Europe, and 
globally remains, as Secretary Gates said, ``a steep challenge.''
    In his Munich speech, Secretary Gates said extremist success in 
Afghanistan would ``beget success on many other fronts as the cancer 
metastasized further and more rapidly than it already has.'' I fully 
agree with this assessment by Secretary Gates.
    Third, and concomitantly, we should not forget that Afghanistan and 
Iraq are very distinct missions. Failure in either would be disastrous 
for the other, the region as a whole, the U.S. and Europe. However, the 
more we tie the two fronts together we may unintentionally be creating 
false and misleading impressions.
    In very frank comments on Saturday, Secretary Gates said, and I 
believe correctly, that many Europeans ``have a problem with our 
involvement in Iraq and project that to Afghanistan, and do not 
understand the very different kind of threat.''
    Afghanistan has its own strategic importance which should not be 
confused with Iraq's strategic importance. It is therefore important 
that we find ways to decouple our strategies, policies, and funding for 
Afghanistan from those for Iraq.
    Next, we must wholly engage Afghanistan's neighbors and fully 
enjoin them in the plans for the future security and stability of 
Afghanistan. This specifically includes the development of an effective 
strategy to dislodge al Qaeda and Taliban sanctuaries in Pakistan's 
tribal areas along the Afghanistan border.
    Finally, there is little doubt about the strong link between 
instability in Afghanistan, poppy cultivation and drug trafficking. I 
do not believe there can be lasting stability in Afghanistan until 
these links are disrupted.
    Afghanistan supplies about 93 percent of the world's opium supply. 
While poppy cultivation has decreased in the north-central Afghanistan, 
it has dramatically increased in the southwest. In 2006, the drug trade 
was estimated to total more than $3 billion--money that continues to 
fund Taliban and al Qaeda insurgents.
    Breaking the nexus between the insurgency and opium production 
requires a coordinated counternarcotics strategy that must be 
integrated with our counterinsurgency strategy and linked to the 
economic revitalization of Afghanistan's rural economy that includes 
alternative livelihood programs.
    In closing, the United States, our NATO allies, Afghanistan's 
neighbors, and international organizations all have roles to play. 
Each, and all, should recommit to the development of a comprehensive, 
urgent, and long-term strategy for Afghanistan. This long-term strategy 
should be one that integrates political and developmental features that 
complement the military counterinsurgency strategy.
    This recommitment should, as I have already discussed, include 
increasing NATO forces in southern Afghanistan and suspending national 
caveats. We should also expand the training and equipping of the Afghan 
National Army and the police through a long-term partnership with NATO 
to make it professional and multi-ethnic, and deploying significantly 
more foreign trainers.
    This recommitment must also address deficiencies in judicial 
reform, reconstruction, governance, and anticorruption efforts, and 
here the other elements of so-called `soft power' should be marshaled 
effectively. The international assistance effort should be reenergized 
and managed efficiently. The efforts to appoint a United Nations High 
Commissioner should be revived immediately.
    After 6 years of international involvement, Afghanistan may be 
nearing a defining moment. Regretfully, I add, so too may NATO.
    Secretary Gates' comments this weekend brought these issues to the 
fore. I vigorously laud his efforts to speak openly to our allies and 
to make an effort to ensure that the troop burden in Afghanistan does 
not divide the NATO allies.
    The witnesses on this first panel should be prepared to discuss, 
among other issues: the current situation in Afghanistan; our current 
strategies and policies there; the contributions of our partners and 
allies; the role played by Afghanistan's neighbors to foster stability 
and security in Afghanistan; and how the drug trade has undermined the 
Government of Afghanistan's drive to build political stability, 
economic growth, and rule of law.
    This panel of witnesses should also be prepared to respond to 
questions about three reports released last month. These reports 
conclude that a new effort is required to succeed in Afghanistan. The 
reports were the Afghanistan Study Group report sponsored by the Center 
for the Study of the Presidency (see Annex B); the Atlantic Council 
report on Afghanistan (see Annex C); and a paper by Dr. Harlan Ullman 
and others titled, ``Winning the Invisible War: An Agricultural Pilot 
Plan for Afghanistan (see Annex D).''
    I request unanimous consent that each of these reports be entered 
into the record. Mr. Chairman, thank you, and I look forward to the 
testimony from our witnesses today.

    Chairman Levin. Thank you very much, Senator Warner.
    By the way, I do concur with your remarks supporting the 
comments of Secretary Gates. I think they're very significant 
and accurate.
    Secretary Shinn, I think you are going to go first, 
followed by Secretary Boucher. General Sattler, do you have an 
opening statement?
    General Sattler. I'll just introduce myself, sir; that's 
it.
    Chairman Levin. Okay. We already know you and appreciate 
your work, but we'll get to you, then, in that order.
    Secretary Shinn?

   STATEMENT OF HON. JAMES J. SHINN, ASSISTANT SECRETARY OF 
 DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS, OFFICE OF THE 
                SECRETARY OF DEFENSE FOR POLICY

    Dr. Shinn. Thank you, Chairman Levin, Senator Warner, 
members of the committee. We appreciate the opportunity to 
discuss Afghanistan with you today.
    If I may just submit some written remarks for the record, 
and use the time efficiently to respond and build on comments 
made by both you and Senator Warner, so we can leave time for 
questions.
    Chairman Levin. We would appreciate that, and all your 
comments and statements will be made part of the record.
    Dr. Shinn. Great.
    If I may, with regard to the Afghan Study Group study, as 
well as The Atlantic Council report that you made reference to, 
we concur with many of the conclusions of those reports. To the 
degree that the reports suggest that our strategy in 
Afghanistan needs to be fundamentally changed, I believe that 
we would submit to the committee that U.S. strategy in 
Afghanistan is sound. The real challenge is execution of that 
strategy--resourced and done systematically, sustained over 
time.
    Two weeks ago, Afghan Defense Minister Abdul Rahim Wardak, 
who's known to some of you, gave a speech to the NATO 
ministers, and he described the strategy in Afghanistan in 
terms of clearing, holding, and building. I'd like to very 
briefly touch on those three aspects of the strategy.
    With regard to the clearing part of the strategy, we would 
submit to you that we believe we are winning, slowly and 
painfully. As the chairman mentioned, and quoting the report, I 
believe where the Afghan forces together meet the Taliban who 
stand and fight, we always prevail. Much of this is due to the 
Afghan National Army (ANA)--and General Sattler can speak more 
to how that was trained into a disciplined and effective 
organization--but also by U.S. and alliance troops. Currently, 
we have 27,500 troops in Afghanistan, and another 3,200 marines 
on the way.
    We would point out that the success in the clear part of 
the strategy has been purchased at a horrible price: 415 
Americans have been killed in and around Afghanistan, another 
1,863 wounded, some of them very seriously.
    Our analysts have concluded that the Taliban usage of 
assassinations, of terrorism against soft civilian targets, and 
even, to some degree, the use of suicide bombs is really, in 
part, a reaction to the success of the clearing strategy.
    But that brings us to the hold and then to the build part 
of the puzzle. We would submit to you that both of those pieces 
of the strategy are both harder and slower to make progress in. 
It's inherently more ambiguous and hard to measure when you're 
making progress.
    One example, probably known to most of you, of course, is 
that much of the hold part of the puzzle devolves around the 
Afghan National Police (ANP). As an institution, the ANP has a 
much spottier record than the ANA, less credibility with the 
Afghan citizens, some reputation for corruption in some 
districts. Again, General Sattler can speak to some of the 
reforms underway. We are encouraged by efforts by the Ministry 
of the Interior in Kabul, with our assistance, to pay and rank 
reform of the ANP, to train and equip them better, and, in 
particular, a program called the Focused District Development 
Program, where they go to a district, they take out the 
existing police corps, they put in a trained and vetted 
temporary police force, and they take out the existing police 
corps, and vet them for corruption or involvement in 
trafficking; they train them, equip them, and put them back in, 
with mentors. We're in phase 1 of this program, and we look 
forward to the results.
    Moving to the build part of the puzzle, this starts from a 
very tough base. I know many of the Senators on the committee, 
and staff, have been to Afghanistan. When you see it with your 
own eyes, you realize how much of the physical and human 
capital has been destroyed by the three decades of war and 
civil war. It's really pretty striking.
    The good news is that the GDP is growing now. It's between 
$8 and $9 billion a year now. But, if you divide that by the 
Afghan population of about 32 million, that gives the average 
Afghan an annual income of about $300, less than a dollar a 
day, which is crushing poverty. If, into that mix, you then add 
the trafficking problem, the narcotics problem, you have a 
seriously corrosive effect on already weak state institutions.
    We have a five-part counternarcotics substrategy to deal 
with that. Secretary Boucher can speak to that, because that's 
principally in the State Department lane. It involves both 
public education, alternative livelihood, eradication, 
interdiction, and law enforcement, on the back end of that. 
This is going to take time, patience, and a sustained effort.
    I conclude by just pointing out, again, that this part of 
the execution puzzle, as well as the other two pieces, is not 
solely, nor, in many cases, is it even primarily, the 
responsibility of the United States, that execution on these 
three pieces involves us, our NATO allies, the Operation 
Enduring Freedom (OEF) partners, certainly the United Nations 
(U.N.), the international community writ large, and, of course, 
most importantly, the Government of Afghanistan and its 
citizens.
    Maybe I could close with another quote from Minister 
Wardak, who said, ``In my opinion, the war in Afghanistan is 
eminently winnable, but only if the Afghans are enabled to 
defend their own homeland. The enduring solution to this war 
must be, in the end, an Afghan solution.''
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Shinn follows:]
                 Prepared Statement by Dr. James Shinn
    Chairman Levin, Senator McCain, and members of the committee: Thank 
you for the opportunity to discuss Afghanistan.
    You have had heard from a number of witnesses recently who have 
challenged our strategy in Afghanistan. I would submit to you that the 
U.S. strategy in Afghanistan is largely sound. The challenge lies in 
properly executing elements of the strategy. Execution requires the 
right amount of resources--both military and non-military--and then 
using these resources in a disciplined, coordinated fashion, over a 
sustained period of time.
    Our basic strategy is to use U.S. and international forces, 
partnered with Afghan units, to counter the insurgency, while building 
up the capacity of the Afghan Government to govern. As Afghan Minister 
of Defense Wardak told North Atlantic Treaty Organization (NATO) 
Ministers last week, ``The simple counterinsurgency prescription is to 
Clear, Hold, and Build.'' I emphasize the ``build'' part here. 
International Crisis Group put it succinctly in their November 2006 
report, Countering Afghanistan's Insurgency: No Quick Fixes, when they 
observed that: ``Fighting the insurgency and nation-building are 
mutually reinforcing.'' \1\
---------------------------------------------------------------------------
    \1\ ICG, Countering Afghanistan's Insurgency: No Quick Fixes, page 
ii.
---------------------------------------------------------------------------
    I would emphasize that this isn't only, or even primarily, a U.S. 
task. This is a task for the international community, our NATO 
International Security Assistance Force (ISAF) partners, the United 
Nations, and above all the government and people of Afghanistan. 
Because there are multiple actors, there are some differences with 
regard to the basic strategy; the U.S. and some of our key partners put 
a higher priority on implementing a traditional counterinsurgency 
approach. Other partners, however, place a greater emphasis on the 
``nation-building'' aspect of the mission. These differences are an 
inevitable part of coalition warfare, but there are steps we can take 
to enhance unity of effort. For instance, Secretary Gates is working 
with his counterparts on an ISAF ``vision statement'' that lays out 
what we want to achieve collectively in Afghanistan, and how we intend 
to get there.
    Developing the Afghan National Security Forces is a critical 
element in this strategy. The Afghan National Army (ANA) is 
increasingly assuming a leading role in the planning and execution of 
operations. 49,400 personnel are currently assigned to the ANA, with a 
projected increase of between 10,000 and 15,000 personnel per year. To 
date, the U.S. has invested about $8 billion on the Army's development.
    Secretary Gates has agreed to support an Afghan-proposed expansion 
of the Army by 10,000 personnel, above the previously authorized 70,000 
force structure. This increase was recently approved by the Afghanistan 
Joint Coordination and Monitoring Board that met in Tokyo on 4-5 
February.
    Further consideration is being given to the Army's longer-term end 
strength. I expect it will eventually grow beyond 80,000 as the Afghans 
assume greater responsibility for the security situation in their own 
country and both Operation Enduring Freedom (OEF) and ISAF troops 
withdraw over time, though I know of no timetable for withdrawal. I 
don't know what the likely ``end state'' number for the ANA will be, 
nor how it would be funded, other than the fact that these security 
forces are likely to exceed the ability of the Afghan Government to pay 
for itself, thus requiring some kind of sustained international 
financial assistance.
    In contrast, the Police lag behind the Army in both capability and 
effectiveness. The Police have not been able to hold areas cleared of 
insurgents by ISAF and the ANA--the Hold part of Minister Wardak's 
``clear, hold, build.'' Furthermore, the Police have a history of 
corruption that has undermined their credibility.
    The Afghans, with considerable support from the U.S., are taking 
steps to fix these problems. These steps include: better weapons and 
equipment for the Police, leadership changes within the Ministry of 
Interior, pay and rank reform (including pay parity with the Army), 
integrating Police Mentoring Teams with ANP units, and executing the 
Focused District Development (FDD) plan. The FDD is an initiative to 
temporarily insert teams of highly proficient Afghan National Civil 
Order Police into selected districts while the regular ANP are immersed 
in 8 weeks of intensive refresher training before resuming their 
positions.
    So far, the U.S. has invested $5 billion in Police development. 
There are some 75,000 personnel assigned to the ANP, of a projected 
82,000 end strength. I'd like to note the sacrifices that the Police 
have made. Over a 4-week period between December and January, for 
example, the ANP suffered 54 killed in action, compared to 13 ANA 
soldiers killed in action over the same time.
    ISAF is fighting alongside the ANA and ANP. NATO's ISAF mission 
currently includes 44,000 troops from nearly 40 countries, in NATO's 
first deployment outside the European theater. Some 16,000 U.S. troops 
are under the ISAF command structure, led by General Dan McNeill. An 
additional 3,200 U.S. marines will soon deploy to Afghanistan, of which 
about 2,200 will join the fight in the south, while the other 1,000 
will be partnered with Afghan units, primarily the ANP.
    Among the Alliance members, the United Kingdom, Australia, Canada, 
the Netherlands, Denmark, and Romania are engaged in intense combat 
operations in the south, and Poland fights as an integrated member of 
the CJTF-82 team in RC East. But some others have not been willing to 
deploy their soldiers to Afghanistan's hot spots. Secretary Gates 
recently expressed his concern about ``the Alliance evolving into a 
two-tiered Alliance, in which you have some Allies willing to fight and 
die to protect people's security, and others who are not,'' a concern 
he has raised with his NATO counterparts during the recent NATO 
ministerial meeting in Vilnius.
    The U.S. currently has about 27,500 troops deployed in Afghanistan. 
To date, 1,863 U.S. soldiers have been wounded in action, and 415 of 
our soldiers have been killed. Some 280 of our ISAF and coalition 
partners have been killed.
    Despite these sacrifices, the Alliance has fallen short of meeting 
its stated commitments in several areas. Afghanistan needs more 
maneuver forces, Provincial Reconstruction Teams (PRTs), aviation 
assets, and mentors for the Afghan National Security Forces. Some 
Allies also need to remove restrictive ``caveats'' on their forces, 
which all too often preclude their troops from taking on certain 
missions or deploying to particular regions.
    Some recent reports, like the Afghanistan Study Group, focus on the 
command and control arrangements of the military and the civilian 
structures of international forces. The reporting structures of ISAF 
and OEF are complex, and there is no clear point where authority for 
both the military and international reconstruction efforts comes 
together in country. Some military commanders have told me the current 
arrangement is awkward but it works. It's my view that having an 
integrated campaign plan is more important than devising alternative 
command and control arrangements. Getting Allies to agree to an ISAF 
vision statement will be the first step in enabling us to develop this 
type of integrated plan--a plan that integrates the ``clear, hold, and 
build'' parts of the strategy.
    As I noted earlier, military means alone will not prevail in this 
contest. In fact, the overall trend we've seen in the preceding years 
is a transition by the enemy from conventional engagements to greater 
reliance on asymmetric tactics--for example, suicide bombers and 
improvised explosive devices. They recognize there's no possibility to 
defeat ISAF and the ANA on the battlefield, so they resort to terror to 
intimidate the population and create the impression that the Afghan 
Government can't provide security.
    In order to defeat the insurgents, the population has to believe 
that the Afghan Government offers the best hope of a brighter future, 
or at least a better shot at basic security for them and their 
families. That means they need to see improved governance and rule of 
law, accelerated development, a stronger economy, and positive steps to 
tackle corruption and narcotics trafficking. Where we've undertaken a 
concerted effort to tackle these issues, such as in Regional Command 
East, and with the support of strong local leadership, this approach 
clearly works.
    The Department of Defense and a number of our partners in ISAF play 
a role in the reconstruction activities that have led to kinds of 
successes we've seen in Regional Command East--for instance, the 
Department of Defense (DOD) is significantly involved in PRTs. However, 
civilian expertise has to be integrated with the military's 
capabilities. State, United States Agency for International 
Development, and Department of Agriculture personnel are partnered with 
U.S. military officers in most of our PRTs. I believe the civilian 
elements of the interagency need to be able to deploy more of these 
experts into conflict zones like Afghanistan.
    Appointing a senior international civilian coordinator would also 
help us improve the effectiveness of our overall effort--and, perhaps 
even more importantly, help make the case for sustained investments by 
the international community of both military and economic assistance to 
Afghanistan. There is some lack of coherence among the various nations 
and official organizations involved in Afghanistan, which a senior 
coordinator could help fix.
    I am also concerned by signs of questioning of the long-term 
commitment to Afghanistan by both politicians and citizens in some 
ISAF-contributing nations. Both the Afghan Government and the 
insurgents follow any signs of wavering commitment with intense 
interest--as do both the Pakistanis and Iranians. A senior coordinator, 
especially one with U.N. credentials and credibility among NATO 
Alliance members at home, could help counter this softening of will.
    The narcotics trade is a huge headache with no easy solutions. We 
have a counternarcotics strategy with five pillars--public information, 
alternative development, eradication, interdiction, and justice reform. 
These five pieces come together to form a comprehensive strategy that 
presents incentives to Afghans to encourage them to participate in 
legal livelihoods while providing disincentives that deter them from 
participating in all aspects and levels of the narcotics industry. 
Implementing this long-term strategy is challenging, particularly in 
the insecure south of the country where poppy cultivation is highest. 
For example, without an adequate alternative livelihood, we risk 
creating insurgents out of ordinary farmers whose sole source of 
feeding their families has been taken from them. I saw that Senator 
Hagel zoomed in on this problem in his comments at the Foreign 
Relations Committee January 31 hearings.
    Another significant challenge is external--namely, the Taliban 
safe-haven in Pakistan, and the willingness of the Iranians to provide 
weapons and other assistance to the Taliban. Both Senators Biden and 
Lugar highlighted this concern in their comments and questions at the 
SFRC hearings on January 31.
    Everyone agrees that we--the U.S., the international community, and 
above all the Afghan Government--need to work with the Government of 
Pakistan to eliminate safe-havens in the border areas. But this is 
going to take a long time, and--as in Afghanistan--is not going to be 
achieved by military force alone. It will require helping Pakistan to 
build up its own capabilities to wage a counterinsurgency.
    As for the Iranians, intercepting and capturing arms convoys to the 
Taliban may be the most effective local tactic for the time being. We 
need to do this aggressively, but we also need to monitor the trends 
for indications that this is turning into a strategic problem. Our 
international partners, along with the Afghan Government, can also play 
a productive role in convincing Iran that a stable and peaceful 
Afghanistan is very much in everyone's interests.
    In conclusion, I would endorse another point made by Minister 
Wardak in his speech to the NATO Ministers, when he said that ``the war 
in Afghanistan is eminently winnable. But only if the Afghans are 
enabled to defend their own homeland. The enduring solution must be an 
Afghan solution.''
    Thank you. I look forward to your comments, concerns, and 
questions. 
---------------------------------------------------------------------------
    Note: ISAF consists of both NATO Alliance members and non-NATO 
contributors. The term ``Coalition'' generally refers to those forces 
deployed in support of Operation Enduring Freedom (OEF).

    Chairman Levin. Thank you, Secretary Shinn.
    Secretary Boucher?

 STATEMENT OF HON. RICHARD A. BOUCHER, ASSISTANT SECRETARY OF 
           STATE FOR SOUTH AND CENTRAL ASIAN AFFAIRS

    Ambassador Boucher. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Warner, and distinguished members of 
the committee, I thank you for having us over today.
    This is a subject of vital national interest to all of us, 
and, as the chairman referred to, I think we all understand the 
danger of renewed terrorist attacks to the Homeland stemming 
from this part of the world. I think it's also good to keep in 
mind the opportunities of creating a stable, peaceful, 
strategic hub in Afghanistan for Central and South Asia, for 
new routes for energy, trade, ideas, and people, and also the 
opportunity to see to the welfare of some 30 million people in 
Afghanistan, who, as my colleague pointed out, are suffering 
from great poverty. Afghanistan, in the 1950s, 1960s, and 
1970s, was one of the poorest countries in the world, and then 
they've gone downhill for 20, 25 years, and it's no wonder that 
the challenges of development alone are enormous, and 
development, given fighting and the circumstances now, is even 
a harder task.
    We're doing this task. We have, I would say, many 
achievements, but not yet success, in this task. The focus is, 
increasingly, on the people of Afghanistan, the people that I 
said are largely rural, they learn to rely on local and 
traditional structures over the last several decades. They've 
seen too much fighting, and, frankly, too little benefit from 
government. That's the situation we're trying to change. I 
think, to fundamentally win this war, to stabilize Afghanistan 
as a peaceful nation, we need to provide those people with 
security, with justice, with economic opportunity, and with 
good governance, just what anybody in the world expects from 
their government.
    So, how are we doing? My summary is that we're doing what 
works, we're getting the job done, but we need to do it more 
broadly, we need to do it better. I'll talk about that, as 
well. As Secretary Rice said last week, our counterinsurgency 
effort is having good effect, but the work is not complete.
    We've seen, now, more and more police, more and more 
military available to the Afghan population to provide them 
with security. As you travel around Afghanistan--and I've been 
there twice in the last month--you see the green police trucks 
that we've provided with our supplemental funding from last 
year, new policemen out on the streets, new trucks out on the 
street. We know the numbers are still low, the quality is still 
not what it should be, but they're getting out there, and 
they're more and more visibly providing security for the 
population. You see new governors and new district chiefs. The 
government is extending itself, including a renewed effort on 
local governance, on working with local populations in the 
districts, and providing better personnel through the Office of 
Local Governance that has been set up in President Karzai's 
office.
    You do see economic growth. Every time I've gone, for the 
last 6 years, you see different products being sold, you see 
Internet cafes starting up, you see oranges in the market, 
better quality stores, people no longer selling from 
containers, but selling from buildings. There's economic 
growth. The legitimate economic growth last year was estimated 
to be 13 percent, really remarkably high. You see the other 
aspects of this--3.5 million cell phones. Whereas, 5, 6 years 
ago there was virtually--a very small phone system that really 
didn't work.
    There are now 4,000 kilometers of roads, versus 50 in 
2002--50 kilometers of roads, to 4,000. Those roads have a 
transforming effect. I was up in the district of Kunar, on the 
Pakistan border, and you see there, they're no longer talking 
about the number of insurgents in the Konar valley, they're 
talking about the number of gas stations, the number of 
Internet cafes along the road that was built by the U.S. 
Provincial Reconstruction Team (PRT) and the local governor's 
office.
    You see education, healthcare being delivered to the 
population--5 million kids in school now, versus about 900,000 
in 2001. Health care now reaches 80 percent of the population. 
The real effect of this is that there are 85,000 babies and 
children every year who survive in Afghanistan who would not 
have survived without that service.
    All those things said, all those achievements listed and 
seeing them around the country, you can see them have an effect 
in districts, you can see them have an effect in provinces, 
where they've been done in a coordinated and concentrated 
fashion. But, we still have enormous challenges through the 
country as a whole.
    As my colleague, Mr. Shinn, referred to, we've routed the 
enemy from their strongholds, but they've now turned more and 
more to tactics of pure terror--to bombs, kidnaping, things 
that make the population feel unsafe, and things that we need 
to prevent. In some cases, we're able to prevent those, because 
we get tips from local populations. I've heard that story in 
districts of Afghanistan. In other places, it's harder to 
prevent, because we don't really have solid government control, 
police control and governance, in all the areas of the country 
yet.
    The narcotics problem is still enormous. We're pleased to 
see the U.N. early assessment for this year that says there's 
probably going to be a slight decrease, but what it also says 
is that the high levels of poppy production in the south are 
going to stay that way, and that the link between the 
insurgency and the narcotics production is even more focused, 
even tighter.
    Where we establish good governance and are able to carry 
out the full scope of antinarcotics programs, we can see a 
decrease in the poppy cultivation; where, because of 
insecurity, we're unable to do all the things that government 
would like to do and all the aspects of the narcotics program, 
we're still seeing a very high level of counterproduction. We 
not only need to get a hold of these areas, but also to carry 
out this full-scope counternarcotics effort in those areas.
    Finally, weak government, and particularly, corruption, 
remains endemic. The reform and training of government 
ministries, of local officials, and of police forces have to be 
a high priority, because what the Afghan people expect from 
their government, they expect basic decent government, they 
expect government to be on their side, and not to try to take 
advantage of them through corruption and other means.
    In 2008, therefore, we're trying to deal with all of these 
problems, and attack both the enemy and the problems with all 
our various tools. I'd say there are four main tasks this year.
    One is to concentrate and coordinate our efforts. If you 
look through the reports that you've been talking about, a lot 
of the recommendations have to do with, how do you tighten the 
coordination in the international community? How do you tighten 
the coordination between civilian and military activity? How do 
you tighten the coordination between the international effort 
and the Afghan Government? Those are all tasks that we're 
concentrating on.
    Second is to try to focus our resources, focus police, 
justice, roads, electricity, governance, the things that people 
want in the most troubled area. So, we bring all those things 
to bear in the district of Musa Qala in Helmand, which was a 
Taliban stronghold, which they have been pushed out of in 
recent weeks and the Afghan Government's going in with police 
and local government, we're going in with electric generators, 
with projects for the local population, to try to help 
stabilize those areas by bringing all our tools to bear.
    Second is that you'll probably see a dramatic expansion of 
the availability of electricity in Afghanistan this year, 
dramatic expansion that reaches, still, a minority percentage 
of the population, but people on the grid in Afghanistan--it's 
about 6 percent of the population. We have some major projects 
cutting in this year in Kabul, bringing electricity down from 
countries in the north, getting Kajaki Dam in the south back 
on, that should let us provide a lot more electricity to people 
in Afghanistan. That turns on the lights for kids to do 
homework, but it also gives farmers opportunities to do things 
like cold storage and marketing of their products in a way that 
they haven't been able to do, and, therefore, to increase their 
yields from legitimate crops instead of poppy.
    Third, there's a real focus on the narcotics problem, I 
think, especially in two ways. One is stepping up the 
interdiction of networks and traffickers, and, second of all, 
to go into these denied areas where the poppy production is 
protected by large landowners or protected by the insurgency, 
and to make sure that we can go into those areas and 
demonstrate that we can get the poppy that's grown in those 
places.
    Fourth, I'd say, there are increasingly good signs of 
cooperation between Afghanistan and Pakistan, and we want to 
work with both countries so that, instead of having the 
insurgents use these territories in Pakistan to push out in two 
directions, that between what's going on, on the Pakistan side 
and what's going on, on the Afghan side, we are, in fact, 
pushing in on them from two directions, and that they have to 
deal with that situation.
    I think we have, as I said, enormous challenges that 
remain, but we have good programs to deal with them, we have a 
focused strategy that needs to be concentrated and coordinated 
better, but that we could really have an opportunity here in 
Afghanistan this year to put the government in the ascendancy.
    The Taliban no longer control territory, but they're able 
to operate very widely throughout the country, and I think this 
has to be the year where the government is able to implant 
itself and bring stability to the key areas of Afghanistan. I 
think we have the programs to do that, if we do them properly, 
if we do them well.
    That's about all I'd like to say at the beginning. I'd be 
glad to take questions.
    [The prepared statement of Ambassador Boucher follows:]
          Prepared Statement by Ambassador Richard A. Boucher
    Chairman Levin and members of the committee: Thank you for the 
opportunity to address you today on progress and strategy in carrying 
out U.S. policy toward Afghanistan. I am just back from a trip to Kabul 
and Kandahar and look forward to sharing my impressions.
    Let me begin by posing two very fundamental thoughts about our 
involvement in Afghanistan: What is our objective and what strategy are 
we pursuing to get there?
    After September 11, the United States helped Afghan partners topple 
the Taliban regime and joined with international partners to ensure 
that Afghanistan would never again become a sanctuary for terrorists. 
We remain committed to the goal of building long-term stability based 
on Afghan national sovereignty, democratic principles, economic 
development, and respect for human rights. Afghanistan has achieved 
many successes in their fight against the Taliban and al Qaeda--
establishing infrastructure, securing territory, providing education, 
health care, and training, but we have not won yet. Our shared goal of 
stability requires a large commitment from us and our Allies, and will 
continue to require this for a considerable time.
    When we speak of our commitment, we are speaking of an investment 
in the future. Afghanistan is not just a battle theater to fight 
enemies, but a place of strategic opportunity. Afghanistan represents 
an opportunity to have a close, democratic ally in the heart of a 
continent with unmatched political and economic capital and potential. 
Afghanistan has the potential of becoming the linchpin for regional 
integration in south and central Asia. The past 6 years have showed us 
that it has the potential for transformation from a broken, failing 
state that harbored terrorists into a democratic, prosperous land 
bridge between the south and central Asian regions--regions that were 
virtually disconnected until 2001. A free and secure Afghanistan 
provides new opportunities for growth in trade and security, for the 
benefit of the region and the world.
    Comparing Afghanistan to what it was under the Taliban regime just 
6\1/2\ years ago, we have made serious progress on a broad range of 
fronts. Sustained successes on the battlefield have deprived the 
Taliban of their ability to move freely about the country and spread 
their extremist writ. Thanks to economic growth and strengthened local 
institutions, we are seeing support for the insurgency decline and 
support for the Afghan Government increase in most areas of 
Afghanistan. The recent visit of Secretary of State Condoleezza Rice to 
Kandahar, which was once the insurgent groups' home base, indicates the 
progress we have made and our continued commitment to support 
Afghanistan in completing its transition from tyranny to stability and 
a constitutional government.
    At the same time we must recognize that important challenges 
remain. The recent reports by the Afghanistan Study Group and the 
Atlantic Council of the United States are accurate in their assessments 
that narcotics production and trade, widespread corruption, cross-
border flow of insurgents from Pakistan, and lack of international 
donor coordination require our full attention. Many of the reports' 
recommendations for the way ahead are already being implemented: A 
resolute and comprehensive approach to counternarcotics; an economic 
and social development plan for Pakistan's border regions; diplomatic 
efforts to strengthen North Atlantic Treaty Organization's (NATO) 
involvement in Afghanistan; and support for a United Nations Special 
Representative with a strong mandate.
                                security
    As Secretary Rice said during her trip to Afghanistan last week, 
our counterinsurgency efforts in Afghanistan ``is having good effect, 
but the work is not complete.'' We have made considerable progress 
against the Taliban and other insurgents. U.S.-led NATO forces in the 
East have successfully linked security operations with governance and 
reconstruction initiatives in a full-spectrum counterinsurgency 
campaign. Afghan army, police, governors, tribal leaders and citizens 
are standing against the Taliban. In the south, Afghan and Allied 
forces have taken the fight to the Taliban, recently recapturing the 
restive district of Musa Qala in Helmand province and helping establish 
Afghan Government presence. We and our NATO and Afghan partners 
continue to work together to consolidate and extend those gains by 
bringing in governance and development.
    Due to their inability to win on the battlefield, the Taliban have 
resorted to terrorist tactics such as improvised explosive devices, 
suicide bombs, kidnapping, and direct targeting of foreign civilians. 
The attack on the Serena Hotel in Kabul on January 14 is but the most 
recent example. Of course, these indirect tactics can be deadlier than 
open combat for our troops. We are also battling a cynical but 
effective Taliban communications strategy.
    The United States, our Allies, and Afghan officials share the 
desire to see the Afghan Government assume greater responsibility for 
its own security. Our training and equipping programs for the Afghan 
National Security Forces are showing results: We have trained and 
equipped more than 49,400 Afghan National Army personnel. The Afghan 
National Army is now a respected institution amongst Afghans and is 
increasingly taking the lead in planning and executing operations.
    We have a comprehensive program in place to develop the Afghan 
police and to increase policing capacity at the district level called 
the Focused District Development Plan. Through better training and 
leadership, improved pay and electronic distribution of salaries, and 
provision of better equipment, we are working to ensure that the police 
are ready and motivated to do their jobs. But it takes time to 
transform a system of militias loyal to local commanders and warlords 
to a professionally led force acting on behalf of the Government of 
Afghanistan that respects and enforces rule of law and human rights.
    We are committed to NATO's mission and are increasing American 
support to the NATO-led International Security Assistance Force with 
more troops and resources. The United States will deploy an additional 
3,200 marines to Afghanistan this spring. 2,200 marines will be 
deployed to Regional Command South. The remaining 1,000 marines will 
train and develop Afghan National Security Forces.
    Without doubt, success is possible but not assured. Therefore, the 
international community needs to continue and expand its efforts. The 
greatest threat to Afghanistan's future is abandonment by the 
international community. As Secretary Gates has made clear in testimony 
here and in other public comments, meeting the requirements identified 
by NATO commanders remains a challenge. The mission in Afghanistan 
needs more forces, equipment (such as helicopters), and trainers for 
the Afghan army and police. We have promised the Afghan people to 
assist in stabilizing their country and NATO needs to provide the 
personnel and the tools to make good on that promise. As we look to the 
upcoming NATO Summit in Bucharest in April, we will continue to work 
with our 25 NATO Allies and other International Security Assistance 
Force (ISAF) partners in Afghanistan to meet the requirements needed to 
succeed in the NATO ISAF mission.
                               governance
    Lasting stability will only come when the Afghan Government can 
step in to fill the void that is left when an area is cleared from 
insurgents. We must, therefore, focus on the less tangible but equally 
critical goal of extending the government's influence nationwide. In 
order to persuade Afghan citizens to side with their government against 
the insurgents, Afghans must see that their government has the ability 
to deliver basic services, provide the rule of law, uphold human 
rights, and extend economic opportunities effectively, transparently, 
and responsibly throughout the country. Our foreign assistance programs 
help achieve the objective of visible and viable Afghan governance at 
the local level. We are funding local projects developed by community 
and provincial councils that play an increasing role in responding to 
the people's needs. We are also helping the Ministry of Education 
create a network of public service academies and the Ministry of 
Justice to promote rule of law at the local level.
    We support honest and competent governors that respond to the needs 
of the people and respect human rights. In this context, we welcome the 
establishment of the Independent Directorate for Local Governance that 
has already achieved encouraging results. We hope that this institution 
will continue to be instrumental in building public confidence in the 
Government of Afghanistan.
                             reconstruction
    Reconstruction and development work remains on track in much of the 
country and the Afghan economy continues to grow at impressive rates, 
with licit Gross Domestic Product more than doubling since 2002. The 
lives of millions of Afghans have improved considerably: Up from 8 
percent of Afghans in 2001, more than 80 percent of the population now 
has access to medical care. Almost 11,000 medical professionals have 
been trained. More than 680 hospitals and clinics have been built and 
outfitted. For the first time in 10 years, the grain harvest was 
sufficient to meet consumption needs inside Afghanistan. In 2001, 
900,000 children--almost exclusively boys--were enrolled in school. 
Now, there are more than 5 million and more than 1.5 million of these 
(34 percent) are girls and young women. Since 2001, there has been a 22 
percent decline in mortality rates for infants and children under 5 
years of age--we are saving 85,000 more young lives every year. More 
than 70 percent of the population--including 7 million children--has 
been inoculated against the Polio virus. In 2001, there was a 
dysfunctional banking system. Now, Afghanistan has a functioning 
Central Bank with more than 30 regional branches and an 
internationally-traded currency. There are now 3 mobile telephone 
companies serving more than 3.5 million subscribers--this is almost 11 
percent of the population. In 2001, there were 50 kilometers of paved 
roadway in the country, now there are more than 4000 kilometers of 
paved roads.
    We plan to allocate close to $600 million of our fiscal year 2008 
base foreign assistance budget to reconstruction efforts in 
Afghanistan, which will support programs ranging from education, 
health, agriculture, infrastructure, and the activities of Provincial 
Reconstruction Teams. In the fiscal year 2008 supplemental, we have 
also requested about $500 million to build roads and power 
infrastructure and another $50 million to expand our successful health 
and education programs. These initiatives are connecting the Afghan 
people to their government and are creating an environment in which 
they have the basic services and infrastructure necessary to prosper.
    We are not alone. Our programs are part of a broad international 
assistance effort. The Government of France has indicated its 
willingness to host an international conference this summer that will 
provide an opportunity for significant new pledges of international 
assistance for Afghanistan over the coming years. We are confident that 
this conference will demonstrate once again the depth of international 
support for Afghanistan.
                       democracy and human rights
    Our support for democratic stability and constitutional government 
in Afghanistan is also yielding positive results. The Afghan Parliament 
is assuming its appropriate role as a deliberative body and 
Presidential and Parliamentary elections are due in the next 2 years. 
Given that voter registration will take about a year to complete, it 
needs to begin soon. The Afghans will have to make key decisions on 
election dates and the electoral system. In the fiscal year 2008 
supplemental, the President requested $100 million for critically 
needed election-support programs.
    A transparent and fair justice system is critical to ensuring that 
the people of Afghanistan respect the authority of the central 
government and to ensuring that the rights of Afghan citizens are 
protected. We have established a public-private partnership with 
American law firms and schools to help advance rule of law and 
establish a strong core of legal professionals.
    The development of an independent, active Afghan media has been 
remarkable. However, there is still room for improvement. We are 
concerned about the deterioration of media freedom over the last year, 
including an increase in detention of journalists and government 
interference in media coverage over the past year. Also troubling were 
the deaths of two female journalists last summer and the recent death 
sentence of a young Afghan journalist. We are working with the Afghan 
Government and the Afghan Parliament to emphasize the importance of the 
new media law currently in the legislative process meeting 
international standards regarding, in particular, the legal protection 
of journalists and removing vague content restrictions, establishing a 
fair, independent licensing system and an independent body to govern 
Radio Television Afghanistan.
    A peaceful and stable Afghanistan cannot be secured without the 
active political and economic involvement of women. Although women's 
political participation has gained a degree of acceptance, women who 
are active in public life continue to face disproportionate threats and 
violence. Furthermore, women and girls continue to face severe 
discrimination and both formal and customary justice mechanisms that 
fail to protect their rights. The United States is firmly committed to 
support for Afghan women and integrates women's issues into virtually 
all of its programs, aiming to increase female political participation, 
education, economic opportunities, and their role in civil society.
                            counternarcotics
    Although the number of poppy-free provinces more than doubled in 
2007, total opium poppy cultivation in Afghanistan grew significantly. 
The Afghan Government, the United States, and the international 
community are alarmed about this development. Afghanistan's poppy 
production fuels corruption and narcotics addiction, and is a 
significant source of financing for criminal and insurgent groups. In 
order to prosper, Afghanistan must rid itself of the opium poppy. 
President Karzai and his top leaders recognize this.
    Countering poppy growth requires a multi-faceted approach. We are 
pursuing precisely such an approach with our comprehensive five-pillar 
strategy involving public information, alternative development, law 
enforcement, interdiction, and eradication: We are reinforcing the 
message that poppy cultivation is immoral, illegal, and un-Islamic. We 
are helping farmers gain access to other means to feed and clothe their 
families--access to alternative crops and other means of livelihood, to 
roads that will allow them to move their crops to market, to advice 
concerning markets for their new crops and to legitimate sources of 
credit. We are also helping the Afghan Government to increasingly 
provide credible law enforcement, interdiction, and eradication. The 
disincentives for poppy cultivation must be bigger than the potential 
profit. The credibility of our counternarcotics efforts depends upon 
making the risks of growing poppy unacceptable.
    Local governance structures and counternarcotics are closely 
interconnected. Where government has control and has placed good 
administrators, poppy production is down. Where the insurgency rages, 
poppy production is up. This trend is likely to deepen in 2008. The 
United Nations Office on Drugs and Crime projects an increase in poppy 
cultivation in several southern and western provinces and sustained 
decreases in the East and the North. Overall cultivation is expected to 
decrease slightly. Given the record cultivation numbers last year, a 
slight decrease is clearly not satisfactory. We will continue our 
efforts to counter the narcotics cultivation and trade.
                        relations with pakistan
    A strong, cooperative bilateral relationship between Afghanistan 
and Pakistan is a crucial precondition if we are to see a decline in 
the cross-border flow of insurgents and progress toward security on 
both sides of the Durand Line. Afghanistan's relations with Pakistan 
moved forward in 2007 with several summits, the productive August 
bilateral peace jirga in Kabul, and President Karzai's successful visit 
to Islamabad in late December. Both sides agreed at the August peace 
jirga to hold routine mini-jirgas. Pakistan has offered 1000 
scholarships to Afghans in a good step toward increasing positive 
connections. Despite recent political events in Pakistan, its security 
forces continue to combat extremism, as demonstrated by their 
operations to flush out militants in the Swat Valley. Close cooperation 
with Pakistan remains key to the success of U.S. strategic goals in the 
region and we continue to explore ways to help the Pakistani military 
and local security forces improve their counterinsurgency and 
counterterrorism skills.
    We are and have been encouraging the Government of Pakistan to take 
sustained and aggressive actions against violent extremists. At the 
same time we recognize that a purely military solution is unlikely to 
succeed. We therefore strongly support the Government of Pakistan's 
efforts to implement a comprehensive and long-term strategy to combat 
terrorism in the border regions, which include the federally 
Administered Tribal Areas, parts of the Northwest Frontier Province, 
and Baluchistan. We are committed to supporting this initiative to 
bring economic and social development and effective governance, making 
these remote areas less hospitable to violent extremists. We are also 
looking forward to working with Pakistan's new civilian government on 
this important initiative after the February 18 parliamentary 
elections.
                           concluding remarks
    In conclusion, let me repeat my earlier observation that in 
Afghanistan we have had a lot of successes, but we are far from 
success. We should not lose sight of the progress that has been made 
and that we continue to make year by year. Broad swaths of 
Afghanistan--especially in the north, the west and even the east--are 
hardly recognizable by comparison with where they were 7 years ago. We 
do no-one a service by ignoring this progress.
    Nonetheless, there remain daunting challenges--especially with 
respect to security, counternarcotics, and governance. For millions of 
Afghans, life remains bitterly difficult--especially during this 
exceptionally cold winter.
    We and our international and Afghan partners have our work cut out 
for us, but we have a solid foundation of progress on which to build. I 
am convinced we have no choice but to meet the remaining challenges 
head on. With a sustained investment of resources and effort, we have 
every prospect of securing a stable, democratic and lasting ally in 
Afghanistan, and an important lynchpin for regional stability and 
economic integration.
    I would be pleased to respond to your questions.

    Chairman Levin. Thank you so much, Secretary Boucher.
    General Sattler, would you like to add anything?
    General Sattler. No, Mr. Chairman. I'm ready for questions, 
sir.
    Chairman Levin. Thank you.
    We'll try a 7-minute round, if that's all right.
    Senator Warner made reference to Secretary Gates's comments 
about NATO and the need for NATO to step up and provide a 
greater share in their commitments. Secretary Shinn, is NATO at 
risk of failing if alliance members do not come forward with 
the resources to meet the requirements of the ISAF mission?
    Dr. Shinn. I believe that's something very close to what 
the Secretary mentioned in his comments to the NATO ministers, 
week before last. My understanding is that he was talking about 
the future, and that it hadn't happened yet, but that there was 
a real risk to the alliance if, as he said, it evolved into one 
set of members who will fight, and others who will not put 
their troops in harm's way.
    Chairman Levin. Would you agree, Secretary Boucher, with 
Secretary Gates, that NATO is at risk of being a two-tiered 
alliance, for the reason that Secretary Shinn just gave? Is 
that a real risk?
    Ambassador Boucher. It is, sir. I think we have to remember 
that there are difficult tasks throughout Afghanistan, and we 
have to value the contribution that everybody's making. But, 
one of the things our commanders keep telling us is, they need 
the flexibility to use the different forces in different parts 
of the country----
    Chairman Levin. They don't have that----
    Ambassador Boucher.--and they don't have that flexibility, 
both through caveats, people who put their troops in a certain 
place and want them to stay there, and just through the overall 
manning levels that haven't been reached yet.
    Chairman Levin. Now, the Chairman of the Joint Chiefs, 
Chairman Mullen, said that the coalition forces are facing a 
classic growing insurgency. DNI, Admiral Michael McConnell, 
testified on February 5, that ``The security situation has 
deteriorated in the south, and Taliban forces have expanded 
operation into previously peaceful areas of the west and around 
Kabul.'' Do you agree with that? Secretary Boucher, do you 
agree with that? That's the DNI saying that.
    Ambassador Boucher. I'll always agree with DNI, but I think 
we----
    Chairman Levin. You don't have to agree with him. I'm just 
asking, do you agree with him?
    Ambassador Boucher. I think the answer is ``yes and no.'' 
What we've found is, the Taliban set out last year to take 
territory. They set out to put a ring around Kandahar and see 
if they could take Kandahar. They set out to strengthen their 
hold on particular strongholds. What we showed last year is, 
they were unable to achieve those goals. They failed in their 
goals, as they stated them for last year. The spring offensive 
never happened.
    So, we have, last year, pushed them out of strongholds--the 
Panjwayi district, near Kandahar, Musa Qala district, in 
northern Helmand, the Sanguin district, in northern Helmand. 
Those were strongholds. Those are heartland for Taliban. 
They've been unable to hold them.
    On the other hand, they have been able to change their 
tactics, adjust their mode of operations, and they've adopted 
tactics of bombings and kidnapings and intimidation of 
villagers. They have been able to do that more broadly.
    Chairman Levin. Have the Taliban forces expanded operations 
into previously peaceful areas of the west and around Kabul, as 
Admiral McConnell said?
    Ambassador Boucher. They've been able to carry out attacks 
in those areas, yes, sir.
    Chairman Levin. General Sattler, do you believe the 
antigovernment insurgency in Afghanistan has been contained?
    General Sattler. Mr. Chairman, it goes back to your 
previous question. NATO has expanded their operations, doing 
more distributive operations outside major bases, which means 
you obviously encounter more enemy forces in locations they may 
have declared safe havens previously, but now you're there. So, 
our engagement with the enemy, as was already articulated, sir, 
each and every time we do encounter the enemy, mano-a-mano, 
that they come out on the short end. So, I would say, contact 
with the Taliban and the insurgent forces has been greater over 
the course of the last year. But, once again, I cannot confirm, 
sir, that either they may have been there and now we're 
operating in areas which were previously perceived as safe 
havens, or if, in fact, they've grown, sir.
    Chairman Levin. So, you're not able to tell us that, as of 
now, antigovernment insurgency in Afghanistan has been yet 
contained. You cannot tell us that.
    General Sattler. Mr. Chairman, in the areas where we have 
forces, it is contained. Where we have been able to do the 
clear and the hold, it is contained. In other areas, I cannot 
comment on, sir.
    Chairman Levin. You can't comment, or you can't tell us 
that it has been?
    General Sattler. I can't tell you that it has been 
contained, sir.
    Chairman Levin. Now, The Atlantic Council report says that 
the future of Afghanistan is going to be determined by progress 
or failure in the civil sector. I think a number of our 
witnesses have confirmed the importance of that. The 
reconstruction effort has been criticized for the lack of 
international coordination among contributors, which include 
over 40 countries, the U.N., the European Union, NATO, and a 
number of NGOs. Both the Afghanistan Study Group and The 
Atlantic Council reports recommend the appointment of a high-
level U.N. international coordinator. Paddy Ashdown, former 
high representative for Bosnia, was considered for this 
position, but, apparently, the Karzai Government nixed it. Do 
we know, Secretary Boucher, why that appointment was nixed? 
Does that represent a setback?
    Ambassador Boucher. First of all, I think it's regrettable 
that the Karzai Government didn't accept Paddy Ashdown as the 
international senior civilian. We very much looked forward to 
having him in that role.
    We've heard a lot of explanations and discussions, mostly 
having to do with the domestic political environment. But, 
ultimately, I think it's for them to try to explain, rather 
than me.
    But, at the same time, we've sat down with them, 
subsequently, both in the Secretary's talks last week and in my 
subsequent follow-up with the Foreign Minister. They tell us 
they do agree on the need for a strong international 
coordinator, they will look forward to working with an 
appointment by the U.N. Secretary General, and we're now 
engaged in the process of identifying the proper person.
    Chairman Levin. The Atlantic Council report finds that less 
than 10 cents of every dollar of aid for Afghanistan goes to 
the Afghan people directly. One program that has worked, we 
believe, successfully to establish community development 
councils to identify local priorities and implement approved 
sub-projects, that has been the National Solidarity Program. 
Now, according to a press release from December, the National 
Solidarity Program has provided $400 million in payments 
disbursed to 16,000 community development councils in 
Afghanistan. These payments have financed more than 30,000 
community development sub-projects to improve access to 
infrastructure, markets, and services. The program draws 
resources from the Afghanistan Reconstruction Trust Fund, which 
is administered by the World Bank, by distributing funds 
directly to districts at the lowest level, which are the 
villages. By bypassing the central or provincial governments, 
the National Solidarity Program reduces corruption and 
misappropriation, and avoids unnecessary contractual layers.
    I'm wondering, Secretary Boucher, whether or not you are 
familiar with the National Solidarity Program, and would you 
comment on it? If it is successful, can you tell us if the 
Afghan Government supports the program and their use of 
community development councils? Do we support the program?
    Ambassador Boucher. The answer is: yes, yes, yes, and yes. 
This is one of the more successful programs in Afghanistan. Ten 
days ago, when I was out there, I met with the Minister for 
Rural Rehabilitation and Development, who runs this program. 
His updated numbers are 35,000 projects in 25,000 villages 
around the country. These are mostly small projects. They're 
wells, they're roads, they're retaining walls--schools, 
sometimes--things that are done in consultation with local 
people, with local villagers, through the community development 
councils. That's a mechanism that we think works. We think the 
projects are done well. It delivers what people need and what 
people want from their government, which is, as I said in my 
opening statement, really the nub of the matter.
    So, we have put money in this program, ourselves. I think 
we've put about $10 million in. But, we have another $50 
million for this program in our budgets this year. I think much 
of it's in the supplemental funding that hasn't been passed 
yet, but we would hope to get that money and be able to expand 
our contribution.
    Chairman Levin. I'm glad to hear that because apparently it 
does not have the problems of corruption and bureaucratic 
layers that these other programs have, and I'm glad to hear 
there is support for it. We will continue to look for that 
money to be flowing in that direction.
    Ambassador Boucher. Yes. There are a number of ministries 
in Afghanistan that have gone through the reform process, that 
have improved their capabilities, and that are really able to 
deliver projects at a local, provincial, and district level. 
This is one of them. Education's another one. Health's another 
one, and one of the things we're trying to do this year is 
concentrate international and Afghanistan resources, so that 
all those programs can work to stabilize an area.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Mr. Chairman, Senator Inhofe has asked that 
he take my spot in the rotation.
    Senator Inhofe. Senator Warner, thank you very much for 
allowing me to do this, and I won't take all of my time, here.
    When OEF begain in October 2001, all the journalists were 
buzzing around, and then all of a sudden it seemed to have lost 
its sex appeal and they all went to Iraq. Now they have talked 
about rediscovering Afghanistan; it's the forgotten war. Having 
made several trips to both Iraq and Afghanistan, I don't think 
that's the case. Let me just share a few memories, here.
    Early on, I was there when they turned over the training of 
the ANA to the ANA. It was very meaningful to me, I say, 
Senator Warner, because it was the Oklahoma 45th that was in 
charge of the training. I've talked to these kids, they're very 
much impressed with the type of warriors these guys are. Then I 
was honored to be with General Jones on his last trip that he 
took.
    One of the things that I haven't heard much in the 
testimony here, that was a problem in those early years, and 
apparently still is, or at least it was, according to General 
Dan McNeil on December 1, is that there's a unique problem of 
corruption at the local level, that there's not really a 
central authority that you can get in there and try to address 
the corruption problem, because it's the mayors and those--is 
this a problem?
    Ambassador Boucher. It is endemic in Afghanistan, and when 
people look to their government for fairness and decency and 
services, that corruption is really one of the things that 
separates people from their government, instead of pulling them 
together. There are a lot of efforts made to improve the 
quality of government services, the audits and the accounting, 
the insulation of the government against corruption. It's an 
active program that we have with the Ministry of Finance to try 
to track money better, keep it from being stolen.
    We have a lot of support for the attorney general and the 
prosecutors, who have started going after corruption. But, it 
is deeply rooted, it's longstanding, and it's something that we 
need to get at.
    One of the features of the current police program, I think, 
is to really go into the district and, as we pull out the 
current police, they're then not only retrained, but reformed 
and vetted, so that when they go back, they will behave 
differently than they did before.
    Senator Inhofe. Yes, and that's essentially what General 
Eikenberry said in this report that we're looking at today.
    General Sattler, I know what your answer is, but I have to 
get it on the record, so, here it comes. My favorite programs, 
as I've gotten from the commanders in the field, are 1206, 
1207, 1208, and train and equip, and then, of course, the 
Commanders' Emergency Response Program (CERP). We tried to get 
these programs expanded during this last go-around, but the 
1206, -7, and -8 will expire at the end of this year. I'd like 
to know, from your perspective, how significant this is, that 
we get these, not just reauthorized, but also expanded.
    Then I would ask the same thing about the CERP, because 
right now, while it is only good for Afghanistan and Iraq, we 
were trying to make it global, and this really came from the 
commanders in the field. Could you respond to that?
    General Sattler. Yes, Senator Inhofe. Thanks for the 
opportunity.
    The 1206 is the global train and equip, which the Armed 
Services Committees have given us the authority, but not 
appropriations, to reprogram up to $300 million, globally, to 
go ahead and take a look at problems, to home in, along with 
the chief of mission--it's a combination program that is 
actually executed by the Secretary of State and the Secretary 
of Defense. The two secretariats gives us the flexibility for 
the combatant commander to get with the country team and the 
ambassador and look at a problem that might exist, either a 
problem that's sliding towards becoming a crisis, or to take 
advantage of an opportunity. Because the budgeting cycle takes 
a period of time, you can't really get in and fix, train, and 
equip local forces on a normal budget cycle. So, this is that 
malleable tool, that flexibility, that permits the two 
Secretaries to help a troubled spot anywhere in the world.
    Senator Inhofe. Okay. I'd ask, since we have both State and 
the Department of Defense represented on this panel. I think it 
was put together in such a way so that the commander in the 
field makes a recommendation, then it goes, and it's a real 
fast track, just a matter of a very short period of time. Yet, 
it ensures the cooperation of both State and Defense. Any 
comments from either State or Defense on this?
    Ambassador Boucher. Sir, if I can echo everything General 
Sattler said, the 1206 in particular, is really important to us 
in fighting terrorism around the world and really being able to 
bring some resources to bear fairly quickly on particular 
problems that confront us. So I think there's excellent 
interagency cooperation in targeting and focusing those funds.
    I want to just praise, as much as I can, the CERP. We 
decided, last year at the beginning of the year, that we really 
needed to expand the money that we spend through PRTs, to help 
extend the government and help the Afghan Government do things 
on the ground in key areas. CERP has come through. I've been 
out to these PRTs. They're building dams, they're building 
schools, they're building bridges, they're building roads, 
they're changing the environment, really transforming the 
situation. It's a combination of the reservists in the U.S. 
Army, the people who know how to build bridges and plan cities 
and conduct--plus the CERP.
    Senator Inhofe. What about the idea of making it global so 
it's not confined to just those areas?
    Ambassador Boucher. I think the more, the better. It's 
money well spent. Some of the best-spent money in Afghanistan 
is CERP money.
    Senator Inhofe. That's good. I appreciate that very much.
    Do you agree with those comments?
    Dr. Shinn. Yes, Senator, I'd agree with that and point out, 
to the earlier question about the alliance, the CERP has all 
the merits that you described, but it's largely limited to the 
12 PRTs that the U.S. manages. We've been pressing our NATO 
allies, those who run the other 13 PRTs, to come up with 
something similar to that, that would have the same positive 
effects without all the central bureaucracy and within the 
short decision cycle that CERP does.
    Senator Inhofe. All right. Thank you very much.
    Thank you, Mr. Chairman and Senator Warner.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you 
for convening the hearing.
    I'd like to thank and welcome the witnesses today.
    I think it's helpful for us to hear what you are telling us 
about Afghanistan in relationship to that part of the world, 
and as well as what we can expect with respect to NATO's 
participation. It appears to me that the strategy, thus far, 
has left us a path with insufficient military force and 
inconsistent strategy to combat the Taliban and al Qaeda, and, 
as a result of that, they are reconstituting themselves, both 
in the area and on the Afghanistan-Pakistan border.
    The challenge we have is, we've either been unwilling or 
unable to get the expansion of the capabilities of NATO, over 
the last several decades, at the level that we've needed it in 
order to be able to deal with an issue like we have in 
Afghanistan. I don't know whether we've kidded ourselves or 
whether we've known this; but, I can tell you, I don't think 
the American people have realized how inadequate NATO may have 
been.
    Fortunately, and thankfully, Secretary Gates has spoken out 
on this. As he said, nobody's united the NATO forces more than 
he has with his remarks in the last several weeks. But, thank 
goodness somebody has spoken out to at least get the subject 
out before us so we can begin to deal with it.
    Now, my question, to begin with, is, as we look at the 
strategy in Afghanistan today, do we have an inverted triangle 
that we're building, the base being very unstable, a base that 
continues to have an agrarian economy that is structured on 
poppy, as opposed to a true agricultural base that is 
sustainable in the long term? Either we're going to have to 
wipe out their poppy crop or we're going to have to see them 
change to a different kind of agricultural system. I've been 
worried about getting a farm bill over here. Maybe we ought to 
be worrying about getting a farm bill over there, to be able to 
restructure their agricultural base, because if we don't do 
that, all that we're doing over there is fundamentally based on 
agriculture that is not sustainable, by any imagination, if 
it's based on narcotics and if that is what is sustaining 
Taliban and al Qaeda and other terrorist activity as the 
fundamental source of the funding.
    So, I guess I'm going to start with you, Secretary Shinn. 
What are your thoughts, do we have a base being built over 
there, or is it all on the wrong premise?
    Dr. Shinn. You're certainly right, Senator, on your two 
major points, that it's an agricultural economy, and----
    Senator Ben Nelson. Sort of.
    Dr. Shinn. It has a narrow base, and much of that base is 
narcotics, it's growing poppy. There is no easy solution to 
that problem, other than widening out the bottom of that 
triangle with the Alternative Livelihood Program.
    Senator Ben Nelson. Do we have a farm bill over there?
    Dr. Shinn. I'm not sure we have the equivalent of a farm 
bill, but----
    Senator Ben Nelson. We'll let Secretary Boucher speak to 
that.
    Ambassador Boucher. I guess I'd have to say I'm not 
familiar enough with a farm bill to tell you exactly----
    Senator Ben Nelson. A farm bill. Do we have an agricultural 
plan there to change the base of the agriculture from 
narcotics-driven production agriculture to something that is 
sustainable into the future? Because we cannot permit them to 
sustain this form of agriculture.
    Ambassador Boucher. Yes. I think you've put your finger on 
it. But, it's broader than just agriculture. There's probably 
no single crop that's as easy to grow and as lucrative to a 
farmer as growing opium poppy. But, what we've seen in the 
experience of other countries--if you take Turkey, Thailand, or 
Pakistan, places that had been, at one point in time, the major 
suppliers of opium or heroin to the world, what you see there 
is, the transformation of the rural economy has been a key 
factor. So the effort of bringing in roads, electricity, 
irrigation programs, and fruit trees, transforms the rural 
economy, so you get a better market for the vegetables and 
fruit that you grow. Your brother-in-law drives a truck, makes 
some money; your sister-in-law, she has a handicraft store, 
where she is able to supply things to the local area, or even 
the export market. The whole rural economy changes, and that's 
how people get out of poppy production.
    Unfortunately, what we've seen is the concentration of 
poppy in the insurgency areas in the south. This new U.N. drug 
estimate report has some very interesting statistics. We're 
actually doing a lot of assistance in the areas that have now 
become the major producing areas for poppy: there are 
alternative livelihoods available, there is assistance, there 
are education programs. But, nonetheless, some of these surveys 
show 70 percent of the villages that have received some kind of 
assistance are still growing poppy in the south. That's 
different from the whole rest of the country. You have to, 
essentially, establish government control, and build a 
different economy.
    Senator Ben Nelson. But, if you look at the economics of 
it, isn't it true that the money to be made in poppy production 
is not at the agricultural level at the base for the farmer. 
They're told what they're going to get. They have to do it. 
But, the money is to be made by the narcotics ring, Taliban and 
the others that are generating great sums of money for their 
own evildoing.
    So, wouldn't it be wise for us to have a broadbased 
agriculture plan within the area? I heard the President, the 
other evening, speaking about agriculture. Unfortunately, it 
wasn't about American agriculture, it was about agriculture in 
other parts of the world. Perhaps we ought to have a plan there 
that we can articulate, that we can facilitate, and we can 
measure, after the fact. Because, what it seems to me is, we're 
fiddling, and Rome is burning internally there as we see the 
enemy regenerate itself from right in the midst of what we're 
watching, as we try to continue to put bandages and Band-Aids 
on hemorrhaging arteries.
    Ambassador Boucher. I agree with you, Senator, on what we 
have to do. I think there is a broadbased agricultural and 
rural development plan for the country, and including for those 
areas where the poppy is most prevalent.
    Senator Ben Nelson. But, how soon and how long?
    Ambassador Boucher. In order to apply it, and apply it 
thoroughly, you need to get security, and you need to get the 
government in there. That's where this nexus between insurgency 
and narcotics--it's areas of insecurity, where the government 
is--where there's lack of governance, that we've not been able 
to bring the poppy problem under control.
    Senator Ben Nelson. Even if we don't require the NATO 
countries to put up guns, can we help them get involved with 
helping the Afghans with butter, in terms of supporting that 
level? That's some of the soft power that I've heard Secretary 
Gates talk about in dealing with the challenge we have in the 
world today with asymmetrical warfare, that it has to be a much 
broader base. So, maybe we don't have to ask them to send guns, 
maybe we can have them come and help us with the Afghans so 
they can create their own butter.
    Thank you, Mr. Chairman. My time's up.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Warner.
    Senator Warner. I'm to, again, yield to my colleague 
Senator Sessions, in that you have to go to the 12:30 meeting 
with General Cartwright, as you are the ranking member on our 
subcommittee on that subject.
    Senator Sessions. Thank you, Mr. Chairman and Senator 
Warner.
    I want to ask some questions that concern me. I truly 
believe that it would be a tragedy of monumental proportions if 
we were to somehow allow Afghanistan to sink into the chaos it 
was in before. It would be bad for the world and for the 30 
million people there, and bad for the United States.
    I want us to be successful. We've been at it quite a while. 
I think, one thing that's clear, that creating an operating, 
efficient government in an area of the world that's never had 
one before is very, very difficult. It's just hard. We can 
place blame anywhere we want to place it, but it's not easy. 
Corruption is not something we can just pass a law and have it 
end; it's part of the cultural history that's risen from the 
oppression and so forth that they've suffered.
    But, I guess I'm looking at The Atlantic Council report 
that indicates on the security side, that a stalemate has taken 
place, and then they say, ``However, civil sector reform is in 
serious trouble. Little coordination exists among the many 
disparate international organizations, agencies active in 
Afghanistan. To add insult to injury, of every dollar of aid 
spent on Afghanistan, less than 10 percent goes directly to 
Afghans, further compounding reform and reconstruction 
problems.''
    Now, the three of you have talked about that, and our two 
secretaries, mostly, have discussed it. Secretary Boucher, who 
is in charge of this, from the United States side, on the civil 
responsibilities in Iraq?
    Ambassador Boucher. I guess I'd say the chief people are 
myself, in Washington, and our ambassador, in the field.
    Senator Sessions. What other responsibilities do you have, 
in addition to Afghanistan, in your portfolio?
    Ambassador Boucher. I have India to Kazakhstan, but I also 
have an Afghan coordinator, working in my front office, who 
spends all his time on Afghanistan.
    Senator Sessions. If a decision has to be made about how to 
distribute our assets or set priorities, who makes that 
decision?
    Ambassador Boucher. Primarily our ambassador in Kabul. They 
get the funding, and they try to allocate it where it's most 
needed.
    Senator Sessions. But, ambassadors are, on the scheme of 
things, pretty far down the line, are they not, in terms of 
requesting the resources and reprogramming monies? Are they 
able to effectively make the decisions, and does our ambassador 
understand that he has that authority?
    Ambassador Boucher. He very much understands he has that 
authority. I think, if you look back at the funding requests 
that we've made to Congress, and Congress has funded, most of 
those originated at our Embassy in Kabul, and our ambassadors 
very much understand and put their requests directly to us and 
at a high level. Our job is to get the money that the people on 
the ground need to do their job.
    Senator Sessions. You indicated, I believe, or maybe 
Secretary Shinn, that tightening coordination, focus resources 
in troubled areas, increasing electricity, poppy eradication, 
and better cooperation with Pakistan are priorities in 
Afghanistan. Who is in charge of executing that, and what name 
do they have?
    Ambassador Boucher. The people I just talked about, I 
guess, would be in charge of executing that: the Embassy in 
Kabul, Ambassador Wood, out there, myself, and our Afghan 
coordinator, Pat Moon.
    Senator Sessions. It's my observation that our American 
public is a little bit confused. We look to our military to 
take care of Afghanistan. We are looking to our military to 
take care of Iraq. But, large parts of the effort that's 
necessary to success depends on the civil infrastructure. So 
you acknowledge that that is the State Department's, primarily, 
responsibility.
    Ambassador Boucher. Yes, our primary responsibility--we 
work with people from all the agencies.
    I have to say, the coordination on the ground between the 
U.S. military, U.S. agencies, U.S. Agency for International 
Development (USAID) programs, handled by the Ambassador and 
General McNeil and the other generals out there, is very, very 
good. I think the key problems of coordination involve getting 
all the international community together to focus on some of 
these goals and do things in a standardized and focused way.
    Senator Sessions. Let me ask you, these four goals that you 
mentioned, I guess that's a plan, although it is not 
particularly specific. I sense that it's an objective report 
that I'm getting here from you, Secretary Boucher and Secretary 
Shinn, we're sitting back, and you're discussing all of this, 
with wisdom and observation from afar, but I'm interested in 
who is in charge of fixing it, who has direct responsibility, 
who understands it's their responsibility, who understands, if 
we fail, civilly, we place our soldiers at greater risk to be 
killed, or our allies to be murdered. It furthers the progress 
of the Taliban if we're unsuccessful. Do we clearly understand 
that? I guess, again, our ambassador, you say, is the primary 
point person on the ground, but how long does an ambassador 
serve there, and when do you expect a change in that office?
    Ambassador Boucher. Ambassadors serve at the pleasure of 
the President. It has generally been 2 years in Afghanistan. 
Ambassador Wood started earlier in 2007, late spring, if I 
remember correctly.
    I think we all understand, whatever department, whatever 
agency, whatever job we have in Washington or in Afghanistan, 
the stakes involved and the need for success and the way that 
we have to operate in order to achieve success. Any problems 
that come up in that process are the responsibility of me and 
the ambassador and others involved in the chain, to make sure 
they get fixed.
    Senator Sessions. A little while ago you said, ``I guess,'' 
in referring to responsibility, and you began listing a group 
of people with vague responsibilities. I would just suggest one 
of the weaknesses we have is, we don't have a clear chain of 
command, that there's one person that we can look to, by name, 
and who's responsible for the constant adjustments and changes 
and reallocation of resources necessary to be successful in a 
difficult situation like this. My only other question would be, 
how would the role of someone like Paddy Ashdown, the 
international coordinator, be able to focus our resources more 
effectively?
    Ambassador Boucher. Sir, this is a complex problem, and 
there are a lot of moving pieces to it, there are a lot of 
people involved in trying to solve it. If anybody's going to be 
held responsible in Washington, it ought to be me, and that's 
why I'm here talking to you. So, I'm happy to have my name 
attached to any success or failure that we achieve out there.
    I'd say, we do think that having a senior international 
civilian would help with that broader effort to coordinate the 
international community, coordinate the civil and military 
operations, and to coordinate between the internationals and 
the Afghans. Ultimately, our job, his job, is to support the 
Afghan Government in building and extending its capabilities.
    So, that, we think, would be a boon, not only to us, but 
also to the Afghans and the international community, as a 
whole, and that's why we're working on getting somebody who's a 
strong figure to perform that job.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Senator Levin, let 
me, first, thank you for convening the hearing.
    It strikes me, as I listen to our colleagues ask questions, 
Mr. Chairman and Senator Warner, that the situation on the 
committee and in Congress with regard to Afghanistan is quite 
different from with regard to Iraq. These two conflicts are 
different, although, I think, part of a larger war that we're 
in with Islamist extremism and terrorism. But, what I'm saying, 
in brief, is that, while we have had a lot of division of 
opinion on Iraq--unfortunately, too much of it on partisan 
lines--there does seem to be a kind of unanimity of purpose 
here with regard to Afghanistan, about how critical it is for 
us to get it right, and how we all know how harmful it will be 
if we fail. I do want to, in that spirit, thank you for 
convening these two hearings today, and to express the hope 
that, under the leadership of the two of you, this committee 
can play a very proactive role with regard to Afghanistan, in 
support of the work that these three gentlemen, and all the 
many who work under you, both here and in Afghanistan, are 
doing on our behalf.
    I was in Afghanistan about a month ago. Just to state an 
impression briefly, there are a lot of people worried about 
where this is going in Afghanistan. My own conclusion was that 
this is nowhere near as on the edge as, for instance, Iraq was 
in 2006, that our forces and the coalition forces, NATO forces, 
are holding our own, but we're facing an insurgency that is 
revived, we're operating in an unbelievably poor country, which 
has a proud history, but not so much of a governmental history, 
so it gives us great challenges. I think what we want to see 
happen--I know, we do and you do--is to see us begin to turn 
the tide toward more success in Afghanistan, as we've begun to 
see in Iraq.
    So, I want to begin with a question to Secretary Shinn. In 
your prepared testimony, you state, and I quote, ``that the 
simple counterinsurgency prescription is clear, hold, and 
build.'' It's my observation, based on a couple of visits there 
and, just, what I hear and read, that in the south of 
Afghanistan, in fact, coalition forces are clearing, but 
they're not really holding and building. I wanted to ask you--
which is to say that they clear a district, withdraw, the 
Taliban retakes it, and obviously there's no opportunity for us 
to build. I wanted to ask you if my impression is correct. If 
so, why is it so, and what can we do to change it?
    Dr. Shinn. Senator, I think your impression is correct. It 
is exactly the clear, hold, and build problem, particularly the 
hold part of it, that we agree with you, is what constitutes 
much of the problem in the south. Shortly, we're going to have 
a test case of this in Musa Qala, where, essentially, it was, 
for a period of time, under Taliban control; they were cleared 
out; we have backfilled, now, with ANP, for the hold part. 
Perhaps Secretary Boucher could expand on this. We're starting 
to, with the Afghans, flow in the resources for the build, the 
third piece of the equation, but the jury is out on how hard 
it's going to be for the reformed, or, in the process of being 
reformed, ANP, along with elements of the ANA, to hold Musa 
Qala long enough, and at a big enough of a scale, so that the 
rebuilding and the governance part can take place.
    Senator Lieberman. Thank you. I appreciate that.
    Secretary Boucher, do you want to add a quick word?
    Ambassador Boucher. I think, Senator, for a variety of 
reasons, the training of the police has lagged behind the 
training of the military.
    Senator Lieberman. Right.
    Ambassador Boucher. I think we have it right, both in 
numbers and quality. There's still the national apparatus that 
we've built with the military--the payroll systems, 
communication systems, command systems--that is still weak on 
the side of the police; and that's an essential part to being 
able to coordinate and use police well. Perhaps the job of 
building police is inherently more difficult, because you have 
a lot of people with some very bad habits who need to be 
reformed, retrained, weeded out, et cetera. But, I do think we 
have formulas, now, for really doing the job of the police 
training right. We've already seen some signs of success with 
this Focused Development District concept, and it's going 
forward in a big way this year. So, proof of the concept will 
be seen this year on the ground.
    Senator Lieberman. General Sattler, let me ask you a 
related question, which really goes to the clear, hold, and 
build. It's my impression that the comprehensive 
counterinsurgency strategy that our forces are employing so 
successfully in Iraq is being employed successfully also in 
Regional Command (RC) East by American forces. But--and which 
is to say, they have a campaign plan, and they are executing 
it, and they're executing it successfully--it's also my 
impression that there's no comparable campaign plan for the 
contested provinces of southern Afghanistan, where NATO forces 
are in the lead. I want to ask you to talk a little bit about 
whether that impression of mine is correct. What's prevented 
that from happening, and what can we do to get the south 
heading in the right direction--south of Afghanistan?
    General Sattler. Senator Lieberman, when ISAF took over, 
they have an operational plan, which has, basically, the same 
three lines of operation--security, reconstruction, and 
governance--as they move forward.
    Senator Lieberman. Right.
    General Sattler. When they came onboard 18 months ago, when 
ISAF took control of all Afghanistan, at that point most of the 
countries, when they signed up, they believed they were coming 
in for security and stability operations, or stability and 
reconstruction operations. Over a period of time, especially in 
RC South, the RC South countries have realized that it is a 
counterinsurgency in the south. They use the term 
``comprehensive approach to the challenge'' in the south. The 
Canadians, the Brits, the Dutch, and the Danes have all stepped 
up to the plate and are doing more counterinsurgency-like 
operations.
    Secretary Gates just submitted a paper to the RC South 
countries, which is a counterinsurgency-type strategy that 
takes credit for what's being done, talks about what is going 
on right now in RC South, and also looks towards the future. 
That paper was submitted by the secretary to the RC South 
countries at the same time that the NATO, the North Atlantic 
Council (NAC), and the Secretary General have come forward with 
a campaign architecture to now take all the international 
instruments of national power, and the lines from security to 
economic to governance, to come up with a comprehensive 
approach across the country. So, right now, NATO is taking a 
hard look at that comprehensive approach, sir.
    So, we feel very comfortable that the RC South countries 
are doing what needs to be done, but what we need to do is get 
a more coherent--it was already articulated a more coherent 
approach to use all the resources--U.S., NATO, partnership 
countries, and international organizations--to come together. 
That's being worked on right now, sir.
    Senator Lieberman. Right. So, and just a final quick 
question, you think we're in reach in time of seeing--having a 
campaign plan by NATO in the south of Afghanistan that's 
comparable to the one we're executing in the east of 
Afghanistan?
    General Sattler. Sir, I believe it'll be--it'll go beyond 
RC South. It'll be a comprehensive plan for the country of 
Afghanistan, of which RC South and East, sir, are components, 
sir.
    Senator Lieberman. That would be good. That's certainly 
what we need. Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I'd like to start with Mr. Boucher, to be followed by 
Secretary Shinn. Using, as an example, the steps that are being 
taken by our government in Iraq to establish written and 
agreed-upon documents between the two governments--namely--you 
saw that, I hope, editorial by the Secretaries of State and 
Defense outlining how they're going to write two documents, one 
being a status-of-force agreement (SOFA). Would you recount for 
us exactly the legal authority by which NATO is now operating 
in a sovereign nation of Afghanistan, and the United States is 
operating as a part of NATO, as well as conducting its own 
separate operations of a security and antiterrorist nature?
    Dr. Shinn. To be as precise as you are requiring us to 
respond, has to do with some of the technicalities of the U.N. 
Security Council strategy.
    Senator Warner. That's what I want to sort through.
    Dr. Shinn. Right.
    Senator Warner. We're engaged in active combat operations 
in a sovereign nation. What is the basis on which that is being 
done?
    Ambassador Boucher. The basis is U.N. resolutions and, of 
course, the consent, of the Afghan Government for those kind of 
operations and that kind of support. But, actually, to get to a 
precise legal answer, I'd probably have to go back to my 
lawyers and go through it once again.
    Senator Warner. I think it's important that the record, Mr. 
Chairman, have that in as a part of our deliberations here 
today.
    So, I recognize that there are some U.N. resolutions. What 
are the expiration dates on this, given that the operations in 
Iraq are dependent on a resolution which is going to expire at 
the end of this calendar year?
    Ambassador Boucher. The U.N. mandate has generally been, I 
think, a 1-year resolution, comes up for renewal about March-
April of every year, and we'll look at renewal every year, 
again this year, with whatever extensions or revisions it might 
need for this operation over the year to come.
    Senator Warner. Are we contemplating a status-of-forces 
agreement?
    Ambassador Boucher. Again, that's something I'd have to 
check with the lawyers on.
    Senator Warner. Mr. Shinn, do you have any comments?
    Dr. Shinn. Yes, sir. One of the core points you're making 
is a valid one, and it's an important one, which is that we are 
going to have to regularize and scale up the legal foundation 
for activities in Afghanistan, similar to the way that we're 
doing it in Iraq. It's our intention to use some of the same 
models; for example, a SOFA. It's all the more important 
because, as you implied, we have the NATO piece of the puzzle 
that we also have to factor into the equation.
    Senator Warner. I think it's essential that we put that 
together, because our forces are fighting, taking casualties, 
and, I must say, regrettably, it happens in all conflicts, 
inflicting casualties on the civilian population, destruction 
of civilian property, which, unfortunately, is in the path of 
the combatants. I think we'd better be all signed up and--to 
the dotted line on this, to protect not only the credibility of 
our Nation, but also the military individuals, the civilians, 
and others from our government who are, really, in a courageous 
way, taking their own risks and sacrifice to make this a 
successful operation in Afghanistan. I think we owe them no 
less than to have complete clarity and openness on this issue.
    So, you will provide that, in due course, for the record.
    Dr. Shinn. Yes, sir.
    Ambassador Boucher. Yes, sir.
    [The information referred to follows:]

    [Deleted.]

    Senator Warner. Good.
    General Sattler, I asked this question of Secretary Gates 
recently, and he was very forthright in the answer, and that is 
that Congress and the general public here in this country have 
been informed that we're going to send in two augmented marine 
battalions to become a part of the force-structure contribution 
by the United States in Afghanistan. I understand part of that 
force will be utilized to augment our current level of force 
structure within NATO. Is that correct?
    General Sattler. That's correct, Senator. Of the 3,200 
soldiers in the Marine Expeditionary Unit, about 2,200 of them 
will be under ISAF command and control to be part of the ground 
forces, correct, sir.
    Senator Warner. The balance will augment the existing force 
structure that we have, that are performing various security 
and antiterrorist operations. Is that correct?
    General Sattler. The remaining 1,000 will work under 
Admiral Fallon, under OEF. They will be tasked under the train-
and-equip mission, working for General Cone. So, for their 
period of time, they will be enablers and facilitators, 
coaches, mentors, and security, to take the police, which we've 
already talked about, to permit them to get out into some of 
the areas where it's not safe and secure now. So, the marines 
will have police trainers and mentors with them. The 
preponderance of their mission will be security. But, because 
of their ability to handle and teach weapons, tactics, et 
cetera, they will probably be dual-use, sir.
    Senator Warner. Now, Secretary Gates, in consultation with 
the NAC and others, recognized the need for these forces. Is 
that correct?
    General Sattler. That's correct, sir. This is fully 
coordinated with the NAC.
    Senator Warner. Right. But, the fact that the United States 
has to completely fulfill this requirement by NATO, and also 
our own separate command, it was because the NATO forces have 
not lived up to their commitments. Isn't that the blunt truth?
    General Sattler. Sir, part of the requirement for the 
train-and-equip, the coaching and mentoring piece, it is a 
requirement that has come forward from Admiral Fallon to the 
U.S. side; but, the Marine Expeditionary Unit--even though the 
3,200 went together, the Marine Expeditionary Unit was 
Secretary Gates's contribution, to ensure that the proper 
firepower, et cetera, would be in place in RC South or wherever 
the ISAF commander wants to use it, sir. So, it was a 
unilateral placement of those forces by Secretary Gates. That's 
a correct statement, sir.
    Senator Warner. But, again, it's because of the shortfall 
of earlier commitments made by our NATO partners, am I not 
correct?
    General Sattler. Sir, there is a requirement on the books, 
for approximately three battalions, that is unfilled. But, this 
is not being placed against that requirement, no. It's going 
into an area where ISAF wants to place it. So, I guess the 
answer to your question, Senator, to be straight, would be not 
directly correlated; but, if the other units were there, would 
the Secretary have had to come forward? Sir, I would only be 
speculating. So, this is not being placed against the three-
short battalions on the NATO requirements, sir.
    Senator Warner. I'll go back and get exactly what he said, 
but his answer was fairly crisp and to the point, ``Yes, 
Senator, that is the reason we're sending those forces in, to 
make up for the shortfalls.''
    Ambassador Boucher. Sir, if I could make one comment. Last 
year, our experience was, the U.S. increased its forces by 
about 3,500, and, in turn, then other NATO allies, other 
allies, Australia included, stepped up and matched that pledge, 
if you want to say that, and we ended up with an increase, last 
year, of about 7,000 in the overall force levels. We are now 
actively engaged in the diplomacy, particularly leading up to 
the NATO summit in Bucharest in April, to try to leverage this 
contribution of 3,200 marines with the other allies to get them 
to step up and both follow on and meet some of these other 
requirements.
    Senator Warner. We may be working on that, and leveraging 
that, but the plain, blunt fact is, the troops were needed, and 
the U.S. was the one that came forward and made that 
contribution. It's as simple as that.
    Do you wish to add anything, Secretary Shinn? We have an 
obligation to the American people, when we make additional 
force commitments, to say precisely why we're doing it.
    Dr. Shinn. We do.
    Senator Warner. We're doing it, because it's the judgment 
of the military commanders, (a) they need forces, and (b) no 
other nation was willing, in a timely way, to come forward with 
that force structure, and force structure that has no national 
caveat. The U.S. structure does not have a national caveat, and 
they can be employed by that NATO commander to meet all the 
contingencies, a full spectrum of contingencies facing NATO. Am 
I correct in that?
    Dr. Shinn. You are, sir.
    General Sattler. Yes, sir.
    Dr. Shinn. It's a clear fact that there are shortfalls in 
resourcing the military side of Afghanistan. It's also, I 
think, true that the Secretary committed those incremental 
troops in the expectations that our NATO allies would be more 
forthcoming. I would also point out that the NATO resourcing 
story is not over yet. As Secretary Boucher mentioned, this is 
part of the long negotiations that will, hopefully, produce 
incremental results at the Bucharest summit, which is in April.
    Senator Warner. Okay. Let the record note you're struggling 
with a response, but I think we got it all out.
    Thank you.
    Chairman Levin. Let the record also show that the Secretary 
of Defense was very direct. As Senator Warner says, when asked 
whether or not the reason we had to send the 3,200 troops is 
because the allies didn't come forward with their part of the 
deal and what they committed to and need to supply. He was very 
direct. Senator Warner is correct. I don't know why you're 
dancing around something which the Secretary of Defense was 
very clear on.
    By the way, this is all being done, filling in the gap left 
by our NATO allies, at a time when we're overstretched in Iraq, 
which everyone acknowledges.
    So, Senator Warner's right, we will get the record on that, 
and put that right at this spot in the record (see Annex E).
    It's very important that the American people know. As 
Senator Lieberman says, there is support for doing this. This 
is not an area where there's great division. I think there's 
kind of a need to fill in where our NATO allies failed, but 
there's no use mincing words on it. They have failed, and we 
should put maximum pressure on them to come through with what 
they need to come through with.
    So, I just want to support what Senator Warner has said.
    Senator Warner. I thank the Chair.
    Chairman Levin. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Shinn, Secretary Boucher, and General Sattler, 
welcome to the committee today, and thank you for your service. 
Up here, sometimes we don't always agree, but there is 
certainly bipartisan agreement on one thing, and I think that 
is how important it is that we win in Afghanistan. I think 
there's also consensus in the international community about how 
important it is that we succeed there.
    One of the questions that I think has been touched on a 
little bit already today, that seems to be right at the heart 
of getting a private economy going in Afghanistan and helping 
our efforts succeed, has to do with the whole question of 
counternarcotics and the direct correlation between the 
narcotics trade and financing for terrorist activity. I guess 
I'd like to direct a question to Secretary Boucher, if I might, 
because there is some question about whether or not there ought 
to be use of military when it comes to eradication efforts, and 
some contradictory-type, I guess, opinions on that issue.
    From The Atlantic Council report, on page 10, it says, and 
I quote, ``Some have suggested that ISAF take on an aggressive 
drug eradication role. This is not a good fit for ISAF. Armed 
forces should not be used as an eradication force,'' end quote.
    The Afghan Study report, however, makes what seems to be a 
contradicting conclusion on page 32. There again, it says, 
``The concept of integrating counternarcotics and 
counterinsurgency by using international military forces to 
assist interdiction is welcome and overdue.''
    So, I guess, I understand the need for military forces to 
take extreme care during these eradication/interdiction types 
of operations, and the need for integration with Afghan forces, 
but, in terms of how you would respond to these two conflicting 
or contradictory reports, do you think we should use our forces 
for eradication purposes, or not?
    Ambassador Boucher. I think there's actually a subtle 
language difference between the two things you quoted, and 
therein lies the answer to the question. No, I don't think we 
should use NATO or U.S. forces to eradicate, but I do think 
there's an appropriate role, and it's actually part of the NATO 
mandate, for our forces or NATO forces to provide a secure 
environment in which the Afghans can go in and eradicate, so 
that the Afghans have about a 500-man Afghan eradication force. 
They're prepared to go out in the field and eradicate poppy. If 
they are provided with the appropriate security environment, 
they can do that in denied areas, areas where the Taliban 
operate or where there are local drug lords. So as we've seen 
the increasing nexus between poppy-growing and insurgency, it's 
become even more important that we have a secure environment 
for the eradicators to go into those tough areas, and that's 
where NATO can play a role, that's where the Afghan army can 
play a role, but the actual eradication would be done by the 
Afghan eradication force.
    Senator Thune. I think this question was touched on 
earlier, maybe by Senator Nelson, but I posed a question a 
while back to Eric Edelman, who, at that time, was Under 
Secretary of Defense for Policy, about this transition of 
getting the Afghan economy, particularly the agricultural 
economy, transitioned from poppy production to some other types 
of things that we can grow in this country. The climatic 
conditions are very similar there. I guess the question is, is 
enough effort being made on that level to start making that 
transition so that we don't have to have as much of the hard 
power, the military, even if it's the Afghan military, 
involved? Is there enough effort on that front? My impression 
was, the last time I asked this question, that the answer was 
no, and I'm just wondering if that's changed? Are we making an 
aggressive effort to try and transition their agricultural 
economy to more legitimate types of production?
    Ambassador Boucher. There is an aggressive effort on the 
rural economy. First and foremost, you have to get in roads, 
you have to get in electricity, you have to build the 
irrigation systems, in addition to providing agricultural 
extension crops and other industries--cold storage, things like 
that--that can operate in those areas.
    We're in the process now of trying to beef up our State 
Department, USAID, and Department of Agriculture personnel at 
the PRTs, at the provincial level, so that they can do more of 
that. It also rests on being able to bring that stuff in, along 
with military activity, the hold part, so that we can--you 
can't always build a road or start a new economy or clear the 
irrigation ditches if there is an insurgency raging in that 
district, so you have to be able to do these things in a very 
coordinated fashion, that's sequenced, but very, very close 
together. So, the answer is yes, there is an aggressive effort, 
but no, it's not being done everywhere, because it's not able 
to be done everywhere, at this moment.
    Dr. Shinn. Senator Thune, could I just amplify a little 
bit? It depends where you are. If you're in Nangahar, for 
example, in the eastern side of the map, where the security 
situation is stable enough so that we could succeed in putting 
in the roads and the infrastructure, so you could begin the 
conversion from poppy to real agriculture, you'll see that the 
poppy production, when the data comes out, has gone way down. 
But, conversely, we'll see the poppy production in Helmand, in 
particular--in Helmand, and in Kandahar, to some degree, going 
up, for just this reason. Yes, you can't get in there, because 
of the security situation, to begin that conversion. So, no 
matter how many resources you throw at roads and cold storage, 
if you can't actually deliver them to the population, it won't 
have the desired effect.
    Senator Thune. Have you seen the connection between this 
narcotics--the poppy production and insurgent funding and all 
that sort of thing going up? I know there's always been a 
fairly established connection there, but what's the trend line 
with regard to the illegitimate activity, in terms of that 
industry, and a lot of the other issues that we're fighting 
with regard to the insurgents?
    Dr. Shinn. It's a pretty murky picture. There's not enough 
evidence--first of all, we don't know very much about how they 
actually fund the Taliban insurgency, either as an aggregate or 
in the groups. It's not clear whether the trend is up or down, 
in terms of cash flow. My personal inference is that that nexus 
is growing; then, it's probably becoming increasingly important 
to them to fund the insurgency. But, I don't have a lot of 
intelligence information to support that.
    Senator Thune. That's my impression, too, just from 
observation of media reports and that there seems to be a 
growing connection, or relationship, between that narcotics 
trade and the insurgency.
    Dr. Shinn. Yes.
    Ambassador Boucher. I think it may actually be the other 
way around, that we've always known that the narcotics trade 
and the insurgency would feed off each other. That's been 
especially true in the south. What we've seen is, where we've 
been able to establish good governance and establish policemen 
and establish an overall climate of development, the poppy has 
gone way down. So, if you start looking at it on a map, you 
have more and more poppy-free provinces and poppy reductions in 
the east and the north of the country; and, in the south, where 
the insurgency is, you're left with the poppy and the 
insurgency feeding off each other. So, whether that's actually 
grown or that's been the case, it's just we've been able to 
eliminate it on these areas, and we haven't eliminated here 
yet, I think, is probably hard to say. But, yes, the connection 
between the two is increasingly clear.
    Senator Thune. Do you think that there is sufficient 
support from the government there? I was there a while back, 
and again, my impression was that they know this is a problem, 
and they're at least verbally committed to fixing it. But, do 
the actions follow that? Are they taking the steps that are 
necessary to help deal with that?
    Ambassador Boucher. In a general sense, yes. I think it's 
especially true in the provinces, where we've seen big 
reductions and that have gone poppy-free last year. One of the 
biggest factors have been the governors and the people on the 
ground. There is even, now, a good-performers fund, so the 
governors that achieve a decrease can get some money to spend 
on local projects.
    So I think that remains one of the key factors, including 
the lack of good governance, in addition to the lack of 
security in the provinces where poppy is still a big problem. 
So, it's something we're still working on.
    Senator Thune. Thank you.
    Mr. Chairman, I think my time has expired. Thank you.
    Thank you, all.
    Chairman Levin. Thank you, Senator Thune.
    Let's try a 4-minute second round.
    As I mentioned, the Chairman of the Joint Chiefs of Staff, 
Admiral Mullen, before the House Armed Services Committee a few 
months ago, described the war in Afghanistan as ``an economy-
of-force operation,'' and said that, ``It's simply a matter of 
resources, of capacity. In Afghanistan, we do what we can; in 
Iraq, we do what we must.''
    General Sattler, can you tell us what Admiral Mullen meant 
when he said the war in Afghanistan is an ``economy-of-force 
operation''? What does that mean in military terms?
    General Sattler. Sir, an ``economy-of-force'' would mean 
that you would have two challenges, and you would put a 
priority of effort on one of the two. In this particular case, 
as Admiral Mullen alluded, that the priority now for resources 
is going towards Iraq, at this time. But, sir, I would also 
like to stress that the resources that are in Afghanistan, that 
there is no man or woman, no warrior, who goes forward on an 
operation where they are not fully resourced to accomplish the 
mission at hand. But, that being said, sir, as you're alluding, 
there are some things we could do, and, as Admiral Mullen said, 
we would like to do that we can't take those on now, until the 
resource balance shifts, sir.
    Chairman Levin. The Afghanistan Study Group recommends a 
number of diplomatic steps to be taken to strengthen a stable 
and a peaceful Afghanistan, including the following. This is 
for you, Secretary Boucher. This is what they recommend: 
reducing antagonism between Pakistan and Afghanistan, including 
by having Afghanistan accept the internationally recognized 
border between Afghanistan and Pakistan, the so-called Durand 
Line, as the official border; next, getting Pakistan to remove 
restrictions that burden the transportation of goods through 
Pakistan to and from Afghanistan, including from India; and, 
third, having the United States and its allies develop a 
strategy to convince Iran to play a constructive role with 
respect to Afghanistan, including the possibility of resuming 
direct discussions with Iran on the stabilization of 
Afghanistan.
    I'm wondering, Secretary Boucher, whether you would support 
those, or whether the administration would support the 
diplomatic initiatives outlined in the Afghanistan Study Group 
report that I've just quoted.
    Ambassador Boucher. Generally, yes, but not exactly the way 
that they recommended, I have to say. We've put a lot of effort 
into reducing tensions between Pakistan and Afghanistan. We all 
remember last year, March and April, when things really flared 
up, and not only was there shooting across the border, but one 
of our U.S. officers got killed at a flag meeting that was held 
to try to reduce that shooting. It has been a very dangerous 
situation. I'm happy to report that the situation seems to have 
turned around quite a bit. Last fall, there was a jirga of the 
tribes from both sides of the border, where peaceful people on 
both sides stood up together and said, ``We don't want the 
insurgency, we don't want the extremists in our midst, and 
we're going to work to accomplish that.'' That's a process that 
we're confident will continue to go forward between the two 
countries. President Karzai and President Musharraf met at the 
end of December, the day after Christmas, had a very good 
meeting, and there have been subsequent followup meetings and 
cooperation between the two sides.
    We've also promoted border cooperation, economic 
cooperation, and other areas, so we see things going, I'd say, 
a lot better between the two countries, both starting to 
realize, and starting to act upon the realization, that these 
people are enemies of both nations, and these people need to be 
dealt with from both sides, by both countries.
    Frankly, we haven't taken on the issue of the Durand Line. 
It's a problem that goes back to 1893, to the colonial period. 
I think both sides do operate with that as the border. They 
shoot across it to protect it. They operate border posts on it. 
Our goal has been: try to reduce those tensions and get them to 
work in a cooperative manner across that line.
    Pakistan's restrictions on transit trade from India, truck 
transit from India, is an issue that we have taken up, and we 
continue to take it up, because, frankly, we think it's in 
Pakistan's overall economic interest to capture that transit 
trade and to have it go through Pakistan and not have it go 
through Iran. It was something we continue to raise. Pakistani 
government keeps telling us it's really a matter that's 
determined by their bilateral relationship with India, and not 
even by the broader global interest, but it's something we do 
continue to push, because we think it would be not only helpful 
to us and allies and others who operate in Pakistan, but it 
would be helpful to Pakistan itself.
    The strategy for Iran, we certainly keep in very close 
touch with the Afghans on their relationship with Iran. We see 
Iran doing a lot of different, and sometimes contradictory, 
things. They do participate in support for the Afghan 
Government. They participate in the Joint Coordination and 
Monitoring Board of donor countries that are trying to support 
Afghanistan. But, they're also undermining the politics, and, 
in some cases, even supplying arms to the Taliban. So, we've 
had, I think, a comprehensive response to that.
    At this point, I think, the issue of whether we sit down 
and talk to Iran about it is more one that needs to be looked 
at in the broader context of our relations with Iran. We have 
had such discussions in the past. But, really, Iran needs to 
cooperate with the international community and with the Afghan 
Government, not just with the United States, and that's where 
we think the pressure ought to be on Iran.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. General Sattler, I've had the privilege of 
visiting with you in your own office in the Pentagon of recent, 
and we had some lengthy discussions about my grave concern 
about the drug problem, and the fact that the continuously 
rising revenues from this drug problem are, in part, filtering 
their way back into the hands of the Taliban, enabling them to 
have greater purchasing power for weapons and other pieces of 
equipment to engage, not only the NATO forces, but our forces 
within NATO and our forces that are not a part of NATO, and 
that, therefore, it's incumbent upon the United States to 
really sit down with our NATO partners, in particular, and work 
out some sort of an arrangement to begin to curtail this flow 
of funds from the poppy trade.
    We keep going around in a circle on this issue. Originally, 
it was going to be Great Britain, ``This is your problem.'' I 
think they still have some portfolio investment in trying to 
solve it, but I'm not here to point fingers, they've just not 
been successful.
    What are we going to do? Because we're putting at risk the 
loss of life and limb of our own American GIs as a consequence 
of the funds flowing from the poppy trade.
    General Sattler. You're absolutely correct, Senator Warner. 
The United States has come up with a five-pillar comprehensive 
strategy to go in and take on the counternarcotics challenge 
inside of Afghanistan. It goes back to Senator Lieberman's 
point--we can have a strategy, but it needs to be executed by 
all elements that are on the ground inside of Afghanistan. The 
sovereign country of Afghanistan obviously has to buy into it, 
sir. Then our NATO partner countries, too, who are on the 
ground beside us. It has an eradication piece to it. It has an 
interdiction piece to it. It has a rule-of-law and justice 
piece to it. It has a public information piece, to illuminate 
the Afghan public as to why this must be undertaken. The last 
thing it has, which has already been discussed here, an 
alternate-livelihood piece--What other crop do I grow? How do I 
get it to a market?
    Senator Warner. Those are the pieces, but your operative 
phrase is that the Afghan Government has to ``buy in'' into 
this program. So, I would turn, now, to Secretary Boucher. 
Where are we, in terms of their ``buying in'' to begin to 
lessen this risk to our forces?
    Ambassador Boucher. I think the Afghan Government has 
basically bought into the strategy. The strategy evolved from 
their program, which they say has eight pillars. We talk about 
five pillars. But, essentially, it's a common strategy between 
us and the Afghans to get at the narcotics problem, both 
through all the tools mentioned, but also just the basic 
security and government--governance activity. As I said, it is 
Afghans who go out and destroy the poppy in the fields. We're a 
long way from reducing it, but it at least seems to have peaked 
out this year. But there is also an effort, a diplomatic 
effort, underway with other governments to go after the funding 
and to get at the money that the traffickers use, move around, 
and sometimes supply to the Taliban.
    Senator Warner. I'm not trying to put you on report. You're 
a fine public servant, doing the best you can. But we don't see 
any results. What's the increase this year over last year? 
About 20 percent, isn't it?
    Ambassador Boucher. Last year's increase was 34 percent. 
Half of that was yield, and half of that was hectarage. The 
early estimates for this year are that it'll be a slight 
decrease overall, including stabilization in Helmand, in the 
south. But, obviously it's still at a very high level that 
needs to be, not just capped, but reduced.
    Senator Warner. So, we'll have some, although, 
unfortunately, not as large, an increase as the year before, 
but, at some point we have to see a reversal and a beginning of 
a decrease.
    Now, can you add anything, Secretary Shinn? Because it is 
your Department that's taken the casualties.
    Dr. Shinn. It is, and I don't have very optimistic things 
to say about this.
    Senator Warner. What can Congress do? What can anybody do? 
We can't just throw up our hands.
    Dr. Shinn. This is a tough one. Part of it is just the 
basic math. The Afghan central government budget is about $600 
to $700 million a year from their domestic revenue, most of it 
from customs. The street value of 1 year's production of opium 
is between $3 and $3.5 billion a year. So, the out-of-scale 
between the amount of money that can flow in to corruption and 
undermine the public institutions in Afghanistan is so big, 
compared to the fragile base of the government itself, that we 
are really walking up a steep hill.
    Senator Warner. We may be walking up a steep hill, but when 
General Sattler puts into effect the orders for these 3,000 
marines, it's incumbent upon the Congress of the United States 
to assure their families and the marines that we're doing 
everything we can to limit the risk that they're going to face 
over there. Among those risks are weapons that are being 
purchased by this drug money. So, I'm going to unrelentlessly 
continue to press on this issue, because I feel a strong 
obligation to those marines.
    General Sattler. Sir, I absolutely agree with you on that. 
I do think this is an issue that deserves unrelenting pressure. 
We know what works in Afghanistan. We've seen provinces go 
poppy-free, we've seen provinces with significant reductions, 
including places like Nangahar, which was way up, came down, 
went back, and has now gone down again. It's a combination of 
military force, police, good governance, and economic 
opportunity, in addition to the counterdrug programs. The most 
important thing is that we pursue the overall stability in 
provinces, we get better government down there, and we pursue 
these narcotics programs with unrelenting vigor.
    Senator Warner. Thank you, gentlemen.
    I thank the Chair. It's been a very good hearing.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I was thinking that before I ask a few questions, I just 
want to say a word about the American forces over there and say 
what I heard from the Afghanis when I was there a month ago. 
It's quite remarkable. They have the greatest appreciation and 
admiration for the American troops that are there--their 
courage, what they bring to the fight, and their involvement in 
the fight. But, beyond that, it's encapsulated in this sentence 
that one of the Afghanis said, ``We appreciate all soldiers and 
troops from outside Afghanistan that are here. The American 
soldiers are the only ones that share their canteens with us.'' 
Now, that is a simple statement that says a lot, which is that, 
``The American soldiers treat us like equals, they treat us, in 
fact, like fellow soldiers, they treat us like brothers in this 
conflict.'' I was so moved by that, that I wanted to put it on 
the record here, because these troops of ours are the best. 
They're the best of America. What that said to me is that they 
are bringing American values to this battlefield, which is far 
from the United States, but has so much to do with our own 
future security. That pride, of course, doesn't mean that we 
don't need, as my colleagues have said, to get more NATO forces 
in there. They, frankly, have to be more involved, as our 
troops have been.
    I want to come to the other part of what I think we need, 
militarily, which is, just as in Iraq, we need to train more of 
the Afghans to be an effective ANA.
    I want to ask two questions about that. Among the most 
perplexing things that I heard was that, when I was there, 
General Cone is actually about 3,000 people short of what he 
needs to carry out the mission we've given--that is, American 
short or coalition forces short--to train the Afghan army. Did 
I get that right? If so, General or Secretary, what are we 
going to do to--that's the long-term hope here: they get 
skilled enough, trained enough, to protect themselves from the 
Taliban.
    General, do you want to start that?
    General Sattler. Yes, Senator Lieberman. You are correct, 
sir. General Cone has, through Admiral Fallon, put a request in 
for approximately 3,400 additional U.S. men and women to go and 
assist in the train-and-equip mission for the Afghan National 
Security Forces, both the army and the police. We have not been 
able to resource that requirement, sir--what General Cone has 
been able to do is to stretch the forces he has; and, through 
some very creative management of the assets he had, he's been 
able to cover the gap, up to approximately this point. But, we 
are at a point now--which is why the Secretary is sending 1,000 
marines in--to go work for, eventually, General Cone in the 
train-and-equip mission. So, that time on the ground, they will 
be able to fill his shortfall. But, as has already been clearly 
stated, that is for a finite period of time.
    Senator Lieberman. Right.
    General Sattler. That is for 7 months. We will then need to 
find the resources to come in behind, to continue that coaching 
and mentoring and providing security for Afghan National 
Security Forces. So, you're correct, sir.
    Senator Lieberman. I appreciate the answer, and I hope we, 
in Congress, can help, in any way we can, to provide those 
additional personnel, because that seems to be fundamental to 
the success of our mission.
    Second point is, I was also struck by the fact that we are 
training the ANA up to a number that is remarkably below what 
we're training the Iraqi Army up to, notwithstanding the fact--
and this would probably surprise most Americans, based on our 
focus--that Afghanistan is larger, both in terms of land area 
and population, than Iraq is. So, I wonder whether there's any 
thinking, within the Pentagon and within NATO, that we ought to 
increase the goal for training the ANA.
    General Sattler. Sir, I'll go and take that first, Senator. 
As the base forces, what we describe the end state, this is the 
objective force that the Afghan Government has described what 
they need for military. It was originally 70,000, sir. They 
have just come in with a proposition to take that up to 
80,000----
    Senator Lieberman. 80,000, right?
    General Sattler.--80,000--from 70,000 to 80,000.
    Senator Lieberman. Compare it to Iraq, just for a moment, 
in terms of the army, as opposed to the local security forces 
in Iraq. Aren't we going for over 300,000 there?
    General Sattler. I don't think it's quite 300,000, Senator. 
The overall force in Iraq--police, border guards, and the 
army--will be somewhere close to about 600,000, total.
    Senator Lieberman. Yes.
    General Sattler. In this particular case, the objective 
force for the police is 80,000. So, even if they went to 80,000 
for the army, they'd have approximately 160,000. So, it is a 
much smaller force. But, once again, we are in conversation 
with the Minister of Interior and the Minister of Defense to go 
ahead and come up with what they feel, based on the enemy 
threat, their objective force should be, sir.
    Senator Lieberman. I appreciate that.
    Secretary Boucher, did you want to add something?
    Ambassador Boucher. Yes, if I can just say one thing. That 
new target, of 82,000--or 80,000 for the army--was approved, 
about a week ago in Tokyo by the international community doing 
the coordination monitoring.
    Senator Lieberman. Good.
    Ambassador Boucher. There is serious look now at what's the 
overall force total that they need? We came through last year 
with $8 billion to step up the training, both in the pace, the 
quantity, the quality. As we look, now, to being able to 
achieve those initial targets, we have to look where the 
ultimate end goal is, and that's a serious study that's going 
on right now.
    Senator Lieberman. Thanks.
    My time is up. I just want to put a thought on the table, 
Mr. Chairman, and that is, one of the things that the future of 
Afghanistan depends on is an understanding that we are 
committed to a long-term relationship with them. I'm not 
talking about permanent bases or any of that, and I just hope 
that as we announce that we're going to begin to negotiate some 
kind of bilateral agreement, strategic partnership with the 
Government of Iraq, that we ought to be thinking about doing 
the same, for some period of time, with the government in 
Afghanistan, because I think that that will give them the 
confidence, including in the army, the Afghan army, to go 
forward. So I hope that we're thinking about that.
    General Sattler. Senator Lieberman, I know you're out of 
time, sir, so I----
    Senator Lieberman. But, you're not out of time, so you can 
talk as long as you want. [Laughter.]
    General Sattler. Mr. Chairman, thank you, sir.
    If I could just baseline how we've gone from when we 
started--you mentioned you've been involved in this all the way 
along, as everyone in this room has, sir. But if you went back 
to 2003, when then-Lieutenant General McNeil--three-star 
General McNeil commanded the forces in Afghanistan, at that 
point in time, sir, he had about 10,000 U.S. warriors under his 
command and about 2,000 coalition warriors.
    Senator Lieberman. Right.
    General Sattler. We had one prototype PRT we were just 
experimenting with. The Afghan National Security Forces, based 
on the brutality of the Taliban rule, did not exist. There were 
no Afghan units that--there were warriors, they had the warrior 
culture, but no units, sir. So that's 2003.
    If you move forward to today now, where General McNeil 
commands all ISAF, now what he has under his command, sir--he 
has approximately 27,000 U.S. forces on the ground in 
Afghanistan, he has 31,000 coalition and NATO forces on the 
ground. The PRTs now have grown to 25 PRTs, of which 12 are 
U.S. and 13 are international PRTs. The Afghan National 
Security Forces, which are growing in capacity and capability, 
today there's approximately 75,000 police at some stage of 
training and effectiveness and efficiency, sir, and 49,000 ANA, 
for a total of approximately 124-125,000.
    So, I know we use terms, and I read them in the paper, 
``the forgotten war,'' sir, ``the unresourced war,'' and as 
someone who's been involved with it, myself, for the past 7 
years--I apologize if I'm a little emotional on it, but I just 
wanted to make sure that we did show that there has been 
tremendous growth in capacity and capability, and the hold 
piece, as Secretary Shinn alluded to, we need to get that 
Afghan National Security Force to have the ability to fill in 
and do that hold, where they're respected and they're 
appreciated by the Afghan national people, sir.
    Senator Lieberman. I appreciate your emotion and the truth 
of what you've said, which is that we've come a long way. Of 
course, I think we all agree, we have a ways to go yet until we 
get to where we want to be.
    General Sattler. I certainly agree with ``we have a ways to 
go,'' sir.
    Senator Lieberman. Thanks, Mr. Chairman, for your courtesy.
    Chairman Levin. Thank you, Senator Lieberman. It's Senator 
Akaka's turn, but just on this particular subject, if Senator 
Akaka would not mind just for a moment.
    Your figures were 49,000, currently, ANA, and 74,000 ANP 
personnel. That's the figures we have. But we have something 
added to that, which is, there's a training completion date, 
for those two groups, of March 2011. Is that right? Are my 
notes right on that?
    General Sattler. Senator, I'll have to check, sir.
    [The information referred to follows:]

    Information regarding the current status of the Afghan National 
Security Forces (ANSF), compiled monthly by the Joint Staff, includes a 
``completion date'' on one slide. This date depicts a month/year in 
which a specific category in the ANSF is projected to reach Capability 
Milestone 1 (CM1) for manning, training, and equipment.
    In its broadest sense, CM1 is attained when a unit, agency, staff 
function, or installation is capable of conducting its primary 
operational mission (or missions) and has reached full operational 
capability (FOC). In terms of manning and equipment, CM1 is attained 
when at least 85 percent of its authorized strength is fielded. In 
terms of training, basic military training for soldiers, 
noncommissioned officers, and officers is provided at the military 
training centers. Manned and equipped units are then fielded with 
embedded trainers and mentors that assist, mentor, and assess the unit 
in training and combat operations as it progresses toward FOC.

    General Sattler. There's 8,000 army in training right now, 
and we're at approximately 49,000. So when they graduate, 
you're looking to actually hit the goal of the current 
objective force of 70,000. Sir, I wouldn't want to take a guess 
at that, Senator, I'll----
    Chairman Levin. How long does it take to train an Afghan 
police unit, approximately? Do you know offhand?
    General Sattler. Sir----
    Chairman Levin. Okay. It's all right.
    General Sattler.--I'll get back to you, rather than guess, 
Senator, about----
    Chairman Levin. The same with the----
    Ambassador Boucher. Senator, the----
    Chairman Levin.--how long it takes to train the army unit. 
I don't quite understand that figure, in my own notes. We'd 
appreciate for the record.
    [The information referred to follows:]

    Basic training for Afghan National Police (ANP) is approximately 8 
weeks; advanced training for specialty police such as border or 
counternarcotics averages 2 to 3 weeks more. For the Afghan National 
Civil Order Police (ANCOP), training consists of a 16-week program 
followed by a dedicated mentoring program.
    Our primary program for development of the ANP is the Focused 
District Development (FDD) plan. Targeted for district uniform police, 
and eventually incorporating the border police, this program includes 
the wholesale removal of police units (temporarily backfilled by ANCOP) 
and provides an intensive 8-week training period at regional training 
centers that include instruction on individual and unit-level 
requirements. After this training period, units are then redeployed to 
their home districts where they undergo a focused mentoring and 
validation period followed by period of oversight and sustainment. 
Depending on the size, location, and ability of the FDD-trained units, 
the post-training mentoring and oversight periods are projected to last 
approximately 5 to 7 months.
    The basic building block of the Afghan National Army (ANA) is the 
infantry battalion or kandak. The standard training model for 
developing a kandak with a fully manned training and mentoring team is 
approximately 15 months. This model includes a series of condition-
based phases that covers unit progression from initial formation to 
full operational capability or CM1. The validation period from fielding 
to CM1 can vary depending on the availability of mentoring teams and 
the unit's participation and performance in combat operations. Other 
noncombat units in the ANA, such as combat support, medical, and 
intelligence, will have different training and validation timelines 
associated with the specific skill sets required to reach CM1.

    Ambassador Boucher. Sir, the Focused District Development 
Plan that pulls the police out, puts in temporary police, and 
then moves them back, it's an 8-week training program that they 
go out on, and then they go back. But, they go back with 
mentors, and the mentoring is actually probably the key part to 
how they operate when they get back here.
    Chairman Levin. We'll get into the mentoring later.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Let me add my welcome to Secretary Shinn and Secretary 
Boucher and General Sattler for being here and to continue to 
inform us about what's happening there.
    Six and a half years ago, our country went to war in 
Afghanistan to drive out al Qaeda and Taliban. Now, because we 
did not finish the job as we should have, we are still fighting 
the Taliban. Recent developments in neighboring Pakistan have 
also added to the concern that we must increase our efforts to 
ensure stability in this region of the world. So I'd look 
forward to hearing your responses on the recommendations of the 
Afghanistan Study Group and Atlantic Council and how we can 
best proceed on this important mission.
    Secretary Boucher, it has been reported by the Afghanistan 
Study Group that the United States and its allies lack a 
strategy to--and I'm quoting--``fill the power vacuum outside 
Kabul and to counter the combined challenges of reconstituted 
Taliban and al Qaeda forces in Afghanistan and Pakistan, a 
runaway opium economy, and the poverty faced by most Afghans.'' 
In your opinion, Secretary, is there a clear political end 
state for Afghanistan that is agreed upon by both the NATO 
alliance and within U.S. Government agencies?
    Ambassador Boucher. Sir, I think there is. If you listen to 
what military colleagues, Defense Department colleagues, other 
colleagues in the government, and even other governments, talk 
about, you'll find that we're all focused on the same issues: 
beating the Taliban on the battlefield, providing the safety 
and security that Afghan people need, and providing them with 
economic opportunity and good governance throughout the 
country. The goals are there, the strategy to do that in a 
comprehensive approach is there. Frankly, we need to make sure 
that the execution matches the strategy, and that's where a lot 
of the focus is to improve the concentration and the 
coordination of all those elements. What you might call the 
``campaign plan'' for any given period is where we're very much 
focused right now.
    Senator Akaka. Do you think that there needs to be a change 
in our strategy in order to achieve that end state?
    Ambassador Boucher. We are, indeed, looking at the overall 
strategy, preparing, with our NATO allies, strategy documents 
for the Bucharest summit in April, for example, as well as more 
detailed discussions of the countries of the south, on how we 
actually implement that strategy in the south this year.
    Senator Akaka. Secretary Shinn, some of the lessons learned 
in Iraq include the importance of using existing social and 
political structures within the country in order to more 
effectively establish a government perceived as legitimate by 
the people. The extent of de-Ba'athification that was imposed 
after the fall of Saddam Hussein's regime increased many 
problems in that country that we are still trying to overcome. 
Given the tribal and decentralized nature of Afghanistan, what 
do you believe are the best steps forward to establish a more 
centralized government, particularly given the country's long 
history of tribal-centric leadership and politics?
    Dr. Shinn. That's a good and important question, Senator 
Akaka. I think, probably the most important two areas that we 
can work with the Afghan Government to strengthen the hand of 
the central authorities are, first of all, the general 
capacity-building of their ministries or their institutions, 
things that Secretary Boucher referred to, some, earlier in 
this meeting--in particular, building national institutions, 
like the ANA, which is distributed in four corps around the 
country, but is essentially managed by the Ministry of Defense 
out of Kabul.
    The other piece of this puzzle to which there's not a clear 
answer is what advice we would provide to the authorities in 
Kabul, and particularly to President Karzai, who is attempting 
to simultaneously manage the tribal network out in the 
provinces and out on the ground, some of which are in areas 
that are actually contested by the Taliban, at the same time as 
he tries to grow these national institutions out of Kabul. That 
second question is a much more difficult row to hoe. We are 
being very cautious about the degree to which lessons from 
Iraq--for example, the concerned citizens organizations that 
have worked in Anbar--whether or not they are applicable to 
Afghanistan.
    Senator Akaka. Secretary Shinn, in a recent combined ABC/
BBC poll, 67 percent of Afghanis said they supported the NATO 
presence, while 13 percent support the Taliban. To what extent 
do you believe that this poll represents an accurate portrayal 
of NATO's effectiveness in winning the popular support of the 
Afghani people?
    Dr. Shinn. I might defer that to Secretary Boucher, who 
knows more about some of the polling data in Afghanistan than I 
do, while I try to think it through.
    Senator Akaka. Secretary Boucher?
    Ambassador Boucher. I don't like it when people say 
``That's a tough one, let him answer it.'' Let me give a try at 
it. [Laughter]
    Chairman Levin. Unless you do that, right, Secretary?
    Ambassador Boucher. I'm allowed to do that occasionally, 
sir, I think.
    Chairman Levin. Yes, right. We all do that, at times.
    Ambassador Boucher. If anything, it might reflect even a 
lower level of support for the NATO forces than actually 
exists. We find story after story, place after place, the 
strong support for the United States forces, in particular, but 
NATO forces, in general. They have, unfortunately, experienced 
the Taliban. They don't want to be whipped in the marketplace, 
they want their girls to go to school, they don't really want 
to grow opium poppy, even if they still do, for economic or 
other reasons. So I think there's a very open attitude towards 
accepting NATO, U.S., Afghan Government security, Afghan 
Government structures, if those structures perform, if they 
deliver what people want, which is safety, justice, economic 
opportunity, and governance. That's where the concentration is: 
making a government strong enough to deliver those things 
throughout the country.
    One of our former commanders used to say, ``It's not that 
the Taliban is strong, it's that the government is weak.'' 
Strengthening government remains, I think, the strongest 
effort, because that's what people want. They have expectations 
that need to be met.
    Senator Akaka. I'm just interested in this. Do you believe 
that this informational success is an aspect of the war that 
NATO is winning and that it is mainly lack of force coverage 
and presence of insurgent sanctuaries that has enabled and 
encouraged the recent increase in Taliban activity?
    Ambassador Boucher. I think it's not so much the 
sanctuaries, because we've managed to take away, at least in 
Afghanistan, much of the strongholds, and we've been able to 
interdict or otherwise decrease the level of cross-border 
activity in many places. I think it's the fact that they're 
adjusting their tactics, they're picking up new tactics, 
they're picking up on bombs and kidnaping and things like that. 
We have to adjust, as well.
    General Sattler. Senator, if I might just add to that, I 
believe that some may perceive that they are in these safe 
havens, but, due to, now, getting out and about more, better 
intelligence collection, sharing information with the 
population, and all the things that are critical in a 
counterinsurgency operation, that, as Secretary Boucher just 
indicated, we are able to precisionally take away those safe 
havens. But, ``Are we getting them all?'' is the question that 
we were asked earlier, and at that point, we answered that we 
don't believe we're getting them all, sir, but, when we do find 
them, we do have the resources and capacity to take those out.
    Senator Akaka. My final question, Mr. Chairman.
    Secretary Shinn, it has recently been advocated by both 
General Petraeus and Secretary Gates that further troop 
withdrawals from Iraq this summer should be put on hold for an 
indeterminate period for a security evaluation at the reduced 
levels. Admiral Mullen has also recently testified as to the 
development strain facing U.S. forces that must be alleviated 
sooner rather than later. Given the findings of the Afghanistan 
Study Group that indicate too few troops have been used to 
fight the war in that country, what do you make of the ability 
of the U.S. forces to endure what essentially will amount to a 
shift from Iraq to Afghanistan rather than a reduction that 
will ease the operations tempo?
    Dr. Shinn. It strikes me that one of the most important 
responses to that question is an observation, made a little bit 
earlier here by General Sattler, which is, for the forces that 
we have in Afghanistan, under no circumstances have they 
engaged in missions for which they were under-resourced--is the 
first point. The second point is the broader one, which is, on 
the military clear side of the strategy in Afghanistan, we 
believe that we're winning--slowly, surely, but winning.
    So, the sourcing level is not, to me, the principal concern 
about Afghanistan. It has to do more with the execution on the 
hold and the build side of the strategy.
    I'd defer to General Sattler to comment on the Iraq side of 
that.
    General Sattler. I would just say that the Secretary of 
Defense has that tough call. We talked earlier, Mr. Chairman, 
about resources and where the resources go. He has the 
challenges of Iraq, he has to balance against Afghanistan, 
against, as you just articulated, the health of the force, the 
opportunity to be home and reset and retrain the force, and 
then the global challenges of the long war. As you mentioned, 
we will come down by the end of July. We'll have reduced 
approximately five brigades of combat power out of Iraq. Then, 
the Secretary has clearly stated that he wants to take a pause 
at that point, in conjunction with Admiral Fallon and General 
Petraeus and Admiral Mullen, and take a look at what that has 
done. Then, the Secretary, when the time is correct, based on 
input from his commanders and advice from the Chairman, sir, I 
believe he will make a decision, at that point, what the next 
move is.
    Senator Akaka. Thank you very much for your responses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    You've talked a little bit about the use of the military, 
in terms of drug interdiction. I may have missed this 
testimony, in which case I am apologetic for that, but when, I 
think, you were asked, I believe, Secretary Shinn, but I'm not 
sure, it may have been Secretary Boucher, about the use of the 
military, in terms of eradication, were you also saying that we 
should not be using the military, in terms of interdiction? Who 
addressed that issue?
    Dr. Shinn. Actually, it was him, but I could answer for 
him.
    Chairman Levin. Either one. Point the finger at yourself on 
this. Go on, Secretary Shinn.
    Dr. Shinn. Yes, I think the response was that our military 
is not directly involved in either eradication or interdiction, 
that we believe it should have an Afghan face to it, but we do 
provide indirect support, in terms of training and equipping, 
for some parts of the counternarcotics strategy, sir.
    Chairman Levin. Right, why can't we join with the Afghan 
forces in the interdiction side, and leave the farmers alone, 
don't get involved in the eradication, but, when it comes to 
dealing with heroin laboratories and smuggling convoys and 
going after the precursor chemicals, why not use our military 
jointly with the Afghans--not on the fields, not on the 
eradication, but on the big guys?
    Dr. Shinn. Sometimes, we do, actually. There is some 
crossover between the Taliban and nacrotraffickers.
    Chairman Levin. Even when there's not a crossover----
    Dr. Shinn. When that occurs, we go after them.
    Chairman Levin.--even when there's not a crossover, why not 
go after the big guys militarily?
    Ambassador Boucher. Part of it's theology, but, I think, 
it's more effectiveness.
    Chairman Levin. Part of it's what?
    Ambassador Boucher. Theology. Sort of the--these things get 
discussed in the NATO mandate----
    Chairman Levin. I think there's enough theology, as it is, 
in Afghanistan. Could you use a different word, perhaps?
    Ambassador Boucher. Part of it's a theoretical decision 
that was made by NATO on how the NATO forces should be used. 
Part of it's the practical aspect of--you want to take down 
drug lords in a way that can be done through law enforcement 
means, so that they can be prosecuted and punished. Therefore, 
if it's going to be done in the Afghan justice system, it's 
better for the Afghans to do it. We have extensive Drug 
Enforcement Administration presence that we're in the process 
of beefing up to work with the Afghans, but they need to be 
able to do these operations, by and large, in a manner that 
allows them to continue, not just to take down the guy, but to 
go into prosecution and law enforcement.
    That said, NATO is quite aware, because of the nexus, that 
there are drug lords aligned with the Taliban. I think, both in 
counterinsurgency terms and counternarcotics terms, they're 
prepared to go after some of these guys.
    Chairman Levin. Is the Afghan police and Afghan army 
effective against the drug lords and the heroin labs?
    Ambassador Boucher. The Afghan police and army tend to 
provide the--as I had said, the overall security of the 
perimeter for the Afghan eradication force, but the----
    Chairman Levin. No, not eradication. I'm talking about 
the----
    Ambassador Boucher. The Afghan drug police and the Afghan 
eradication force----
    Chairman Levin. Yes.
    Ambassador Boucher.--who are more directly charged with 
that mission.
    Chairman Levin. Are they effective in interdicting heroin 
in the poppy?
    Ambassador Boucher. They've had some success with small and 
medium traffickers, but not a lot of success at the bigger 
levels.
    Chairman Levin. Do they want to succeed at the higher 
level?
    Ambassador Boucher. I think they do. The people that we've 
worked with and----
    Chairman Levin. No, I'm talking about the police, 
themselves, or is it just so much corruption in the police or 
the army that you can't rely on them to go after the big guys?
    Ambassador Boucher. The counterdrug police seem to have the 
determination to do so. We're trying to build up their 
capability.
    Chairman Levin. You mentioned a shortfall in the number of 
trainers, I guess a significant shortfall. General, you've 
talked about commanders being about 2,500 trainers short--900 
short in the army, and about 1,500 short in the police. I think 
those were your numbers. A thousand of the marines that are 
going to be deployed to Afghanistan in the next few months are 
going to support that training mission, but we're way, way 
short. Our allies have not carried through on the commitments 
that they've made for training teams. I guess the operation is 
called Operational Mentoring and Liaison Teams (OMLTs); 
shorthand being ``omelets,'' I gather. What's the resistance in 
our NATO allies to doing that? It's not a direct combat role, 
it's a training mission. Why have they fallen short on the 
training mission?
    General Sattler. Mr. Chairman, it really becomes a combat 
mission. When you become an OMLT, you're paired with an Afghani 
battalion or brigade. When you go to that brigade, as do our 
embedded trainers, you eat with, sleep with, you mentor by your 
mere presence, and you teach and train as you move along.
    Chairman Levin. These are embeds.
    General Sattler. These are embeds, and OMLTs do the same, 
sir. When the OMLTs go with that unit, when that unit--if that 
unit moves into combat, or when that unit moves into combat, 
the OMLT goes with. The OMLT provides--they call for fire, they 
provide medevac, they control artillery, so they become a 
critical enabler to that unit.
    Right now, sir, there's 34 international OMLTs that are in 
the field inside Afghanistan. Of that 34, 24 have been 
certified. There is a certification process, because of the 
responsibility that the OMLT, with the enablers, that they 
bring to the fight, sir--so, obviously, they're certified by 
ISAF in conjunction with General Cone and Combined Security 
Transition Command-Afghanistan. There's six more OMLTs that are 
in the pipeline that should be fielded later this year. So 
that'll be approximately a total of 40 international OMLTs on 
the ground.
    Chairman Levin. Of the 72 that are needed? Is that----
    General Sattler. Sir, I'll have to get the exact end--the 
objective number.
    [The information referred to follows:]

    As of 5 March (latest information available to the Joint Staff), 34 
Operational Mentoring and Liaison Teams (OMLTs) are fielded in 
Afghanistan, 31 have been certified as operational. The current 
requirement for OMLTs, as outlined in the NATO Combined Joint Statement 
of Requirements is 81. This requirement grows to 103 by January 2009.

    General Sattler. But, they are substantially short of the 
ultimate goal. Correct, sir
    Chairman Levin. Which gets back to the question of our NATO 
allies not being willing--too many of them--because a number of 
them are, and I don't think we ought to generalize about NATO 
allies----
    General Sattler. Yes, sir.
    Chairman Levin.--because we have NATO allies that have had, 
I think, greater proportion of losses, even, than we've had in 
Afghanistan, including the Canadians. So, we shouldn't be 
generalizing about this. But, too many of our NATO allies have 
not come through. One of the reasons, apparently, is because of 
the public opposition in their countries to the Afghanistan 
mission. Is one of the reasons for that, Secretary Boucher, 
that, in the minds of many Europeans, the Iraq mission and the 
Afghan mission are linked? We have a report, the Afghanistan 
Study Group recommended that there be decoupling of the 
missions in Afghanistan and Iraq as a way of improving our 
overall approach to the war on terrorism, that if we delink 
them, it may be helpful, in terms of attracting greater support 
for the one, and that wouldn't be colored or diminished by 
opposition to the other. Is there some truth to that?
    Ambassador Boucher. I guess there's some truth to that. I 
don't find it, extensively. As I've gone to Europe and I've 
talked to parliamentarians and party leaders and people like 
that about the Afghan mission, Iraq is not usually thrown up at 
us.
    Chairman Levin. How about their publics?
    Ambassador Boucher. To some extent, you see it in the 
public commentary. But, a lot of the restrictions on forces are 
either parliamentary restrictions or promises that they've made 
to parliament that, ``We're going in for peacekeeping and 
stabilization, and, therefore, we will do these things and not 
those things.'' That's where a lot of the caveats come from. 
It, basically, I think, has to do with the image that they have 
of their forces, the kinds of things they think they should be 
doing, and they're there to be nice to people and give them a 
happier life. When it comes to fighting, not everybody else is 
as committed as we are, but many are, as you mentioned--the 
Canadians and the Brits and the Dutch and some of the others 
that are with us in the south. So, I think part of it's lack of 
understanding of the full breadth of the mission that you have 
to do. In order to give people a hospital, you have to be able 
to give them police, and you have to be able to give them a 
secure environment, as well. Our forces, and several others, 
are fully committed to the whole breadth of that; whereas, 
others have gone under the assumption that they would only be 
doing part of that.
    Chairman Levin. To the extent that the public linkage in 
some of the countries that have put restrictions on their 
troops is a cause for those parliamentary restrictions or 
government restrictions, to that extent, would it be useful to 
decouple these two missions?
    Ambassador Boucher. Sir, we've been looking at that 
recommendation. I guess the answer is yes, in general, but what 
it means in practical terms is not quite clear to me, frankly.
    Chairman Levin. Let me give you an example. The Afghan 
mission could be put in our regular budget, keeping the Iraqi 
mission in a supplemental budget.
    Ambassador Boucher. The only place that these two seem to 
go together is in the supplemental budgets. A lot of our 
funding goes into the regular budget, but there are 
supplemental needs, and the vehicle for getting that is a 
combined supplemental. But, at least when we talk about it, 
when we go out and lobby for it, we're talking about the 
situation in Afghanistan and what we all need to do to 
accomplish our goals there.
    Chairman Levin. Yes, but I think those two missions are 
linked both in the rhetoric in Washington and in the budgets. 
It's the global war, and we talk about Iraq and Afghanistan. I 
think you ought to give a lot more thought to this question. To 
the extent that the European publics, in those countries that 
have not come through with what they've committed, link these 
two efforts, it seems to me that is a diminution of the support 
that you're likely to get from their representatives in their 
parliaments. Here, many of us have delinked them. Many of us 
who have opposed the effort in Iraq, including me--been a 
critic of it and opposed going in--nonetheless, very much 
supported going into Afghanistan, which, by the way, I think 
was a unanimous vote in the Senate, to go into Afghanistan, go 
after the folks who attacked us, and who are still there, at 
least on the border, and Taliban, who supported those folks. So 
I think many of us have delinked it, and I guess you, in your 
positions, have delinked them.
    But, I'm just urging that if there is truth to the 
perception and to the point that, in those countries, there's 
been a linkage in the public minds, and if that is one of the 
reasons why there's been a shortfall on the part of many NATO 
countries in stepping up to what's needed in Afghanistan, it 
may be wiser that the administration, in its rhetoric, talk--
and in its budget request--separate these two missions. They 
can argue they're both valid, and you can talk about where 
there ought to be more troops than the other. You have to do 
that, obviously. But, in the rhetoric and in the budget, I 
think it would be useful. It would reflect the public mood 
here, where the public, I think, sees very differently the 
challenges in Iraq and Afghanistan--and has, consistently--and 
it may be true in the NATO--some of the NATO countries, as 
well.
    Thank you, gentlemen, and your staffs, for rearranging your 
schedules today to accommodate ours.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
   north atlantic treaty organization support for afghanistan mission
    1. Senator Levin. Secretary Shinn and Secretary Boucher, in early 
February Secretary Gates told the committee that he is worried that the 
North Atlantic Treaty Organization (NATO) is evolving into a ``two-
tiered alliance'' composed of ``some allies willing to fight and die to 
protect people's security, and others who are not.'' Secretary Gates 
has also said that some European publics are confused over the 
difference between the missions in Iraq and Afghanistan, and this has 
resulted in a loss of support for the Afghanistan mission, according to 
news reports. The Afghanistan Study Group (ASG) recommended that the 
administration decouple the missions in Afghanistan and Iraq as a way 
of improving the overall U.S. approach to the global war on terrorism. 
Do you agree with Secretary Gates that NATO is at risk of becoming a 
``two-tiered alliance'' with some willing to fight and die and others 
not?
    Dr. Shinn. I share Secretary Gates' concern about NATO becoming a 
two-tiered alliance. A number of allies, particularly those engaging in 
combat operations in the volatile south and east, shoulder the majority 
of the burden of kinetic military action against the insurgency. 
Others, especially those deployed in the more permissive north and 
west, focus more on reconstruction and humanitarian efforts. While the 
latter are crucial to Afghanistan's long-term development, all allies 
must be willing to contribute to all lines of operation, both kinetic 
and nonkinetic. Simultaneously, however, we must remain mindful of the 
political realities many of our allies face--in some instances they are 
severely constrained by prevailing public opinion and the structure of 
their governments. Recognizing this reality, Secretary Gates has worked 
closely with his ministerial counterparts to develop a strategic vision 
for the NATO mission in Afghanistan, which explains what the alliance 
has achieved, what remains to done, and how we intend to get there.
    Ambassador Boucher. NATO is united in a common commitment to 
support the Government of Afghanistan in the establishment of a safe 
and secure environment in order to extend reconstruction and good 
governance. All 26 allies--and 13 non-NATO partners--have forces in 
Afghanistan. Their deployments all fulfill NATO requirements 
established by the NATO Supreme Allied Commander and the International 
Security Assistance Force (ISAF) Commander.
    We realize, however, that there is a concern about NATO becoming a 
two-tiered alliance. Allies in the south and east feel that they are 
shouldering a disproportionate share of the combat burden, while others 
in the west and north are mostly engaged in reconstruction and 
humanitarian assistance efforts. Nonetheless, all of these efforts are 
critical to the overall mission, and allies recognize that we are 
fighting the same fight. We will continue to engage allies to emphasize 
the need to meet force requirements, share the burden more equitably, 
and provide commanders in the field with the flexibility to succeed in 
their mission. We will also continue to help allies explain the nature 
and importance of the entire NATO mission in Afghanistan to their 
publics. To that end, allies and partners are endorsing an ISAF 
Strategic Vision statement for the NATO Summit in Bucharest.

    2. Senator Levin. Secretary Shinn and Secretary Boucher, do you 
agree with the ASG's recommendation that the administration and 
Congress decouple Iraq and Afghanistan?
    Dr. Shinn. In the late 2007/early 2008 reorganization of the Office 
of the Secretary of Defense for Policy, Afghanistan and Iraq were 
decoupled--both portfolios had previously rested under the management 
of the Assistant Secretary of Defense for International Security 
Affairs. A key component of the policy reorganization shifted 
responsibility for the Afghanistan regional portfolio to a new 
Assistant Secretary of Defense for Asian and Pacific Security Affairs. 
Thus, from a management perspective, the two countries have been 
largely decoupled within the Department.
    I do not believe that Afghanistan would stand to gain by decoupling 
it from Iraq in the defense budget process. Requirements for funding 
Operation Enduring Freedom in Afghanistan are developed and approved 
independent of those funding requirements for Operation Iraqi Freedom, 
and the Department has consistently received the levels of funding it 
has requested for the mission in Afghanistan.
    In so far as decoupling Afghanistan and Iraq in the interest of 
public opinion, I believe that the Vision Statement, currently being 
drafted by NATO in preparation for the April 2008 Bucharest Summit, 
will play a key role in reminding publics about the importance of the 
Afghanistan mission. The goal of this document is to articulate what we 
have achieved in Afghanistan, what remains to be done, and how we 
intend to get there.
    Ambassador Boucher. The Study Group's second overarching 
recommendation is to decouple Iraq and Afghanistan. We would note that 
with the exception of our supplemental funding requests, the two 
conflicts have been effectively decoupled all along, with U.S. strategy 
in each country moving on markedly different paths that reflect 
differing local realities. We are not confident that decoupling 
supplemental funding requests would in fact result in increased 
resources for Afghanistan. The Afghanistan funding record before and 
after the start of the Iraq war suggests otherwise.

                      national solidarity program
    3. Senator Levin. Secretary Shinn and Secretary Boucher, the 
Atlantic Council report states that ``the future of Afghanistan will be 
determined by progress or failure in the civil sector.'' The report 
also finds that less than 10 cents of every dollar of aid for 
Afghanistan goes directly to the Afghan people. One program that 
appears to be succeeding in directing funds to the local level is the 
National Solidarity Program (NSP). According to the Afghanistan 
Ministry of Rural Rehabilitation and Development, which established the 
NSP, the NSP has worked with over 19,000 Community Development Councils 
to finance more than 32,000 subprojects for development and 
reconstruction. What is being done to eliminate the inefficiencies and 
waste in the delivery of reconstruction assistance for the Afghan 
people?
    Dr. Shinn. The State Department and the U.S. Agency for 
International Development (USAID) are best suited to respond to 
questions related to the financing of development and reconstruction 
projects. The National Defense Authorization Act of 2008 requires the 
administration to identify a Special Inspector General for Afghanistan 
Reconstruction (SIGAR), ``to provide for the independent and objective 
conduct and supervision of audits and investigations relating to the 
programs and operations funded with amounts appropriated or otherwise 
made available for the reconstruction of Afghanistan.'' I believe that, 
once in place, the SIGAR will play a crucial role in ensuring that U.S. 
resources are not misused.
    Ambassador Boucher. Through our capacity building programs with 
Afghan ministries and provincial governments, the United States is 
working to eliminate inefficiencies and corruption in the delivery of 
assistance to the Afghan people. U.S. foreign assistance programs work 
with ministries--focusing on the most important service providers, like 
the ministries of health, education, finance, and agriculture--to put 
more responsibility for service delivery at the local levels. We do 
this to ensure funds reach the provinces. This will also allow ministry 
representatives working at the provincial levels to do planning, 
decisionmaking, delivery, and monitoring activities, ensuring 
assistance reaches the Afghan people. Advisors will mentor and support 
capacity building for Afghan Government employees in areas such as 
financial management, budgeting, procurement, human resources 
management, strategic planning, project planning, project 
implementation, and information and communications systems.
    In addition, the U.S. Government has made a great deal of progress 
over the past 7 years streamlining our disbursement of funds to program 
implementers. The U.S. Government has disbursed 69 percent of the $26.3 
billion in U.S. Assistance to Afghanistan from fiscal year 2001 to 
fiscal year 2008 (this is not including the fiscal year 2008 
supplemental), which is higher than the Ministry of Finance's reported 
international average of 62 percent, and almost 20 percent higher than 
where the U.S. Government was 2 years ago. Our efforts to put more 
control of funding decisions in the hands of Provincial Reconstruction 
Teams has improved our ability to quickly follow security gains with 
development efforts that address locally-identified priorities.
    As U.S. Agency for International Development Acting Deputy 
Administrator Jim Kunder noted in his testimony on oversight on January 
24, the Office of the Inspector General in Afghanistan has spent $2.7 
million on oversight. As of December 2007, they had completed 18 
performance and 23 financial audits. Not a single one of these audits 
revealed significant findings of waste, fraud, and abuse.

    4. Senator Levin. Secretary Shinn and Secretary Boucher, do you 
support the NSP as a way of promoting development and reconstruction at 
the local level, reducing corruption and waste, and promoting support 
for the Afghan Government?
    Dr. Shinn. I believe the NSP is a positive example of how the 
Afghan Government, with the assistance of international and 
nongovernmental organizations, can work to deliver development 
resources to Afghan communities. The NSP was created by the Afghan 
Government to develop the ability of Afghan communities to identify, 
plan, manage, and monitor their own development projects. NSP builds 
the capacity of local communities to manage projects, develop and 
execute budgets, and perform program oversight. I would defer to the 
State Department and USAID to the address details related to this 
program.
    Ambassador Boucher. The NSP is one of the most effective programs 
in Afghanistan in that it empowers the Afghan Government to fulfill 
basic needs identified by Afghan communities. It is also a tool by 
which we can make progress on all three elements of our counter 
insurgency strategy. By empowering communities through their 
participation in Community Development Councils, it builds ties between 
the people and the government and reduces the influence of insurgents, 
warlords, and drug barons. The NSP also transforms the environment by 
providing block grants for infrastructure projects chosen by the 
communities themselves. The program has funded over 20,000 projects for 
water, sanitation, roads and bridges, irrigation, power, and education. 
The projects also have been proven to be at far less risk of being 
attacked or destroyed than non-NSP projects. Putting the recipients in 
the driver seat with a role in identifying and planning the project 
also helps reduce corruption. With the World Bank working directly with 
the Ministry of Rural Rehabilitation and development to manage the 
funds, there is clear oversight of the program's funds. The United 
States has funded the NSP generously and we have urged other donors to 
do the same.

    5. Senator Levin. Secretary Shinn and Secretary Boucher, would you 
support an expansion of and increased funding for the NSP in 
Afghanistan?
    Dr. Shinn. The NSP is a positive example of how the Afghan 
Government and international and nongovernmental organizations can work 
together to deliver development resources to Afghan communities. I 
defer to the State Department and USAID to address issues related to 
expansion of the program's size and funding.
    Ambassador Boucher. Yes, the NSP is one of the most effective 
programs in Afghanistan, as well as one of the most popular among 
Afghans. The United States has provided $50 million of the $349 million 
that the international community has contributed to the NSP through 
fiscal year 2007. The U.S. Agency for International Development plans 
to allocate $10 million to the NSP from the fiscal year 2008 base, and 
we are asking for another $40 million in the fiscal year 2008 
supplemental to fund the program. This would be our largest 
contribution in a single fiscal year to the NSP. The requested funds 
will support the crucial third phase of the program, which provides 
$300 million in follow-on grants to solidify the impressive 
accomplishments NSP has made over the past few years in empowering 
communities.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
         international security assistance force in afghanistan
    6. Senator Byrd. Secretary Shinn, I am disappointed to learn that 
Secretary Gates is only now working on an ISAF in Afghanistan ``vision 
statement'' to lay out with our coalition partners what we want to 
achieve collectively in Afghanistan and how we intend to get there. We 
have been in Afghanistan since 2001. Would you not agree that 6 years 
is too long to wait before attempting to come up with a plan for what 
we want to achieve there?
    Dr. Shinn. The ``vision statement'' is not a plan. It is a document 
that articulates what the alliance has achieved, what more remains to 
be done, and how we intend to get there. It was written in terms that 
are easily understood by allied publics. The situation in Afghanistan 
has changed markedly since 2001. While the international community and 
the Afghan Government have made notable strides in the past 6 years, we 
continue to face a number of challenges: a resilient insurgency, 
corruption, weak governance, and narcotics. At the same time, many of 
our allies are undergoing intensive debates about the future of their 
contribution to the mission. It is highly appropriate, therefore, that 
allies agree on a ``vision statement'' now, so that this document can 
inform the public, and bolster more widespread support for a sustained 
commitment to the alliance's undertaking in Afghanistan.

                        afghanistan police force
    7. Senator Byrd. Secretary Shinn, your testimony notes that we have 
invested $5 billion in developing the Afghan police force, but it 
remains ineffective and its history of corruption undermines its 
credibility. Although you point out additional steps being taken to 
provide more training and more pay, on what timeline do you anticipate 
the police force to be able to operate effectively and independently?
    Dr. Shinn. As I noted in my written statement, the Combined 
Security Transition Command Afghanistan has begun implementing, in 
close coordination with the Afghan Government, a Focused District 
Development Plan (FDD). The goal of FDD is to concentrate training, 
equipment, mentoring, and Afghan leadership in priority districts in an 
effort to rapidly improve the Afghan National Police (ANP). FDD is 
divided into four phases, which include assessing the status of the 
police, withdrawing all the police from specific districts for training 
and equipping, replacing incompetent and corrupt leaders, and then 
returning the police to the district with intense monitoring and 
mentoring. As we assess the effectiveness of FDD, we will be able to 
better estimate when the ANP will be able to achieve higher degrees of 
effectiveness and independence.

    [Whereupon, at 1:45 p.m., the committee adjourned.]


 CONTINUATION OF THE STRATEGY IN AFGHANISTAN AND RECENT REPORTS BY THE 
 AFGHANISTAN STUDY GROUP AND THE ATLANTIC COUNCIL OF THE UNITED STATES

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:36 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Reed, 
Bill Nelson, Pryor, McCaskill, Warner, Inhofe, Sessions, Dole, 
and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; and William G.P. Monahan, counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; and Lynn F. Rusten, professional staff member.
    Staff assistants present: Kevin A. Cronin, Ali Z. Pasha, 
and Benjamin L. Rubin.
    Committee members' assistants present: Bethany Bassett and 
Sharon L. Waxman, assistants to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Christopher Caple, assistant to 
Senator Bill Nelson; M. Bradford Foley, assistant to Senator 
Pryor; Gordon I. Peterson, assistant to Senator Webb; Stephen 
C. Hedger and Jason D. Rauch, assistants to Senator McCaskill; 
Anthony J. Lazarski, assistant to Senator Inhofe; Lenwood 
Landrum, assistant to Senator Sessions; Lindsey Neas, assistant 
to Senator Dole; Jason Van Beek, assistant to Senator Thune; 
Brian W. Walsh, assistant to Senator Martinez; and Erskine W. 
Wells III, assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. This afternoon's 
session is the second panel of the committee's hearing on the 
strategy in Afghanistan and on the independent reports of the 
Afghanistan Study Group (ASG) and The Atlantic Council of the 
United States.
    This morning, we heard from administration witnesses from 
the Office of the Secretary of Defense, the Joint Staff, and 
the Department of State. This afternoon, we will hear from two 
experts who participated in the preparation of the independent 
reports: Retired General Jim Jones, chairman of the board of 
directors of The Atlantic Council, and Ambassador Rick 
Inderfurth, professor of the practice of international affairs 
at George Washington University.
    Both General Jones and Ambassador Inderfurth were principal 
members of the ASG, and that group was established under the 
auspices of the Center for the Study of the Presidency.
    We greatly appreciate the work of your groups that you are 
representing. It is a subject which is of extraordinary 
importance to the future of this planet and this country's 
well-being, and we heard a lot this morning which--I don't know 
if you were present or whether you had any representatives 
present, but, in any event, we expect, this afternoon, we'll 
get, at least from the reports that we've read, something of a 
different slant than we got this morning, because the 
independent reports provide a very sobering assessment of the 
situation on the ground in Afghanistan. I quoted from your 
reports this morning, at least some of the outstanding comments 
that stick out, including, according to the ASG report, efforts 
to stabilize Afghanistan are ``faltering,'' and that report 
finds that, since 2002, that violence and insecurity have risen 
dramatically as Afghan confidence in their government and its 
international partners falls. The Atlantic Council report that 
I quoted this morning said that, ``Make no mistake, the North 
Atlantic Treaty Organization (NATO) is not winning in 
Afghanistan.'' There's a ``strategic stalemate'' in the 
security situation. There's no ability to eliminate the 
insurgency, so long as Taliban enjoys safe haven across the 
border with Pakistan.
    A comment that I quoted this morning, the antigovernment 
insurgency threatening Afghanistan ``has grown considerably in 
the last 2 years.'' The Study Group also finds that ``the 
Taliban has been able to infiltrate many areas throughout the 
country,'' which gives them the power to intimidate and coerce 
the local Afghan people.
    The reports find that more U.S. and international forces 
are needed for Afghanistan. At the same time, the ASG points 
out that more NATO countries need to share the burden and 
remove national caveats that limit the ability of their troops 
to participate in the International Security Assistance Force 
(ISAF) operations. There was a great deal of agreement on that 
point this morning.
    The Atlantic Council report concludes that, ``despite 
efforts of the Afghan Government and the international 
community, Afghanistan remains a failing state'' and ``could 
become a failed state.''
    As The Atlantic Council report says, we cannot afford for 
Afghanistan to continue to be ``the neglected war.''
    As the ASG says, ``Afghanistan stands today at a 
crossroads.'' The United States and the international community 
must ensure that efforts to move Afghanistan towards a stable, 
secure, and progressive state succeed. That's everybody's goal 
here.
    We made a number of points this morning about the 
difference, in terms of attention being paid to the situation 
in Afghanistan, compared to the situation in Iraq, and a number 
of other points, which I'm sure will come out this afternoon.
    Before I turn this over to Senator Warner, let me again 
thank you, our witnesses, and your groups and the efforts of 
your groups, the studies that you've produced. You have 
volunteered, and, as volunteers, you have contributed to some 
very, very important reports, and we all look forward to your 
testimony.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Welcome.
    This afternoon's session is the second panel of the committee's 
hearing on the strategy in Afghanistan and the independent reports of 
the Afghanistan Study Group and the Atlantic Council of the United 
States. This morning we heard from administration witnesses from the 
Office of the Secretary of Defense, the Joint Staff, and the Department 
of State. We will now hear from two experts who participated in the 
preparation of the independent reports: retired General Jim Jones, 
Chairman of the Board of Directors of the Atlantic Council; and 
Ambassador Rick Inderfurth, Professor of the Practice of International 
Affairs, at the George Washington University. Both General Jones and 
Ambassador Inderfurth were principal members in the Afghanistan Study 
Group. The Afghanistan Study Group was established under the auspices 
of the Center for the Study of the Presidency.
    The independent reports provide a sobering assessment of the 
situation on the ground in Afghanistan:

        <bullet> Efforts to stabilize Afghanistan are ``faltering,'' 
        according to the Afghanistan Study Group report. That report 
        finds that since 2002 ``violence, insecurity, and opium 
        production have risen dramatically as Afghan confidence in 
        their government and its international partners falls.''
        <bullet> The Atlantic Council report states, ``Make no mistake, 
        the North Atlantic Treaty Organization (NATO) is not winning in 
        Afghanistan.'' Instead, the security situation is ``a strategic 
        stalemate,'' with NATO and Afghan forces able to win any head-
        to-head confrontation with the Taliban, but not being able to 
        eliminate the insurgency so long as the Taliban enjoys safe 
        haven across the border with Pakistan.
        <bullet> The anti-government insurgency threatening Afghanistan 
        ``has grown considerably over the last 2 years,'' according to 
        the Afghanistan Study Group. The Afghanistan Study Group report 
        also finds that ``the Taliban have been able to infiltrate many 
        areas throughout the country,'' intimidating and coercing the 
        local Afghan people.
        <bullet> The reports find that more U.S. and international 
        forces are needed for Afghanistan. At the same time, the 
        Afghanistan Study Group points out that more NATO countries 
        need to share the burden, and remove national caveats that 
        limit the ability of their troops to participate in 
        International Security Assistance Force operations.
        <bullet> The Atlantic Council report concludes, ``In summary, 
        despite efforts of the Afghan Government and the international 
        community, Afghanistan remains a failing state. It could become 
        a failed state.''

    We cannot afford for Afghanistan to continue to be ``the Neglected 
War'' as the Atlantic Council report calls it. As the Afghanistan Study 
Group says ``Afghanistan stands today at a crossroads.'' The United 
States and the international community need to ensure that their 
efforts move Afghanistan toward being a stable, secure, and progressive 
state.
    I want to thank our witnesses for volunteering to contribute to 
these important reports, and look forward to their testimony.

    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you very much, Mr. Chairman.
    I'll just put a brief opening statement into the record and 
commend each of these witnesses.
    I was so interested in these reports that I actually 
attended the unveiling of the reports in the spaces occupied by 
the Foreign Relations Committee, and it was a very well-
attended session. I look forward to hearing it again.
    I want to thank you again, General Jones, for all the 
various activities that you're undertaking. They're quasi, or 
not totally, pro bono publico. You certainly deserve to take on 
the career you wish, but you certainly evaded a lot of 
invitations to take on this type of responsibility, and you 
bring to it a remarkable background of experience and 
knowledge.
    To you, Mr. Inderfurth, I remember you well when you were 
with ABC. We're glad to have you back in a very friendly spirit 
before the committee.
    Chairman Levin. Thank you, Senator Warner.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Mr Chairman, thank you.
    I join you in welcoming our witnesses here today and I thank you 
for scheduling the two panels for this very important hearing.
    I would like to begin by commending our Secretary of Defense, 
Robert M. Gates, for his efforts over the last few weeks to impress 
upon our North Atlantic Treaty Organization (NATO) allies the 
importance of the NATO mission in Afghanistan. He also emphasized that 
militant extremists, either in Afghanistan or elsewhere, still pose a 
significant threat and that the threat posed by these extremists may be 
greater in Europe than some in Europe may believe.
    The debate on the importance of the mission in Afghanistan may be 
among the most complicated that the NATO allies have faced since the 
alliance was formed to counter the Soviet threat.
    Mr. Chairman, I request unanimous consent to place the entirety of 
Secretary Gates' February 10 address to the Munich Conference on 
Security Policy into the record (see Annex A).
    In addition to expressing my strong support for Secretary Gate's 
remarks, I would like to highlight a few matters concerning 
Afghanistan.
    First, I concur with those who assert that the credibility of 
NATO--the most successful political organization and military alliance 
in recent history--is at stake in Afghanistan.
    In Afghanistan today, there has no doubt been progress since 2001: 
but the Taliban's recent resurgence in Afghanistan; the escalating 
opium economy; and the presence of cross-border sanctuaries in Pakistan 
threaten to challenge positive momentum and potentially lead 
Afghanistan to slip back to its pre-September 11 role as a safe haven 
for terrorists.
    General Jim Jones, the former NATO Supreme Allied Commander, and 
co-chair--with Ambassador Thomas Pickering--of the Afghanistan Study 
Group Report which was sponsored by the Center for the Study of the 
Presidency, has said: ``Make no mistake; NATO is not winning in 
Afghanistan.''
    In his recent remarks in Munich, Secretary Gates reiterated a 
warning he made last Wednesday in testimony before the Senate Armed 
Services Committee. In that testimony, Secretary Gates expressed 
concern about ``the alliance evolving into a two-tiered alliance, in 
which some are willing to fight and die to protect people's security, 
and some are not.''
    Over the past 6 years, NATO forces have grown from 16,000 to 
43,000. The ground commander is now calling for another 7,500 troops. 
This is a troop requirement NATO should work vigorously to meet.
    All of the nations of NATO should reexamine their contributions to 
military operations in southern Afghanistan and lift the incapacitating 
restrictions, known as national caveats, on where, when, and how their 
forces can fight.
    Second, we should never forget that failure in Afghanistan would be 
a significant boost to militant extremists.
    Secretary Gates said that the Islamic extremist movement so far was 
``built on the illusion of success'' and that all the extremists have 
accomplished recently is ``the death of thousands of innocent 
Muslims.'' Secretary Gates went on to say: ``Many Europeans question 
the relevance of our actions and doubt whether the mission is worth the 
lives of their sons and daughters.''
    The bombings in Madrid and London and the disruption of cells and 
plots throughout Europe should remind all of us that the threat posed 
by global extremism in Afghanistan, the Middle East, Europe, and 
globally remains, as Secretary Gates said: ``a steep challenge.''
    In his Munich speech, Secretary Gates said extremist success in 
Afghanistan would ``beget success on many other fronts as the cancer 
metastasized further and more rapidly than it already has.'' I fully 
agree with this assessment by Secretary Gates.
    Third, and concomitantly, we should not forget that Afghanistan and 
Iraq are very distinct missions. Failure in either would be disastrous 
for the other, the region as a whole, the United States, and Europe. 
However, the more we tie the two fronts together we may unintentionally 
be creating false and misleading impressions.
    In very frank comments on Saturday, Secretary Gates said, and I 
believe correctly, that many Europeans ``have a problem with our 
involvement in Iraq and project that to Afghanistan, and do not 
understand the very different kind of threat.''
    Afghanistan has its own strategic importance which should not be 
confused with Iraq's strategic importance. It is therefore important 
that we find ways to decouple our strategies, policies, and funding for 
Afghanistan from those for Iraq.
    Next, we must wholly engage Afghanistan's neighbors and fully 
enjoin them in the plans for the future security and stability of 
Afghanistan. This specifically includes the development of an effective 
strategy to dislodge al Qaeda and Taliban sanctuaries in Pakistan's 
tribal areas along the Afghanistan border.
    Finally, there is little doubt about the strong link between 
instability in Afghanistan, poppy cultivation, and drug trafficking. I 
do not believe there can be lasting stability in Afghanistan until 
these links are disrupted.
    Afghanistan supplies about 93 percent of the world's opium supply. 
While poppy cultivation has decreased in north-central Afghanistan, it 
has dramatically increased in the southwest. In 2006, the drug trade 
was estimated to total more than $3 billion--money that continues to 
fund Taliban and al Qaeda insurgents.
    Breaking the nexus between the insurgency and opium production 
requires a coordinated counternarcotics strategy that must be 
integrated with our counterinsurgency strategy and linked to the 
economic revitalization of Afghanistan's rural economy that includes 
alternative livelihood programs.
    In closing, the United States, our NATO allies, Afghanistan's 
neighbors, and international organizations all have roles to play. 
Each, and all, should recommit to the development of a comprehensive, 
urgent, and long-term strategy for Afghanistan. This long-term strategy 
should be one that integrates political and developmental features that 
complement the military counterinsurgency strategy.
    This recommitment should, as I have already discussed, include 
increasing NATO forces in southern Afghanistan and suspending national 
caveats. We should also expand the training and equipping of the Afghan 
National Army and the police through a long-term partnership with NATO 
to make it professional and multi-ethnic, and deploying significantly 
more foreign trainers.
    This recommitment must also address deficiencies in judicial 
reform, reconstruction, governance, and anticorruption efforts, and 
here the other elements of so-called `soft power' should be marshaled 
effectively. The international assistance effort should be reenergized 
and managed efficiently. The efforts to appoint a United Nations High 
Commissioner should be revived immediately.
    After 6 years of international involvement, Afghanistan may be 
nearing a defining moment. Regretfully, I add, so too may NATO.
    Secretary Gates' comments this weekend brought these issues to the 
fore. I vigorously laud his efforts to speak openly to our allies and 
to make an effort to ensure that the troop burden in Afghanistan does 
not divide the NATO allies.
    The witnesses on this first panel should be prepared to discuss, 
among other issues: the current situation in Afghanistan; our current 
strategies and policies there; the contributions of our partners and 
allies; the role played by Afghanistan's neighbors to foster stability 
and security in Afghanistan; and how the drug trade has undermined the 
Government of Afghanistan's drive to build political stability, 
economic growth, and rule of law.
    This panel of witnesses should also be prepared to respond to 
questions about three reports released last month. These reports 
conclude that a new effort is required to succeed in Afghanistan. The 
reports were the Afghanistan Study Group report sponsored by the Center 
for the Study of the Presidency (see Annex B); the Atlantic Council 
report on Afghanistan (see Annex C); and a paper by Dr. Harlan Ullman 
and others titled, ``Winning the Invisible War: An Agricultural Pilot 
Plan for Afghanistan'' (see Annex D).
    I request unanimous consent that each of these reports be entered 
into the record. Mr. Chairman, thank you, and I look forward to the 
testimony from our witnesses today.

    Chairman Levin. General Jones?

 STATEMENT OF GEN. JAMES L. JONES, USMC (RET.), PRESIDENT AND 
  CEO OF THE INSTITUTE FOR 21ST CENTURY ENERGY, UNITED STATES 
 CHAMBER OF COMMERCE, AND CHAIRMAN OF THE BOARD OF DIRECTORS, 
           THE ATLANTIC COUNCIL OF THE UNITED STATES

    General Jones. Mr. Chairman, Senator Warner, distinguished 
members of the committee, it is, as always, a very special 
honor to be able to appear before you on any matter, but 
particularly on the matter at hand which relates to 
Afghanistan.
    Just by way of summary, my experience in Afghanistan stems 
from my assignment as Supreme Allied Commander of Operational 
Forces of NATO. My initial attention to Afghanistan was drawn 
by ambassadors of the alliance in 2003, when they asked the 
military component of NATO to start developing plans that would 
eventually result in NATO going to Afghanistan. We did that, 
and, as you recall, those plans were approved in February 2004, 
and we began a rather slow, but methodical, foray into 
Afghanistan, starting with Kabul itself, then to the north, 
then to the west, to the south, and finally, in 2006, we 
assimilated the entire responsibility for security and 
stability under Operation Enduring Freedom (OEF), the U.S.-led 
coalition, and ISAF, which is the NATO equivalent.
    I think we can be very proud of the difference that NATO 
has made, despite the fact that there is consistent stories 
about national caveats and inadequate resourcing of the 
combined joint statement of requirements, which commanders have 
repeatedly and without any change, have always been up front, I 
think, in asking for what they felt they needed.
    I spent a portion of every month for about 3\1/2\ years in 
Afghanistan, and I watched the evolution, not only of the 
military buildup, but also the international network that grew 
up alongside it, and it's quite impressive.
    Afghanistan has all of the international legitimacy that 
one could want, beginning with United Nations Security Council 
resolutions. It has, on the ground, not only the U.N. as the 
overarching agency that's responsible for coordination of the 
international effort, it has NATO, the European Union, the G8, 
the World Bank, International Monetary Fund, and 
nongovernmental organizations (NGOs), all operating within the 
countryside of Afghanistan.
    The contributions that allies have made have, in many 
cases, made a difference in many parts of that country. I will 
call your attention to Operation Medusa, in the late summer 
2006, when between 8,000 and 9,000 NATO troops accepted the 
responsibility of taking over the southern region in 
Afghanistan. This was a region that had never had many troops 
permanently present. Half a dozen countries or more accepted 
the responsibility of that region, went into that region, and 
very quickly got into almost conventional warfighting, and 
together with our forces and OEF, dealt a very severe military 
blow to the Taliban as a result of about a month and a half of 
very intense fighting, the result of which was a crippling 
blow, at least to the military capability of the Taliban, so 
much so that the spring offensive of 2007, that was always 
heralded after the winter, was really a whimper compared to 
other years.
    So, I mention this story because I want to state, up front, 
that the NATO nations have provided serious combat 
capabilities, in some respects, and many, many humanitarian 
reconstruction missions, the administrations of the Provincial 
Reconstruction Teams (PRTs). So I think we should start on a 
positive note in saying that where we were in 2003, and where 
we are now, there certainly have been some positive things on 
the ground. NATO should be evaluated in terms of its own 
mandate. It is not responsible for the entire trend of things 
in Afghanistan, either favorable or unfavorable, because there 
are just too many other organizations that are participating in 
various efforts.
    At the end of my watch, in December 2006, I left there with 
certain conclusions, and I will summarize them very briefly. I 
think they're, unfortunately, still valid. My findings and my 
opinions are reflected in both studies, and I'll just summarize 
them very briefly.
    What I fear is going on in Afghanistan could be best 
characterized as a loss of momentum, primarily by the inability 
of the international communities to come together and to tackle 
the top four or five things that absolutely have to be done, in 
my opinion, if Afghanistan is going to continue on the path of 
progress.
    A couple of years ago, you didn't hear the word al Qaeda in 
Afghanistan. It was almost a footnote. The Taliban was 
considered to be pretty much on the ropes. We didn't have car 
bombs and suicide bombers in the capital. The border was 
worrisome, but certainly was not headed, at least in those 
days, to where it is today. But, what was consistent in all of 
my visits to Afghanistan was the fact that the narcotics 
problem was getting worse and worse each year. Narcotics are 
responsible for 50 percent of the gross domestic product (GDP) 
of Afghanistan today. I guess at 50 percent you can say it is a 
narco-economy. But, when 50 percent of a country's GDP is tied 
up in narcotics, you have a problem.
    Second, it corrupts the entire society. It's corrupting the 
next generation of young Afghans. It is an irresistible source 
of income. The income that is derived from the sales of those 
drugs, 90 percent of which are sold in the capitals in Europe, 
is funding the insurgency, and therefore, the renewed capacity 
of the opposition.
    I think this must be addressed comprehensively. One hears 
about single solutions--eradication, buy the crop, do certain 
other things. The truth is, it has to be a holistic, 
comprehensive campaign plan that's agreed to by the 
international community. As a matter of fact, some years ago 
the G8 did assign the responsibility for the strategic lead in 
the war on drugs to the United Kingdom. Unfortunately, the rest 
of the international community left the United Kingdom to try 
to sort that out by itself, and it's beyond the capacity of any 
one country to do that.
    Similarly, the second thing that I think absolutely has to 
be resolved is judicial reform in the country. If you can't 
have a judicial system that is working, you cannot win the war 
on drugs. If a drug conviction is obtained in a court, and 6 
months later, that same person is back out in the field, again 
involved in the drug business, that's not a system that is 
going to inspire confidence. Corruption is one of the big 
problems in Afghanistan, and it's one of the things that the 
man on the street consistently talks about in any part of the 
country that one visits. So, reform of the judicial system is 
absolutely essential if you're going to fight narcotics.
    Even more basic is the absence of adequately trained, 
adequately equipped, and adequately educated police force. Much 
of the countryside is left to decide whether they're going to 
side with the government by day and with the Taliban by night, 
because the security structure is simply not adequate.
    Again, under the G8 agreements, Italy accepted the 
strategic lead for judicial reform, and Germany accepted the 
strategic lead for police reform. Neither of those three 
pillars--the narcotics, judicial, or police reform--has met the 
standard of making the impact that needs to be made in order to 
turn the country into a better direction.
    Fourth, I think that what's clear on the border between 
Pakistan--is that now Afghanistan has become a regional problem 
that is inseparable from discussing Pakistan. Regional problems 
require regional solutions, and perhaps it's time to engage 
more countries in the region to have serious dialogue about 
mutual concerns with regard to the very worrisome trends in 
Pakistan, in Afghanistan, and along the seam where the tribes 
don't recognize borders, but where the ideology of taking over 
or replacing the systems of government that are veering towards 
democracy, and having them try to challenge that successfully.
    Lastly, I was very disappointed--and I'll just speak for 
myself--that a true international servant, Lord Paddy Ashdown, 
in the midst of a recognized need for an international 
coordinator to begin to channel the resources of the 
international community toward a cohesive and organized end 
state was turned down by the Government of Afghanistan. I think 
that the requirement is obviously critical, that Lord Ashdown 
be replaced with somebody close to his capacities. There was an 
article, written by him in the Financial Times, which appeared 
yesterday, in which he gave his solution set of what he would 
do, had he been approved for that job. If you read that, you 
will find that the similarity between the three reports that we 
rolled out and his short thesis in the Financial Times are 
virtually a mirror image of one another.
    So, there is great consensus, I think, about what needs to 
be done. The question is, how do you do it? From my standpoint, 
it's a failure of the international community, under the 
current organizational structures, to bring focus to the four 
or five things that absolutely have to be done. I think that 
the Government of Afghanistan, under President Karzai, should 
be held to some stronger metrics than previously have been 
asked of them. I see no reason whatsoever that about 4 or 5 
years later the government can't make any significant headroads 
in combating corruption, for example, or failing to reform the 
judicial system. The help is there, the international community 
is there in abundance, and I think that the future progress of 
Afghanistan hinges on a better cohesion of that international 
effort.
    Afghanistan is not a military problem. I think the 
commanders should be supported. I believe the troop strengths 
that they're asking for is modest by comparison to the 
capabilities existing within the 40-some nations that are on 
the ground there. But, if we don't improve the coordination of 
the international effort, then I'm afraid that we could 
backslide into a situation where the military will become more 
and more important. Then that will really signal a return to 
the ``bad old days,'' which all of us want to avoid.
    I'll close simply by saying that I'm optimistic, because of 
the capacity that is there. I would be thrilled if that 
capacity was more focused and better coordinated and better led 
in the international-community level. I'm very disappointed 
that Lord Ashdown was not the man that is going to do this 
very, very difficult job, because, at the final analysis, I 
think it must be done.
    Mr. Chairman, thank you very much for these opening 
remarks.
    Chairman Levin. General, thank you so much.
    Ambassador Inderfurth?

STATEMENT OF HON. KARL F. INDERFURTH, JOHN O. RANKIN PROFESSOR 
OF THE PRACTICE OF INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON 
                           UNIVERSITY

    Ambassador Inderfurth. Thank you, Mr. Chairman, Senator 
Warner, members of the committee. It's an honor to be here 
today. It's an honor to be here with General Jones. I feel 
great comfort that he is going to be a part of this panel, 
given his vast experience dealing with Afghanistan.
    My experience dealing with that country was largely when I 
was Assistant Secretary of State for South Asian Affairs, from 
1997 through 2001. I had many dealings with the then-Taliban 
that was in control--met with them on many occasions, met with 
others, including Hamid Karzai, who was then an expatriate. He 
would come to Washington, and we would talk about life after 
the Taliban; I also got involved with the U.N. ``Six Plus Two'' 
process. So, I had a great deal of experience during those 4 
years dealing with this country.
    But, I do want to relate--Senator Warner mentioned our 
previous occasions of being together when I was an ABC news 
correspondent--I want to mention one Afghan-related experience, 
because it's highly relevant for this discussion.
    In 1989, I was a Moscow correspondent for ABC News, and 
they sent me to the border with Afghanistan in February 1989, 
when the Soviet troop withdrawal took place, the final military 
withdrawal across the Amu Darya River and across the Friendship 
Bridge. The international press corps was on the Uzbek side, 
and coming across the bridge was the final Soviet military 
contingent, led by General Gromov. The armored personnel 
carriers came across. That marked the end of a 10-year war of 
occupation, a savage war that took place in that country. I 
remember reporting on that great moment of hope for 
Afghanistan, because this was the end of all of that bloodshed 
and destruction.
    It wasn't, because, soon after that, the United States and 
the international community departed Afghanistan, decided that 
we had done our job, done it well. If you see ``Charlie 
Wilson's War,'' you'll see that story--it tells that story at 
the end. But then, attention turned away. A lot of other things 
were taking place in the world at that time, but attention 
turned away, and that left Afghanistan to pick up the pieces--
and the seven mujaheddin factions that were then involved in 
the civil war went at each other--also, by the way, it also 
left Pakistan to pick up the pieces. You cannot think about a 
solution for Afghanistan today without also thinking about a 
solution for Pakistan. These two are joined at the hip.
    So we left, and you can do a connecting of the dots between 
our departure and what took place on September 11. It is not 
hard to figure out that leaving that country to fend for 
itself, leaving that country to fall into the chaos that it 
did, gave rise to the Taliban, which imposed draconian law and 
order, gave rise to the return of Osama bin Laden in 1996, gave 
rise to the creation of terrorist networks in that country, and 
eventually led, after the assassination of Commander Ahmad Shah 
Massoud, who I also met in Tashkent at one point, that gave 
rise to September 11.
    So, we have a second chance to get Afghanistan right. A 
second chance. You don't get many second chances in life. We 
have one with Afghanistan.
    This discussion now about the direction that Afghanistan is 
going today, which we're all concerned about--and these reports 
all have a common theme: the situation is getting worse, it is 
dire, but still doable, in Afghanistan. So, I just implore the 
committee to give Afghanistan its full attention. Those of us 
outside of government will make whatever contribution we can in 
that direction.
    Let me say a few words, if I can, about the report, which I 
was asked to present briefly.
    Many of you know Ambassador David Abshire, NATO ambassador 
under President Reagan, founder of the Center for Strategic and 
International Studies. He was involved with the Iraq Study 
Group. His new organization, the Center for the Study of the 
Presidency, was involved in that. So he was involved in the 
Iraq Study Group in 2006. During that time of listening to the 
witnesses and the participants, that group became concerned 
about Afghanistan becoming ``the forgotten war.'' There was 
great concern that the war in Iraq had drained away military 
resources, intelligence resources, time and attention of senior 
officials, economic assistance, and that that had diverted 
attention away from Afghanistan.
    So, Ambassador Abshire decided last year to establish a 
small-scale version, if you will, of the Iraq Study Group: the 
ASG. We have General Jones and somebody else that you're well 
familiar with--Ambassador Tom Pickering, with the co-chairs, 
and a number of us that have either served in government or 
have expertise in Afghanistan joined that study group.
    So, the product that you have before you today--and I've 
put excerpts in my written testimony, which I have submitted, 
and we have the full report for you--is a reflection of the 
work of all of us in looking at where Afghanistan is today and 
what can be done about it, the challenge it's facing.
    Let me just give you the briefest of summaries of what our 
evaluation of Afghanistan is today. The country is standing at 
a crossroads. The progress achieved after 6 years of 
international engagement is under serious threat from resurgent 
violence, some of which has migrated from Iraq, weakening 
international resolve, which is shown, by the way, in polls 
that show only two countries in the world today favor keeping 
military forces in Afghanistan--the U.S. and the U.K. This was 
a Pew poll during the summer. Two countries. The others, the 
majority, say, ``Bring them out now.'' Mounting regional 
challenges--Pakistan and Iran are two cases in point. A growing 
lack of confidence on the part of the Afghan people about the 
future direction of their country; they were euphoric at the 
beginning of this process. They are more concerned today that 
things are heading in the right direction. They are, by the 
way, still with us. They do not want us to be the next foreign 
occupier, like the British or the Soviets. They still want us 
there, but they are concerned. Things like civilian casualties 
are undermining that support.
    The United States and the international community have 
tried to win the struggle in Afghanistan with too few military 
forces, and insufficient economic aid, and without a clear and 
consistent, comprehensive strategy to fill the power vacuum 
outside Kabul, and to counter the combined challenges of a 
reconstituted Taliban. You all know the reconstitution of the 
al Qaeda and Taliban that was mentioned in the July National 
Intelligence Estimate, which said that the al Qaeda has 
reconstituted its attack capability against the homeland--and 
to counter the combined challenges that were presented by a 
runaway opium economy, which General Jones has referred to, and 
the stark poverty faced by Afghanistan. It is the second 
poorest country in the world. It is in desperate need.
    Success in Afghanistan remains a critical national security 
imperative for the U.S. and the international community. 
Achieving that success will require a sustained multiyear 
commitment from the United States and the willingness to make 
the war in Afghanistan and the rebuilding of that country a 
higher U.S. foreign policy priority.
    Allowing the Taliban to reestablish its influence in 
Afghanistan, as well as failure to prevent Afghanistan from 
becoming a failed state, would not only undermine the 
development of the country, it would constitute a major 
victory--a major victory--for al Qaeda in its global efforts to 
spread violence and extremism.
    Many of us feel that Afghanistan and Pakistan are truly the 
central front in the war on terrorism and there is no doubt in 
my mind that Osama bin Laden, who sees this as one great 
achievement, the defeat of the Soviet Union in Afghanistan, 
which we were working toward that end, as well, but he wants to 
see the defeat of the United States, the other great 
superpower, and he wants to see it done in Afghanistan. So, I 
think that this is high on our national security priority list.
    We conclude by saying, the light footprint of the United 
States and its allies in Afghanistan needs to be replaced with 
the right footprint, and that it obviously leads into our 
recommendations.
    We have 34 recommendations. I will not go through all of 
them with you right now. But, we do talk about establishing an 
eminent persons group that would develop a long-term coherent 
international strategy for Afghanistan and a strategic 
communications plan to garner strong public support. Right now, 
we're losing the public relations battle there. The European 
countries, their citizens are saying, ``Bring out the troops.'' 
Something's not working, in terms of convincing them of the 
need for them to be directly involved and that they have stakes 
here. So, an eminent persons group be established.
    We also believe that Iraq and Afghanistan should be 
decoupled. We have joined the two in our funding requests. 
We've joined the two in making the case for the war on 
terrorism. The fact that the two are coupled together in the 
minds of Europeans, an unpopular war in Iraq is dragging down 
what may be support for Afghanistan. So, we think that these 
ought to be decoupled. Both dealt with on their own merits--we 
did not make any recommendations about Iraq in this report, but 
start dealing with both on their own merits.
    We also believe that the U.S. Government needs to have a 
special envoy for Afghanistan, and have a higher level of 
authority. General Douglas E. Lute was appointed to work at the 
National Security Council (NSC) on Iraq and Afghanistan. I 
think that was a major task that probably was impossible to 
achieve without more authority and more visibility. So, we 
believe a special envoy is needed, including on the 
reconstruction and assistance side.
    So, those were the three overarching recommendations. We 
then had various recommendations, including an international 
coordinator. I, too, am very disappointed that Lord Paddy 
Ashdown did not take that. We have to get our act together in 
Afghanistan on the civilian side. We have over 40 countries, 
major organizations, U.N., European Union, NATO, scores of 
NGOs, all doing good work, but nobody coordinating anything. We 
owe it to President Karzai to get our act together to work with 
him to achieve these things.
    We also talk about security--we'll go into that, I'm sure--
including on the Afghan Security Forces. Governance and the 
rule of law. Corruption--Transparency International just issued 
their latest report. Afghanistan has gone down on their list. 
It is now one of the eighth most corrupt countries in the 
world. That's worse than it was last year.
    General Karl Eikenberry, who I'm sure you have heard from 
with this committee, said that the greatest long-term threat to 
success in Afghanistan is not the resurgence of the Taliban, 
but the irretrievable loss of legitimacy of the Government of 
Afghanistan, and he cited corruption, justice, and law 
enforcement.
    Counternarcotics. General Jones has already discussed that.
    Economic development and reconstruction. So much more is 
needed to be done there, including on infrastructure, roads, 
electricity, power, water systems. There ought to be a 
construction surge in Afghanistan, and a surge that would 
provide jobs, because over a third of the Afghans are out of 
work. If we don't address that, the Karzai government will fall 
further, in terms of public support.
    Let me just finish on Afghanistan and its neighbors.
    Pakistan. As I said, these two countries are joined at the 
hip. There will be no successful outcome for Afghanistan if 
Pakistan is not part of the solution. The future stability of 
both countries depends on the development of an effective 
strategy to counter and uproot the Taliban and al Qaeda 
sanctuary in Pakistan's tribal border areas. Easier said than 
done. These areas have never been under the control of any 
government, including of Pakistan. It certainly is not going to 
be done by sending U.S. military forces, en masse, into those 
tribal areas. That would be a disaster for Pakistan, it would 
be a sinkhole for us. But, there are ways that we can work with 
the Pakistani government, there are ways and channels through 
which that can be done.
    We do see successes at times, including recently a missile 
strike that took out an al Qaeda leader, al-Libi. We can work 
with the Pakistani government on that. Admiral Mullen was 
recently meeting with the Pakistani chief of staff, General 
Kayani. There are channels to do this thing. But, it is not a 
military solution, by itself. Those areas need to be brought 
into the political mainstream in Pakistan.
    As the Pakistani Ambassador, Mahmud Durrani, said recently, 
what is needed in the tribal areas is a multipronged strategy 
that is military force, development, and empowerment. Using 
force alone, he said, is not the answer. I agree with that.
    So, Pakistan is key, and also is Iran. Now, I know the 
committee has heard testimony about covert interference by Iran 
in Afghanistan. That may well be taking place. But, I will tell 
you that my experience working in the so-called ``Six Plus 
Two'' process was that Iran was a helpful partner in that ``Six 
Plus Two''--six neighbors and the United States and Russia, 
that's the ``Six Plus Two,'' led by Ambassador Brahimi. We were 
on the same page with them about our opposition to the Taliban, 
and strongly on the same page on narcotics and what that was 
doing. The Iranians were fighting the drug traders coming 
across their border.
    During the Bonn process, Ambassador Jim Dobbins has 
reported that they were very helpful in bringing about the 
removal of the Taliban and the installation of a new transition 
government under President Karzai. The Bonn process ended, and, 
a few weeks later, President Bush called it part of the ``Axis 
of Evil.'' They couldn't understand why they didn't get at 
least a pat on the back for being cooperative with us to 
stabilize Afghanistan. I think that that opportunity still 
exists. It's gotten more difficult. But, I think that, and the 
report calls for, us to develop a strategy to engage Iran. 
Right now, we're not talking to them in Afghanistan. I think 
that is not only losing an opportunity, but probably making 
things more difficult for us in achieving our goals in that 
country.
    So, I actually have in my written statement a few upbeat 
final notes, but I think I'll just wait to throw those in at 
the appropriate time, because, as I said, I do see the 
situation in Afghanistan as dire, but it is still doable, if we 
can get, as I said, our act together. We need to do it sooner 
rather than later.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Inderfurth follows:]
          Prepared Statement by Ambassador Karl F. Inderfurth
    Chairman Levin, Ranking Member McCain, and members of the 
committee: Thank you very much for your invitation to discuss the 
security, political and economic challenges facing Afghanistan today 
and the recommendations contained in the recently released report of 
the Afghanistan Study Group (ASG) addressing those challenges.
                        afghanistan study group
    First, by way of introduction, a word about the ASG.
    The Center for the Study of the Presidency, led by former U.S. 
Ambassador to the North Atlantic Treaty Organization (NATO) David 
Abshire, was closely engaged in the work of the 2006 Iraq Study Group. 
During the deliberations of that group, it became more and more evident 
that Afghanistan was at great risk of becoming ``the forgotten war.'' 
It was also evident that one of the principal reasons for this was the 
war in Iraq. According to the study group (in its final report): ``The 
huge focus of U.S. political, military and economic support on Iraq has 
necessarily diverted attention from Afghanistan.''
    I should add that Afghanistan is still being overshadowed by the 
Iraq war. As the Chairman of the Joint Chiefs of Staff, Admiral Michael 
Mullen, told the House Armed Services Committee in December: ``It is 
simply a matter of resources, of capacity. In Afghanistan, we do what 
we can. In Iraq, we do what we must.''
    Participants and witnesses before the Iraq Study Group also pointed 
to the danger of losing the war in Afghanistan unless a reassessment 
took place of the effort being undertaken by the United States, NATO, 
and the international community. In its final report, the study group 
reached this conclusion: ``It is critical for the United States to 
provide additional political, economic, and military support for 
Afghanistan, including resources that might become available as combat 
forces are moved from Iraq.''
    In the spring of 2007, concerned about the deepening crisis in 
Afghanistan, Ambassador Abshire decided to establish a smaller scale 
study group. Co-chaired by Ambassador Thomas Pickering and General 
James Jones (ret.), it included 19 former government officials and 
experts on Afghanistan and the region, including former Senator Charles 
Robb, Ambassador James Dobbins, and Dr. Barnett Rubin among others, 
including myself. The goal of the ASG was to provide policymakers with 
key recommendations that will contribute to revitalizing our efforts 
and rethinking our strategies for a successful long-term outcome in 
Afghanistan.
                           overall evaluation
    Before highlighting the recommendations contained in the study 
group's report, let me share with you this overall evaluation of the 
situation in Afghanistan, as provided by our co-chairs:

          Afghanistan stands today at a crossroads. The progress 
        achieved after 6 years of international engagement is under 
        serious threat from resurgent violence, weakening international 
        resolve, mounting regional challenges and a growing lack of 
        confidence on the part of the Afghan people about the future 
        direction of their country. The United States and the 
        international community have tried to win the struggle in 
        Afghanistan with too few military forces and insufficient 
        economic aid, and without a clear and consistent comprehensive 
        strategy to fill the power vacuum outside Kabul and to counter 
        the combined challenges of reconstituted Taliban and al Qaeda 
        forces in Afghanistan and Pakistan, a runaway opium economy, 
        and the stark poverty faced by most Afghans.
          Success in Afghanistan remains a critical national security 
        imperative for the United States and the international 
        community. Achieving that success will require a sustained, 
        multi-year commitment from the U.S. and a willingness to make 
        the war in Afghanistan--and the rebuilding of that country--a 
        higher U.S. foreign policy priority. Although the obstacles 
        there remain substantial, the strategic consequences of failure 
        in Afghanistan would be severe for long-term U.S. interests in 
        the region and for security at home. Allowing the Taliban to 
        re-establish its influence in Afghanistan, as well as failure 
        to prevent Afghanistan from becoming a failed state, would not 
        only undermine the development of the country, it would 
        constitute a major victory for al Qaeda and its global efforts 
        to spread violence and extremism.
          The `light footprint' of the U.S. and its allies in 
        Afghanistan needs to be replaced with the `right footprint.' It 
        is time to re-double our efforts toward stabilizing Afghanistan 
        and re-think our economic and military strategies to ensure 
        that the level of our commitment is commensurate with the 
        threat posed by possible failure in Afghanistan.
                          key recommendations
    Attached to this written statement is a summary of the 34 
recommendations contained in the report of the ASG (see Annex F). For 
more focused work, the group decided to center its analysis on several 
issues that its members identified as both urgent and crucial for 
future success, beginning with three overarching recommendations.
    First, the study group proposes to establish an Eminent Persons 
Group to develop a long-term, coherent international strategy for 
Afghanistan and a strategic communications plan to garner strong public 
support for that strategy.
    Second, the study group calls for decoupling Iraq and Afghanistan, 
including in the funding and budget process. Doing so would enable more 
coherence and focus on the increasingly important Afghanistan (and I 
would add Pakistan) issues, both for Congress and the executive branch 
as well as in dealing with other governments and international 
organizations.
    Third, the study group recommends that a Special Envoy for 
Afghanistan position be established within the U.S. Government, charged 
with coordinating and orchestrating all aspects of U.S. policies 
towards Afghanistan, including the direction of U.S assistance programs 
and relations with European and Asian counterparts and Afghan 
Government officials.
    The remainder of the study group's recommendations fell into the 
following six specific subject areas:

On International Coordination:
          appoint a high-level coordinator with a U.N.-mandate to 
        advise all parties to the mission in Afghanistan (over 40 
        countries, 3 major international organizations, and scores of 
        other agencies and nongovernmental organizations) on needed 
        changes to their policies, funding, and actions and also to 
        ensure that all international assistance programs (now 
        fragmented among 62 donors) have a coordinated strategy that 
        aims to bolster the central government's authority throughout 
        the country and is closely coordinated with the Afghan 
        Government. As Secretary Rice has noted: ``There are alot of 
        cooks in the kitchen. We owe it to President Karzai to have an 
        effective international coordinator.'' In short, the 
        international community must get its act together in 
        Afghanistan.
          General Jones will address the need for greater international 
        coordination on the military side.
On Security:
          increase the number of NATO troops and military equipment in 
        Afghanistan to the levels requested by the commanders and 
        ensure that the increase in quantity of forces is matched with 
        the quality of the forces that are needed for the mission they 
        are sent to perform. Also, the study group welcomes the 
        significant increases in congressional funding for the Afghan 
        National Army and Afghan National Police as well as Defense 
        Secretary Gates' recent announcement that the U.S. will support 
        the expansion of the army to 80,000, beyond its current goal of 
        70,000 by next year. A further expansion may be required, but 
        any such consideration must take into account affordability, 
        sustainability and the proper balance between police and 
        military forces.
On Governance and the Rule of Law:
          a coherent and resourced strategy to increase the reach, 
        capacity, and the legitimacy of the Afghan Government must be a 
        top priority. Lt. Gen. Karl Eikenberry, the former U.S. 
        military commander in Afghanistan, has said the greatest long-
        term threat to success in Afghanistan is not the resurgence of 
        the Taliban, but ``the irretrievable loss of legitimacy of the 
        Government of Afghanistan,'' citing specifically corruption, 
        justice, and law enforcement. Afghanistan has slipped sharply 
        in Transparency International's annual corruption index and now 
        ranks among the worst eight countries in the world.
On Counternarcotics:
          the study group cautions that proposals to increase 
        eradication immediately--especially the use of herbicides 
        whether sprayed from the air or the ground--could prove 
        extremely dangerous for Afghanistan, further undermining 
        support for the government of President Karzai and providing 
        new recruits for the Taliban. Instead, the study group proposes 
        much larger alternative livelihood programs and greater 
        interdiction efforts, including the use of international 
        military forces to assist the Afghan police to destroy heroin 
        labs and the removal of high officials benefiting from the drug 
        trade.
On Economic Development and Reconstruction:
          rebuilding and development assistance must flow into a region 
        immediately after it is cleared of Taliban presence. 
        Infrastructure development--especially outlays on roads, power 
        and water systems--should be accelerated. These efforts should 
        utilize the Afghan labor force and contractors as much as 
        possible. In short, a construction ``surge'' is needed in 
        Afghanistan, as are jobs. Very high unemployment in Afghanistan 
        is a major factor in undermining the legitimacy of the Karzai 
        government and adding to instability.
On Afghanistan and its Neighbors:
          the study group makes several recommendations, especially 
        about Pakistan.

    Afghanistan and Pakistan are inextricably linked. It is clear there 
can be no successful outcome for Afghanistan if Pakistan is not a part 
of the solution. The future stability of both depends on the 
development of an effective strategy to counter and uproot the Taliban/
al Qaeda sanctuary in Pakistan's tribal border areas. Indeed Director 
of National Intelligence Mike McConnell told the Senate Intelligence 
Committee last week that radical elements in these areas are now a 
threat to the survival of the Pakistan state.
    The study group recommends that the U.S. and its allies develop a 
regional plan to effectively target the risks coming out of the border 
region area with Pakistan, involving the governments of Afghanistan, 
Pakistan, and other regional powers and including better combined 
intelligence, operations and non-military efforts.
    Countering cross border infiltration is critical. The Trilateral 
Afghanistan-Pakistan-NATO Military Commission is an important mechanism 
in this regard. So is the strengthening of the U.S. military presence 
along the Afghan side of the border, which the latest U.S. marine 
contingent arriving in April will assist. Washington also needs to work 
more closely with Pakistan in joint counterterrorism operations that 
can bring U.S. resources (including intelligence) and military assets 
to bear in the borders areas of Afghanistan and Pakistan. That 
possibility exists, if pursued in appropriate channels. JSC Chairman 
Mullen's recent visit to Islamabad to meet with his counterpart, Army 
chief Gen. Ashfaq Kayani, was the right step in this regard. The 
January 31 missile strike in North Waziristan that killed senior al 
Qaeda operative Abu Laith al-Libi is an example of the right kind of 
counterterrorism operation.
    But the study group cautions that a large-scale U.S. military 
intervention in Pakistan's tribal areas would be disastrous for the 
Pakistani state and for U.S. interests and would not provide a lasting 
solution to the problem. Rather than trying to insert U.S. influence 
directly into the region, Washington should strongly encourage systemic 
political and economic effort that incorporates the Federally-
Administered Tribal Areas into the administrative, legal and political 
systems of Pakistan. This involves improving overall governance and law 
and order in the region as well as facilitating economic development. 
As Pakistan's Ambassador, Mahmud Duranni, says, what is needed in the 
tribal areas is a ``multi pronged strategy. That is, military force, 
development and empowerment of the people. Using force alone is not the 
answer.''
    In addition to pursuing these steps with Pakistan, the study group 
recommends that the U.S. develop a strategy toward Iran--Afghanistan's 
other key neighbor--that includes the possibility of resuming 
discussions with Iran to engender greater cooperation to help stabilize 
Afghanistan, beginning with the issue of counter-narcotics where common 
ground already exists.
    The present U.S stance of not speaking with Teheran about 
Afghanistan risks increasing the likelihood that Iran will step up its 
covert interference as a way of undermining U.S. interests and the 
international effort in Afghanistan.
                            closing remarks
    In closing, let me end on a more upbeat note. As I mentioned at the 
beginning of my testimony, the genesis for the ASG was the growing 
concern that Afghanistan was becoming ``the forgotten war'' and that it 
had been pushed to the side by the requirements of the war in Iraq. In 
recent months, however, there are some encouraging signs that the U.S. 
and its international partners in Afghanistan have recognized the hard 
truth that defeat in Afghanistan is a possibility--and are beginning to 
rethink and adjust strategy and resources accordingly.
    Several world leaders have recently traveled to Kabul to meet with 
President Karzai and their national contingents in the country, 
including British Prime Minister Gordon Brown (who said U.K. troops 
will have to remain in Afghanistan for more than a decade), French 
President Nicolas Sarkozy (the first French head of state to travel to 
Afghanistan), newly elected Australian Prime Minister Kevin Rudd (who 
announced his country will stay for the ``long haul''), and Italy's 
Prime Minister Romano Prodi (his first visit to Afghanistan). There was 
also a high level international donors conference on Afghan 
reconstruction in Tokyo.
    Just last week Secretary Rice and British Foreign Secretary 
Miliband traveled to Kandahar. Secretary Gates was in Vilnius to meet 
with his NATO counterparts and gave a major address on Afghanistan in 
Munich. All of these visits and meetings are pointing toward the 
critical NATO summit that will be held in early April in Bucharest, 
where the alliance will have the opportunity to demonstrate the 
strength of its resolve and its long-term commitment to a stable and 
secure Afghanistan. Hopefully the reports you have before you today by 
the ASG (``Revitalizing Our Efforts--Rethinking Our Strategies'') and 
the Atlantic Council (``Saving Afghanistan: An Appeal and Plan for 
Urgent Action'') will contribute to U.S. and NATO deliberations.
    So, working closely with the Afghan Government and its people, I am 
optimistic we can succeed in Afghanistan. In many respects the 
situation there is dire, but still doable, and terribly important. As 
the U.S. Ambassador to NATO, Victoria Nuland, correctly points out: 
``If we can get it right in the Hindu Kush, we will also be stronger 
the next time we are called to defend our security and values so far 
from home.''

    Chairman Levin. Ambassador, thank you.
    Here's the situation now. We have about 5 minutes left, I 
believe, plus the extra 5 in the first vote, then there's 
apparently a second vote immediately thereafter. I think 
everybody--hopefully we can continue this without interruption, 
but I'm not sure we can. It's going to depend on everybody's 
speed and how quickly people can move and their own schedules 
and everything else.
    Let's start with a 5-minute round. I'll go 5 minutes, and 
then, if anyone's here, I will turn it over immediately to 
them.
    Let me start with a question to both of you. Your reports 
are pretty sobering. The Study Group says that the efforts to 
stabilize Afghanistan were faltering. Atlantic Council says 
NATO is not winning. The ASG says that the antigovernment 
insurgency has grown considerably over the last 2 years. Is it 
safe to say that neither one of you believes that the Taliban 
and al Qaeda and their allies are on the run in Afghanistan? Is 
that fair? Ambassador, do you believe that the Taliban, al 
Qaeda, and their allies are on the run in Afghanistan?
    Ambassador Inderfurth. Today, no, they're not on the run. 
They were on the run. There was a moment, soon after the U.S. 
military action after September 11, and into the Tora Bora 
area. But, around 2003, you can start to see a shift, in terms 
of reconstituting the Taliban, including in these tribal areas 
of Pakistan. They basically dispersed. They were not going to 
take on the U.S. military. They dispersed, and they basically 
said--their leaders said, ``We'll be in touch. Stay around. 
We'll be in touch.'' They went to various places, some in 
Afghanistan, some in Pakistan--and they have reconstituted. 
They have reconstituted, in part, because they have seen the 
difficulties of the Karzai government; in part, because they 
have gotten foreign assistance, and there has been a migration 
of things from Iraq into Afghanistan that we never saw before. 
Even during the Soviet times, you didn't see improvised 
explosive devices, you didn't see assassinations, you didn't 
see suicide bombers. All this is new to Afghanistan, as it is 
becoming new to Pakistan.
    So, I do not believe they are on the run.
    Chairman Levin. General?
    General Jones. Sir, I would agree with that. I think there 
are some contributing factors. One is that there are safe 
havens that they can withdraw to. Two is, as I mentioned, the 
economic viability of the narcotics trade, I think, fuels at 
least part of the insurgency. So, they're well paid. I think 
they have the ability to pay their forces, perhaps, competitive 
wages with the government's wages. Three is the fact that the 
Government of Afghanistan has not been able to materially 
increase its span of control over what it was a couple of years 
ago. So, it's possible to win every single skirmish, as we have 
been doing, and still lose the war, as we've learned in the 
past.
    Chairman Levin. I thought the President's statement the 
other day, that the Taliban, al Qaeda, and their allies are on 
the run in Afghanistan, was just rose-colored glasses to an 
extreme.
    Let me ask you a question about the need to do a lot of the 
work in the villages. There's a national solidarity program in 
Afghanistan, and one of the efforts there was their provision 
of $400 million in payments that were disbursed to 16,000 
community development councils in Afghanistan. These payments, 
these funds, have financed over 30,000 community development 
subprojects, which have improved access to markets and 
infrastructure and services. The program has drawn resources 
from the Afghanistan Reconstruction Trust Fund, which is 
administered by the World Bank. By distributing funds directly 
to districts at the lowest level, by bypassing, in other words, 
the central and provincial governments, the solidarity program 
has, according to the information we have, significantly 
reduced corruption and misappropriation, and it avoids that 
layering of bureaucracies, as well.
    This morning, we asked about this. This morning, it was, I 
believe, Secretary Boucher who gave a very strong statement of 
support for that program. Are either of you familiar with that 
program, and can you comment on it?
    Ambassador Inderfurth. I'm not familiar, directly, with 
that program. I've read testimony, which that has been called 
attention to. I have no doubt at all we have some programs that 
are working in Afghanistan.
    Chairman Levin. You're not familiar, though, with that 
specifically?
    Ambassador Inderfurth. No, I'm not familiar with that, and 
it could be taking place in these areas. The south is where the 
security problems are.
    Chairman Levin. All right.
    Ambassador Inderfurth. That's where it's difficult to do 
programs. But, we're doing a lot of useful programs in other 
parts of the country.
    Chairman Levin. General?
    General Jones. I'm not familiar with the specifics of that 
program, but I do believe that there is something that I 
observed, in the few years that I was there, that, where you 
have a governor of a province that is not corrupt, where you 
have a police chief who is not corrupt, and you have the 
presence of the Afghan army and PRTs, and you have direct flow 
of assistance funds, things turn around very quickly. I agree 
with the Ambassador, that the overwhelming mentality of the 
people is to want to live in a democracy and live in freedom.
    Chairman Levin. The ability of 16,000 local community 
development councils in Afghanistan to directly fund these 
small projects, it seems to me--and, more importantly, the 
people who know, including Secretary Boucher this morning--it 
really gives us an opportunity to cut through layers of 
bureaucracy, as well as corruption. By the way, according to 
Secretary Boucher this morning, the request of the 
administration in the supplemental is for $50 million instead 
of the $10 million last year. Those are numbers--if my memory 
is correct--which means there would be a significant increase 
in that. What I'm going to do for both of you, just to get your 
reactions, even though I know your reports are filed, I'd like 
to send you the information on that program to get your 
reaction to it.
    Now we're going to have to recess, or I'm going to miss a 
vote, and there's no one else here to pick up the gavel. So, 
hopefully within 10 minutes, we will resume.
    Thank you for your patience. [Recess.]
    Our apologies, everybody. Both of you have been around the 
Hill long enough to know that these things happen too 
regularly, but--this afternoon was one of them.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Jones and Ambassador Inderfurth, thank you, not 
only for your very cogent and, I think, accurate testimony, but 
for your devotion and service to the country. So, thanks very 
much.
    One issue I'd like to raise. I was here this morning, but I 
had to leave before I asked questions, and I kept hearing all 
the witnesses refer to, as sort of a metric or a benchmark for 
success, the fact that that we are prevailing in all of our 
tactical engagements.
    General Jones, I just wonder, your comments about whether, 
frankly, that's encouraging, but I don't think that tells us 
much about the ultimate struggle, since it's more political 
than tactical. Your comments on that?
    General Jones. I think that we should be careful to 
celebrate tactics over strategy. In the Financial Times 
yesterday, Lord Ashdown has an article about what he would have 
done, and he starts out with a fairly well-known quote by Sun 
Tzu, who said that, ``Strategy without tactics is the slow road 
to defeat, but tactics without strategy is the noise before 
defeat.'' Certainly in one of my lessons from Vietnam was the 
fact that you could win all of your tactical engagements and 
still not prevail. So I'd be very careful about signing up to 
that ideology as a benchmark for success.
    Senator Reed. Mr. Ambassador, further comments or do you 
concur?
    Ambassador Inderfurth. I totally concur. Coincidentally, 2 
weeks ago I was in Hanoi, my first trip to Vietnam, and it was 
on the 40th anniversary of the Tet Offensive. There were a few 
articles there. Of course, the Vietnamese have turned the page, 
they want Americans back there to do business. They like us. 
But, it did raise the question of a military defeat, but a 
propaganda victory.
    So, the Taliban--they can suffer losses, they can't have a 
set battle with the forces there, but they can create a climate 
of insecurity and fear in the country that will stop 
reconstruction in the south. Recently, there was the bombing of 
the Serena Hotel in Kabul. This was an oasis of western secure 
life. Everybody went to the Serena, and suicide bombers got in 
there.
    So, the psychological dimension of this is important to 
deal with and to counter.
    Senator Reed. Thank you.
    General Jones and Mr. Ambassador, your report talks about 
integrating counternarcotics and counterinsurgency operations 
using international military forces to assist Afghan National 
Police (ANP) in the interdiction, including supporting the ANP 
in its effort to destroy heroin labs. We're told that there's a 
reluctance by Central Command to have an explicit counterdrug 
mission, which would seem to undercut this explicit recognition 
that these two missions are both necessary and should be 
explicitly embraced. Again, can you comment on that, sir?
    General Jones. Sir, it's not just the Central Command. 
There is a reluctance, in most militaries, to take on drug 
operations, preferring to leave it up to equivalents of drug 
enforcement administrations and officials and capabilities that 
are specifically suited for that challenge.
    In Afghanistan, the challenge is clearly there. The good 
news about Afghanistan is, you can see the size of the problem 
every year. All you have to do is go up in a helicopter at the 
right time, and you can see it. There's no jungle. Everybody 
knows where it is, and you can really measure it with great 
accuracy.
    I think that whatever the solution is, it has to have an 
Afghan face to it. I think the international community has to 
figure out ways to support it. NATO does not have that mandate. 
I was on the receiving end of what NATO would and would not do. 
We were able to have a passive role--that is to say, we could 
provide security for forces that were going in to do a 
counterdrug operation--but we would not actively send NATO 
troops to participate in it.
    So, it's fairly consistent among the militaries that that 
is not part of the mission. Somebody's going to have to do it.
    Senator Reed. It would seem to me, following up, that these 
laboratories are owned and operated by the traffickers, the 
real bad guys, and there would seem to be less political 
objection to knocking those out than trying to eradicate the 
poppy fields, et cetera. So, it might be--they'll quickly 
compensate for that, but that might be the most logical target, 
if you wanted to ramp up the pressure. Is that sensible, in 
your regard?
    General Jones. I think that's certainly part of it. I'd 
like to underscore a point made by the Ambassador, that this is 
a regional problem, and, with regard to narcotics, every 
country that touches Afghanistan is concerned about the 
trafficking. It would seem to me that, at least on that score, 
we can come to some agreements with the neighbors in the 
region, that we should do more, comprehensively, to halt the 
flow of drugs across the borders. There are only so many 
crossings. More specifically, since 90 percent of the crop is 
destined for Europe, and we know the routes through the Black 
Sea and how it gets there, it seems to me a more coordinated 
international outcry in response would be warranted, as well.
    Senator Reed. Let me shift to the regional aspects of, 
specifically, Pakistan, and ask you a question, General Jones, 
but feel free to elaborate on just your impressions about 
Pakistan, and then, Mr. Ambassador, your comments, too. We are 
effectively denied a physical presence in these tribal areas, 
American military personnel. Mr. Ambassador, you made the point 
very strongly that that might even be counterproductive. But, 
with technology, particularly UAVs, Predators, platforms that 
can pick up signals and that are a least not-so-overt presence, 
would seem to be the way to go, but there's a real concern, I 
think, given the demands in Iraq for force protection. Are 
there sufficient platforms available in the region--Pakistan, 
Afghanistan? Or, another way to say it is, if we surge there, 
with the ISR, UAVs, et cetera, could that give us an advantage 
now that we don't have?
    General Jones. Senator, I'd have to defer to Admiral Fallon 
at CENTCOM for that. I don't think NATO has the kind of 
capacity there to go beyond or, use that kind of technology to 
go beyond what it's capable of doing today, though. It has 
mostly been focused on Afghanistan, itself.
    Senator Reed. Mr. Ambassador, that question, and also any 
other elaboration about Pakistan that you'd like to make.
    Ambassador Inderfurth. Senator, I think that the question 
of any U.S. presence in those tribal areas--right now, the--I 
hate to keep talking about polls, but it does give you 
something to get your head around--the latest poll of 
favorable/unfavorable views of the United States in Pakistan is 
16 percent favorable; 69 percent--call it 70 percent--
unfavorable. I guarantee you, if those polls were taken in the 
tribal areas, it wouldn't even go to 16 percent.
    So, if we have a military presence there, any type of U.S. 
presence there, I'd suggest that they would quickly grow a 
beard and dress in the native garb, and do their work quietly, 
because they will only generate a reaction of these tribes that 
have resisted any kind of authority, including from Islamabad, 
as well. But, that doesn't mean that there aren't opportunities 
to have some discreet forces involved there. Obviously, I'm not 
privy to any kind of classified information, so I can't say 
what we're doing there and what we're not, but I do know that 
there have been missile strikes there, so we're doing 
something, and I think that we need to go in that direction.
    But, there are other mechanisms to deal with this. There is 
a Trilateral Commission--Afghanistan, Pakistan, and NATO--that 
has been meeting to try to get these two countries to work with 
NATO in a cooperative way to try to deal with the cross-border 
interdiction. They are getting better at this. Some of our 
military commanders have been commending this.
    It's also intelligence-sharing. Intelligence-sharing is 
very important, not only on this question of the interdiction 
across border, but also on the narcotics side. Even if our 
forces do not want to become actively engaged in 
counternarcotics operations, we can sure be sharing 
intelligence to let the ANP know what we have found on a timely 
basis.
    So, I think that there is a lot that can be done there, 
but, again, if we have a heavy hand there, I think we're only 
going to make our goals, objectives that much more distant to 
achieve.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Forgive us, gentlemen, for departing for the vote, but 
that's a necessary part of life.
    I must just ask a question and go upstairs; I'm on the 
Senate Select Committee on Intelligence, right above here. We 
have the Director of National Intelligence.
    But, I want to return to this subject that I delved into 
deeply this morning with our first panel, and that is to 
follow-on what Senator Reed was talking about--the drug 
problem. What haunts me is that we had Secretary Gates before 
us here a few days ago, I asked him directly--with two marine 
battalions going on, that's a consequence of the inability of 
NATO to meet its requirements--and his answer was very cryptic 
and to the point, ``Yes, they're going, because the other 
countries won't step up to their prior commitments or the need 
for additional forces.'' What do we tell the wives and the 
families of these marines as they go over there, that this drug 
money is buying the arms that'll be used against them?
    As much as you've both expressed here the reluctance of the 
military to take on the narcotics, it's almost in the realm of 
force protection to take it on, to help dry up this source of 
income, which is going to the Taliban and being recycled into 
weaponry and brought to bear against these young men and women 
going over in these two battalions, and the ones that are there 
now.
    I just find it difficult how we're doing our responsibility 
here in Congress by sending these battalions over, at the same 
time we're not doing something--and I don't know what it is 
that we could do--we do not wish to appear foolish or rash; the 
executive branch has really got the responsibility, not the 
legislative branch--but to be doing everything we possibly can 
to begin to energize some activity against this drug trade.
    This morning it was explained to us, it was a 30-some-
percent increase last year; this year, the projection is 
considerably less, but, nevertheless, a measure of increase in 
the drug trade. So, I just say we have to do something. I've 
gone through your reports. This is my second time to have the 
privilege to be with you on these reports. You do address the 
various point plans and so forth. But, is there a sledgehammer 
out here that somebody could use? I'd be willing to take the 
responsibility for it in this institution.
    General Jones. Sir, I've said all along that I think it's a 
question of a comprehensive strategy that nations can agree on, 
but that absolutely has to have an Afghan face to it. I believe 
it would be a sign of leadership on the part of President 
Karzai if he launched a national campaign that would be 
buttressed by judicial reform and the establishment of a police 
force that can do its job, supported by the international 
community. I think it is so critical to his own success as a 
leader, that even if he has to use his own fledgling army to 
take this on to make sure that it works, that he should do 
that. But, it has to be competitive. I don't think there's one 
solution to this.
    The international community can help by taking measures, 
such as providing alternate means of livelihood, encouraging 
farmers not to grow the crop, providing economic support, where 
necessary. But, the harder part of the fight, I think, in order 
to avoid chaos, has to be done by the Afghans themselves, and 
it's going to have to be done over time. It was a ramp-up that 
took several years, and it's going to be several years to come 
down. You have to be careful that you don't tilt it too much 
in, because you could create conditions of a civil war, when 
food stocks dry up and the little economy that they have just 
disappears.
    But, I think it's doable. It takes that strong 
international leader to be able to convene the international 
community, the drug enforcement agencies from many nations, the 
Afghan statement of purpose that this is definitely with the 
highest national priority, and the repair work that has to be 
done and the supporting infrastructure that are essential, the 
judicial system and the police. I think President Karzai would 
do himself a lot of good if he did that internally in his 
country and stayed on it.
    Senator Warner. Ambassador Inderfurth, do you care to 
comment?
    Ambassador Inderfurth. I would, Senator Warner.
    I think that the drug problem may be more susceptible to a 
agricultural solution than a military solution. There is not a 
sledgehammer. I wish there were.
    We've been talking about our two reports from The Atlantic 
Council and the ASG. There was a third report that was released 
at the same time by the National Defense University.
    Senator Warner. Yes. Mr. Ullman?
    Ambassador Inderfurth. Exactly.
    Senator Warner. Yes.
    Ambassador Inderfurth. Harlan Ullman--which is titled 
``Winning the Invisible War: An Agricultural Pilot Plan for 
Afghanistan.'' I'd like to read you the one paragraph that they 
say, about the issue of eradication and what to do. They say, 
``The stark alternative of elimination and eradication of poppy 
growth will backfire. Destruction of poppies throughout the 
country, even if sustainable, would create massive economic 
disruption and hardship and, no doubt, recruit many more 
volunteers for the insurgency,'' meaning the Taliban. Then they 
say, ``As we suggest, a pilot program for licit--licit--legal 
sales of poppies, or, indeed, temporary and massive increases 
in payments to farmers for cultivating nonnarcotics crops, in 
addition to other counternarcotic measures, may be the only way 
to prevent expanding opium production.'' We may have to buy 
them out. That's not something that we like the idea of doing.
    Senator Warner. I think it would be relatively inexpensive 
to pay the farmer.
    Ambassador Inderfurth. It would be relatively inexpensive.
    Senator Warner. He gets a very small amount of this.
    Ambassador Inderfurth. The farmers don't get anything. It's 
the drug dealers that get the money.
    Senator Warner. Sure. That's where the money is.
    Ambassador Inderfurth. So, it may be that we have to think 
out of the box. I know that there's been a lot of studies about 
licit sales and, is that going to encourage others to go into 
poppy production? But, right now the current strategy is not 
working, and using the sledgehammer of aerial spraying with 
herbicides, every independent report I've seen says it will 
backfire.
    Senator Warner. Chaos. That would bring me to my last 
observation point. I remember Charlie Wilson very well. I was 
on the Intelligence Committee at that time, and somewhat 
involved in the stinger decisions that we made here. Matter of 
fact, I was deeply involved in. Charlie Wilson urged me to go 
several times. I'm not going to put it in the record why, but I 
was a relatively young Senator, and I wasn't going to risk my 
career on some of his operations, which were unrelated to the 
main mission. So much for my good friend Charlie, and I really 
like him.
    But, in the context of doing that work way back then, I 
undertook my own study of the history of Afghanistan, and one 
of the most remarkable chapters is in the late 1800s, when the 
British army were there for, I think, a period of about 15 
years, and they suffered enormous losses.
    I say to myself, they failed in the 1800s to bring about 
stability in Afghanistan. The Soviet Union poured enormous sums 
of money in, and they failed. What is it that we have as an 
opportunity to fail, in the wake of those two historical 
chapters of absolute failure?
    General Jones. Senator, for my money, it's the ability that 
we bring--not just the United States, but the international 
community--potentially, if done correctly, to make people's 
lives better in the villages and to offer them an alternative 
to a return to the draconian days of the Taliban.
    This isn't a scientific observation, but, in my 40 years in 
uniform, I've been to Vietnam, I've worked in Bosnia and 
Herzegovina, I've worked in northern Iraq, and I've been to 
Afghanistan, and I'm always amazed at--when I go into these 
missions, and I see the horrific violence that's going on, the 
ethnic cleansing of the Bosnias, the horror of the brutality of 
Saddam Hussein against the Kurds, and so on and so forth. But, 
even in Bosnia, where I thought, in 1993-1994 when I was there, 
regularly and deeply involved in what was going on, I thought 
to myself, there is no way that these people are ever going to 
live side by side again, given all that's going on. Yet, they 
do. They do.
    My lesson here is that, when you go through these periods--
we'll call them civil wars, if you want, or insurgencies. 
Eventually, people tire themselves out. They just go through a 
certain phase, and they get to the end of it, and they're 
exhausted. They need some outside help to say, ``Okay, here's a 
better way.''
    My sense of the Afghan people, in my 3\1/2\ years of going 
all over the country, is that they are tired of the long 
history of fighting, and they want an alternative. That was 
clearly demonstrated in the elections. The national elections 
and the parliamentary elections--hundreds of thousands of 
voters turned out, and some great stories about incredible 
treks across the mountains to get to a polling station. Things 
that would warm the heart of anybody who loves democracy and 
freedom. They voted with the expectation that their lives are 
going to be changed for the better.
    For a brief while, there was that moment in time when the 
momentum seemed to be rapidly going that way, and then, because 
of the failure to sustain the momentum, and, I think, the 
failure of the international community to find the leadership 
that could harmonize and make more cohesive the effort to be 
felt in the four or five main areas, including governmental 
reform and the assistance that's required to help that 
government succeed, and the metrics that that government should 
be meeting, have just simply not been met in the critical 
areas. So as a result, the momentum has stalled, and we could 
be in the danger of backsliding. I think that's what the 
Ambassador and I are concerned about.
    The fact that these three studies really do say the same 
thing, but in different ways, and most people that you talk to 
behind the scenes, even at NATO, they generally agree with 
that, but nobody has figured out what to do with it. That's why 
I'm so concerned that the turndown of Paddy Ashdown----
    Senator Warner. He's going to take on the drug portfolio.
    General Jones. He would have been the senior coordinator of 
the international effort--economic, judicial, social, all the 
nonmilitary missions, which I would think would have included 
the narcotics business.
    Senator Warner. That's maybe one of the reasons they turned 
him down, then.
    General Jones. Whatever the reason, I think it was a big 
mistake, and I hope we can find somebody of that stature to 
take his place. This time I hope that the international 
community will be more insistent, to make sure that the 
government doesn't turn him down.
    Senator Warner. Yes.
    Ambassador Inderfurth. I think that he was turned down, in 
part, because of that British Colonial history that you 
referred to.
    Senator Warner. Yes.
    Ambassador Inderfurth. They still have recollections of 
that. It just appeared for Karzai's own domestic reasons. To 
have a British proconsul come in, as they were describing, 
probably was more than he could do. I think it was a mistake 
that he turned it down.
    Can I just mention, in terms of your discussion----
    Chairman Levin. We'll have to make it short, if you would, 
because we're running way over on time.
    Ambassador Inderfurth. Very quickly. The history of 
Afghanistan has to be understood--the British and then the 
Soviets. But, we are not the successors to those two. The 
successor to the British and the Soviets is al Qaeda and 
Taliban. They hijacked the country. We are seen as going in to 
assist the Afghan people so that they won't return to those 
days. So, that's the progression.
    General Jones. That's a good point.
    Ambassador Inderfurth. Therefore, we are still wanted 
there. We're not seen as occupiers. But, we have to be very 
careful that we do things with them, so that we don't become--I 
mentioned civilian casualties--that, over time, we don't lose 
their support, because if we do, then that is time to leave.
    Senator Warner. Thank you, gentlemen.
    Thank you. I have to go upstairs.
    Chairman Levin. Thank you, Senator Warner.
    Senator Kennedy.
    Senator Kennedy. Thank you very much. Enormously valuable 
and helpful hearing.
    Just to relate some of the issues that we heard earlier 
today to some of the things that you've said. One, Secretary 
Shinn told the committee that our policy is sound and that 
implementation is the question. In terms of our ability to 
clear areas of insurgents, he said we're winning, but it's 
happening slowly and painfully. This is at odds, obviously, 
with--the Afghan Study Group and The Atlantic Council suggest 
otherwise. What is your opinion? Is there convincing evidence, 
as the Secretary suggests, that we're winning, even if slowly 
and painfully?
    General Jones. I think it depends on how you categorize the 
term ``winning.'' If clearing an area of the Taliban, which I'm 
sure we can do, doesn't result in some stability and some 
security and some reconstruction that accompanies that clearing 
in a way that either Afghan forces or Afghan officials or 
international forces can hold the area, then it's--we're just 
going to keep on going around in that circumstance.
    I don't think that the military alone is going to win this, 
if it's not accompanied by reconstruction and a change in the 
security that most Afghan families experience in the 
countryside.
    Senator Kennedy. On this, Secretary Boucher said that to 
stabilize Afghanistan we need to provide the security, justice, 
economic opportunity, good governance. He said we are doing 
what works, and getting the job done. So, it appears that his 
reference are to those other items: economic opportunity, 
governance, and the security. The Atlantic Council points out 
that the civil sector reform is in serious trouble. I'm just 
trying to figure out where you all----
    General Jones. I think there are a lot of individual things 
that are going on well. One of the things that characterizes 
the international effort--and this, Senator, is not necessarily 
a U.S. problem, this is a--kind of--how the whole thing is set 
up--most countries, when they arrive in Afghanistan, arrive 
with a fixed contribution that they're going to make, and they 
decide that, largely, on a national basis, ``We're going to''--
a country is going to do a PRT or they're going to a certain 
project. I think that's all very helpful. In the aggregate, 
does it make change, does it move things generally in the 
direction? Yes. But, on the big issues of tackling what is 
fundamentally keeping the country from moving in the right 
direction--narcotics, judicial reform, adequate police and 
security, and more focus in the international effort--I don't 
see that happening.
    So, I would agree with what the witnesses talked about, in 
terms of the words they used, but I don't think they can make 
the case--I don't think the case can be made that, on the four 
or five big things that have to be done, that the international 
community is doing enough.
    Senator Kennedy. Ambassador?
    Ambassador Inderfurth. Senator, Richard Boucher has the job 
I once had. I know, coming up on the Hill, that you want to 
present your best case. I think that a great deal of what's 
being said--as I mentioned, there are other parts of 
Afghanistan where there are some important things taking place, 
but, because this is not a coherent strategy, because we do not 
have a Paddy Ashdown, someone to pull this together, a lot of 
these efforts are not going well. They need greater 
coordination, they need more attention.
    If you take, for instance, the Afghan National Army, 
there's no question that this is a bright spot on the security 
front for Afghanistan. They're working up towards a 70,000-
person limit. Secretary Rumsfeld, when he was in office, wanted 
to go down from that target to 50,000. Fortunately, that got 
turned around. Now, Secretary Gates has said up to 80,000. 
That's a good step in the right direction. But the Afghan 
Defense Minister says they may need 150,000. If they need more, 
who's going to pay for them? The Afghan Government cannot pay 
their Afghan army personnel, so sustainability, affordability 
is going to have to be taken into account.
    So, yes, we can paint a good picture of increases in the 
Afghan National Army capacity, numbers, training, putting more 
of an Afghan face on operations, but then you ask, ``But how 
far is that going to go, and who's going to pay for it, and are 
we going to have the resources to do it?'' So, you have to take 
it to the next step.
    Senator Kennedy. Let me just finally ask you about the 
contributions of these other countries, the other NATO 
countries. We went through the polls, the Pew Foundation polls 
of European countries, and--how are we going to--and, Secretary 
Gates talked about how these countries are getting confused, or 
at least he expressed some opinion that there may be some 
confusion. Part of the reason may be because some of these 
countries are confused between Iraq and Afghanistan. I 
mentioned it's the issue of casualties, as well. But, what's 
your own assessment about--one, how do you reverse that? How do 
you change that? What's your sense as a former NATO commander, 
about what the trend line is going to be? What are we facing 
down there, and how can it be altered and shifted and changed? 
What recommendations do you have to do it?
    General Jones. Sir, Secretary Gates, at the Munich Security 
Conference last weekend, gave really, I think, a very sobering 
and accurate speech, where he basically characterized the fact 
that in the United States an attack on the World Trade Center 
was a defining moment akin to Pearl Harbor; in Europe, when you 
have a similar event--for instance, the attack in Madrid on the 
train system--Europeans react with saying, ``I sure hope the 
Spanish can solve that problem.'' It's not seen as an attack 
against all. Therefore, the degree of importance that we've put 
to this battle against ideologies and--sponsored by terrorism--
assumes a different metric.
    In 2002, the alliance at the Prague summit decided that 
they were going to expand the alliance by seven nations, going 
from 19 to 26, that gentleman's agreement was that 2 percent of 
the GDP would be a floor for national investment for all 
nations in security. In 2008, we now have 26 members, the 
average investment in national security in the alliance is 
about 1.7 percent. So, we've actually lost ground.
    I think the alliance is going to have to decide whether 
it's going to continue to expand and add new members and 
celebrate the expansion of the alliance, and the tremendous 
potential the alliance has, measured against an equally 
offsetting will to resource the missions that they take on.
    This is a fundamental moment in time for the alliance to 
develop a new strategic vision for the 21st century that takes 
into account the asymmetric nature of the world, and we 
understand that the conventional threats of the 20th century 
have faded into the rearview mirror of history, only to be 
replaced by these asymmetric threats that we're fighting.
    So, I don't know how we turn that corner. I know that's a 
corner that has to be turned, and I hope that the summit in 
Bucharest that's coming up in April will address some of that. 
I think Afghanistan will clearly be on the table. But, we 
definitely have a lot of work to do--the family of nations--to 
convince our publics, mostly European, that this struggle is 
really very important, and it's important to them. So far, I 
don't think we've made the case in an effective way.
    Ambassador Inderfurth. More has to be done to make that 
case, and I think that you're seeing some of the leaders of 
Europe beginning to recognize that they have to do that. Gordon 
Brown, the Prime Minister, has traveled to Kabul. President 
Sarkozy has traveled there, the first time a French president 
has been there--this is in December; the new Prime Minister of 
Australia, and the Italian Prime Minister Prodi, their first 
visits. There is more attention. Right now, it's fair to say 
that Afghanistan is not the forgotten war. People are talking 
about it, it is front and center--hearings such as these, 
reports being written.
    But, there's no question that something has to be done to 
deal with the millstone that Iraq is on Afghanistan, in terms 
of public perceptions, in terms of funding, in terms of dealing 
with Afghanistan on its own merits. That's why the ASG calls 
for a delinking of Iraq and Afghanistan, and a recommitment to 
the importance of this for the alliance.
    There was a great quote that I used in my testimony from 
Victoria Nuland, our very capable ambassador to Brussels, to 
NATO. She said that, ``If we can get it right in the Hindu 
Kush, we will also be stronger the next time we are called to 
defend our security and values so far away from home.'' Well, 
we are going to be called far away from home again, so we'd 
best get this one right so that we can demonstrate that we are 
competent and able to defend our values in this fashion. If we 
can't do it with a country that wants us and the international 
community is with us and NATO is beside us, where can we do it?
    Senator Kennedy. Thank you very much.
    Thank you.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Dole.
    Senator Dole. Yes. General Jones, I think the most 
compelling way to convey the gravity of the situation in 
Afghanistan is to speak, not only in terms of what must be 
done, but what are the implications if we fail to commit 
sufficient personnel or resources in a unified manner to 
Afghanistan. I believe, while I was over voting, this did come 
up. But, let me ask you to be explicit and to spell out, if you 
would, what are the implications of failure, for the United 
States, for the region, and for our European allies? If we 
could spell that out and be specific.
    General Jones. Senator, thank you. On page 5 of our report, 
there is a paragraph called ``The Consequences of Failure,'' 
but I'll just sum it up very briefly.
    I think that, given the enormous investment of the global 
international community in the institutions that are 
represented on the ground--the United Nations, NATO, European 
Union, the G8, the banking institutions--everything that we 
need to succeed in Afghanistan is represented in Kabul. If, in 
fact, we are not successful, then I think that will be a signal 
victory for the ideology that we're fighting--the radical 
fundamentalism--and it will only mean that we will have to 
redouble our efforts in other areas, because this will be a 
signal victory, and I don't think there's--that we can--that 
the international community can stand and let that happen--
aside from the regional impacts of, perhaps, even a spread 
beyond Afghanistan and Pakistan. So, I think the consequences 
are fairly serious. I think they're serious for the United 
States, as the most powerful nation on Earth. To absorb even a 
perceived failure would have longstanding consequences, whether 
it's here or in Iraq.
    Senator Dole. Mr. Ambassador, anything you'd want to add to 
that?
    Ambassador Inderfurth. Senator, I cannot improve on that 
statement. I think those are exactly the right stakes that are 
involved.
    Senator Dole. General Jones, let me ask you about this. We 
understand that there are over 40 countries and over 300 NGOs 
working in Afghanistan, as we've heard today, without any means 
of effectively coordinating among their actions. This is the 
most compelling argument that I've heard for structural and 
institutional change within our own government in the area of 
interagency reform. In your professional opinion, I'd like to 
hear from both of you what you feel are the greatest obstacles, 
within our own departments and agencies, to bringing about 
needed reforms.
    General Jones. I think the very concept of what constitutes 
national security in the 21st century is undergoing dramatic 
change. In the 20 century, it was fairly clear. National 
security threats were handled by the Department of Defense 
(DOD), NSC, and part of the State Department. In the 21st 
century, I think all elements of the interagency have to be 
brought together in a much more cohesive way to make the 
changes required. There is in Afghanistan, for example, a 
strong element that argues for judicial reform, that argues for 
more policemen, that argues for a successful war on drugs. 
These are not traditional military tasks.
    Now, if it's the national will, we can restructure our 
militaries to do whatever the country wants, but this is not 
the way things are supposed to play out.
    So, I think, within the interagency, we need to have much 
more agility, we need to be able to take on more issues, more 
rapidly, as they develop around the world, because the world in 
the 21st century is cycling around at a much faster pace as a 
result of globalization. We have to worry about energy 
security, the security of our critical infrastructures, the 
weapons proliferation. God forbid that a weapon of mass 
destruction falls into the Taliban's hands or al Qaeda's hands. 
These are asymmetric threats. I think even international 
narcotics, which clearly is supporting insurgencies and bad 
things that are happening around the world, have to be dealt 
with, and the only way to do that, I think, is to get more 
agility and more empowerment out to the people in the field who 
are actually doing the job. Speaking as a former unified 
commander, I had all the responsibility in the world that I 
could have wanted, but I had very, very little authority to do 
anything without always coming back and asking for permission 
through the interagency. As a result--the world goes around 
faster, and we're still not reacting in real time to the 
circumstances that evade us. I don't want to get into a 30-
minute answer to your question, but there is lots more to be 
said about things that we can do to be more efficient, 
competitively, in this new world of the 21st century.
    Senator Dole. Right. Yes, there is.
    Ambassador Inderfurth. I would only add that Secretary 
Robert Gates gave a excellent speech recently in Kansas, the 
Alf Landon speech.
    Senator Dole. Kansas. Yes.
    Ambassador Inderfurth. The disparities between our 
resourcing and funding for our military side versus our 
civilian side. I urge you all to read that and to think through 
what this means, in terms of our ability to engage abroad. 
Clearly, we can do it with our military. We can take Baghdad. 
But then what happens the day after? The ability for us to do 
effective work for post-conflict stabilization and 
reconstruction, we're not very good at it. USAID is not 
working. The components of that need more attention.
    So, this is a big problem, and I was very glad that my 
former colleague on the NSC, Bob Gates--when we were both much 
younger--I'm glad he's addressing that issue now, because it's 
fairly rare for a Defense Secretary to speak in favor of 
greater funding for State. There ought to be more of that. If 
you look at the budgets now, half a trillion dollars for the 
military and, what, smaller number--I don't have the exact 
number in front of me--for State and foreign operations. 
Somehow, we have to get this in better alignment. The 
disparities are making it impossible for us to address ``the 
day after'' in these countries.
    Senator Dole. Yes. I agree with you about that speech. In 
fact, when we were talking with Secretary Gates last week, I 
utilized that speech to get him to elaborate further. It's a 
very important subject.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Dole.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    First, let me say hello, General. It's my understanding you 
were born in Kansas City, MO. Is that true?
    General Jones. That's correct.
    Senator McCaskill. Well, hello from the friendliest big 
city in America. Thank you both for your service.
    I have a bad habit of focusing on one area. I'm very 
focused on accountability of the money that we've spent. I 
noticed, in The Atlantic Council report, General, that even 
though we have spent $21 billion on reconstruction and security 
institutions in Afghanistan, that less that 10 percent of that 
has directly gone to the Afghans. Where's the other 90 percent 
gone?
    General Jones. I think that's a good question. I think that 
part of it has been consumed by--corruption is a big problem, 
so I think it's been, possibly, diverted. I think that we have 
not always put in the right control mechanisms to make sure 
that the international money that's provided is, in fact, spent 
in the ways that we would like to see happen. But, also, 
internationally, we need to tighten up our auditing mechanisms 
to make sure that the Government of Afghanistan spends the 
money in the ways intended. Because this is not clearly 
evident, there are efforts to set up alternate mechanisms by 
which a more direct infusion of money, that's better 
controlled, directly to the people is going on by major 
organizations now, absent the reforms that are necessary within 
the government itself.
    Senator McCaskill. The PRTs that are working now in 
Afghanistan, obviously those represent people from various 
countries and under various authorities with various 
accountability, or lack thereof. It doesn't appear to me that 
the DOD has any kind of metric whatsoever for measuring the 
effectiveness of these PRTs. Are you aware of any kind of 
performance metric that's in place that we can even judge how 
these various PRTs are accomplishing any of the goals that 
we're giving them this money to accomplish?
    General Jones. Senator, I think the PRTs that are under 
U.S. auspices and control are probably very well monitored. I 
visited them, and their leaders are very responsible. The 
international PRTs that are under the auspices of sovereign 
nations, it's hard to say, there, because that's sovereign-
nation business. But, what is true, even though to me, the PRTs 
are very important, and, unfortunately, they remain very 
important today, because the government has not moved out to 
replace the PRTs. The idea was to establish a PRT so that it 
would give people hope that, soon, help would be coming, more 
massive help, and the PRTs would then be replaced. 
Unfortunately, the PRTs are still very, very important. But, I 
think our national PRTs are probably well-funded, and I think 
the auditing is probably quite good.
    Where I think we have a problem is, when we go into the 
general fund for international contributions and, at that 
point, when you factor in the salaries, you factor in 
construction costs and contracts and things of that nature, and 
I think that's where, probably, the abuses are found.
    Senator McCaskill. As you both are probably aware, we 
included a new Special Inspector General for Afghanistan 
Reconstruction (SIGAR) in the Defense Reauthorization last 
year. I would like, briefly, both of you to comment on advice 
you would give--succinctly, if you would--the new SIGAR as to 
where they would get the most bang for our buck, in terms of 
spending time in the initial phases of their work, in terms of 
looking at how the money is being spend and how we are 
utilizing American dollars in Afghanistan.
    General Jones. Within the G8 Accords, the primary 
responsibility of the United States is to train the Afghan 
army. I consider--and I think that of the five pillars that the 
G8 agreed to, that's probably the pillar that is--has been the 
best administered. I don't know whether it'll be a national 
decision that the United States is going to take over some 
other international responsibilities to, for example, 
dramatically increase the training for the police or take on 
more focus on the drug battle or champion judicial reform. I do 
know that we can't do it all; and I don't think, with the 
number of wealthy nations that we have there, that we should 
have to do it all.
    But, I'll let Ambassador Inderfurth give his viewpoint.
    Ambassador Inderfurth. Annually, we have been spending 
about $1.5 billion on economic reconstruction and development 
programs. I would suggest that that funding stream be looked at 
very closely by the new SIGAR. I testified recently, on the 
House side, before the House Armed Services Committee, endorsed 
that idea. I'm very pleased that it's going to be a part of the 
Senate's endorsement, because, as we saw with Afghanistan, 
having somebody that is dedicated to that subject can tell us, 
are we getting our money's worth? I think that that has been a 
valuable addition to looking at the contributions being made on 
reconstruction in Iraq. Unfortunately, a lot of that money is 
not going to the intended purposes. I don't know the programs 
well enough to say which ones, specifically, but, again, the 
reconstruction money, I think, needs to be looked at carefully.
    There is a Catch-22 here, as well. A lot of the money 
bypasses the Government of Afghanistan because of corruption, 
but, by bypassing the central government, the Karzai Government 
does not get credit for the decisions made about where that 
money will be spent. So, the undermining of the central 
government support is partly a product of the fact that so much 
money is coming in the country, and they have no clue where 
it's going, and have no say about where it's going. So, there 
is a Catch-22 here. That also has to be worked out.
    Again, we don't want to make the Super Envoy into Superman 
here, but that person needs to look at the kind of funding that 
goes through the government and around the government, to try 
to give the central authority more credit for the work being 
done in the country, because, as General Eikenberry says, ``The 
loss of legitimacy by the Karzai government is the gravest 
threat to Afghanistan.''
    Senator McCaskill. So, we can't trust them with the money, 
but we have to give them the credit.
    Ambassador Inderfurth. We have to find mechanisms to be 
able to trust them better with the money, and then give them 
credit
    General Jones. I might just piggyback on that one, because 
I think this is central to the point of what's going on, 
largely, in the government.
    I think it's incumbent upon the international community to 
embed people of competence to help these struggling young 
ministries understand how things work in a democracy. So, I 
think it's not enough to simply say, ``You've had your 
election, you've formed your government, you're on your own, 
you're a sovereign nation,'' without, at the same time, 
providing the expertise and the wherewithal of helping them 
write an economic recovery plan, better administer the Justice 
Department, and so on and so forth. But, it seems to me that if 
we did have a super--or a senior coordinator, that he or she 
would want to make sure that the international community is 
represented, as much as possible, to help the new Government of 
Afghanistan function effectively. That takes mentoring and 
teaching, and it's not going to be done over the years.
    But, the worst thing you can do, in my view, is just to 
treat them as though they intuitively know what to do, now that 
they've had an election, when the case is clear that there 
isn't that depth at the ministerial levels. There are some very 
good people at the senior levels in the Afghan Government, 
people of high education, high quality; but, unfortunately, the 
numbers are not there.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, Ambassador, welcome, and thank you for being here 
today.
    I want to pick up on this issue of the PRTs and their 
effect on that process. The Atlantic Council report noted that 
the PRTs, ``come from the various nations and report back to 
the nations' capitals; hence, most are not under central 
command and coordination, and integration of planning has been 
modest, at best.'' I can understand why the capitals would want 
to hear what they are doing, and why they would still want 
command, but it seems to me at least that they're very 
difficult to accomplish what we're trying to accomplish there 
if they can't be centrally coordinated to avoid some of the 
duplication of effort. So, I guess I would be interested in 
your thought on that and what, perhaps, a better solution would 
be.
    General Jones. Senator, when I was in NATO, we relied 
heavily on the missions of the PRTs, and we worked with the 
various nations to try to, to a certain point, standardize what 
the Afghans could expect to find in a PRT. There is wide 
discrepancy between what one PRT of one nation does versus 
another.
    While I was there, there was also a security aspect that 
was worrisome. I was very concerned that a PRT could have been 
overrun with many captives and public executions, and so on and 
so forth, so we spent a lot of time assuring the security of 
the PRTs.
    But, my overall conclusion was that, where you had a 
governor who was not corrupt and was working in the right 
direction, where you had a police chief that could aid in 
reforming the structure of the police department, and where you 
had a good PRT that was supported with the resources necessary, 
the people in that province turned, almost immediately, in a 
positive direction--building roads, opening schools, bringing 
water, bringing electricity where there was none. It's very 
easy to make a huge difference in people's lives in some of the 
areas of that country.
    So, I think, unfortunately, as I mentioned earlier, that 
the PRTs still remain an important tool, because we haven't had 
the sustained momentum of the government being able to gain 
more and more control over their countryside. Until those 
governmental reforms kick in, and until the metrics on that 
government are demanded by the international community, I'm 
afraid that the PRTs are still going to play a very important 
role for the foreseeable future.
    Senator Thune. But just the notion that there are all these 
independent operating parts or pieces out there, and 
oftentimes, probably, duplicating the activities of others, 
that there--as was noted by the report--couldn't be some sort 
of central command or coordination that makes sense, that the 
countries, the nations that are involved with that, could 
subscribe to?
    General Jones. I think it would be very good if we could 
achieve that. We have not been able to achieve the 
international accords that are necessary, with the exception of 
the security concept of how we protect the PRTs and how you 
rapidly reinforce them or how you evacuate them in a moment of 
stress, because nations will need help there. But, nations 
guard, fairly jealously, the investment that they're making. 
It's definitely focused from the capital direct to their 
national effort. It's important, I think, that we work towards 
greater harmonization and coordination. But, so far, nations 
have been reluctant to pool their resources and to add or 
subtract based on the need.
    Ambassador Inderfurth. Could I just add----
    Senator Thune. Yes.
    Ambassador Inderfurth. I just want to give one additional 
point about the PRTs. The expression ``hearts and minds'' are 
at play here. It's hard to win hearts and minds in 
counterterrorist operations, counterinsurgency operations, air 
power being used. PRTs are one way to extend the reach, not 
only of the central government, but also the international 
community throughout the country. Focusing on reconstruction, 
governance issues, security, they are a way to help with the 
hearts-and-minds part of this. Only 5 percent of the U.S. funds 
go into PRTs. It's not a big amount of money. It needs better 
coordination, all of those things, but the idea of PRTs is a 
helpful way. It's kind of Peace Corps on steroids. Get them out 
there, let them see that we do things to help people. So 
therefore, it's a viable and, I think, legitimate concept. But, 
it needs, as we have pointed out with so many other programs, 
more attention and coordination.
    Senator Thune. According to the report, there are only 25 
such teams. Are more needed? Is that sufficient?
    General Jones. I think the answer to that is probably yes. 
If the government is not going to be able to expand its reach, 
unfortunately, it becomes more important. The whole concept was 
that the government would, in fact, move and be able to assert 
more control over the provinces, but, since that hasn't 
happened, the PRTs continue to be very important, and I don't 
want to speak for the commanders or the alliance, but I would 
imagine that people would say yes, probably more PRTs would be 
beneficial.
    Ambassador Inderfurth. But they cannot expand until certain 
parts of the country, the south and eastern part, are better 
secured, so there is a wall that they're running up against, in 
terms of expansion.
    Senator Thune. You talked about the amount of money that 
our government is putting into the PRT effort. Of the other 
nations, the international community, that are involved, what 
kind of investment are they making relative to what the United 
States is putting into that? Is it like the military component, 
where we underwrite the biggest share, proportionally?
    Ambassador Inderfurth. I don't have PRT figures.
    Senator Thune. Okay, that's fine. I wouldn't expect you to 
have those at your fingertips.
    Just one last question, General Jones. This comes back, 
maybe just drawn on your past experience--but, there have been 
concerns about the military command-and-control structure in 
Afghanistan, and I'm wondering what your thoughts are about how 
that might be better organized to ensure that there is unity of 
command.
    General Jones. This is always an interesting discussion, 
because the metric should not be to try to compare a 26-nation 
alliance with the unified command structure of a single 
country; and yet, that seems to what, sometimes, we try to do.
    I was one of the ones responsible, along with General 
Abizaid, for creating the command structure that exists. It was 
designed and proposed to 26 sovereign nations, and 26 sovereign 
nations and all chiefs of defense of those nations voted to 
adopt that command structure. It has a lot of challenges. It 
has the challenges of merging the more kinetic operations of 
OEF with the less kinetic operations of ISAF, the NATO 
operation. At every level, there are instruments in the chain 
of command that deconflict those two missions, that provide for 
command-and-control mechanisms to ramp up operations in certain 
parts of the country, as need be; that allows for special 
forces to operate in certain protected zones, or earmark zones, 
if need be; it provides for allies to come to the aid of one 
another. It is, on paper, relatively easy to diagram and to 
explain.
    In actuality, what it takes is the goodwill and the 
cooperation of all commanders. The more senior you get, the 
more cooperation there is to make sure that this works.
    The proof of the pudding, in my book, that it's a viable 
structure happened in August 2006, during Operation Medusa, 
when we had near conventional combat operations in the southern 
part of Afghanistan shortly after the arrival of almost 9,000 
NATO soldiers. The Taliban evidently had been reading European 
newspapers and decided that this force wasn't going to fight, 
and they made the mistake of engaging us very symmetrically. 
OEF had to come in to reinforce. The Afghan Army was involved 
in it--the Canadians, the Dutch, the U.K., and a number of 
other countries--and really achieved a rather stunning victory. 
If that command-and-control structure was not going to work, 
the warts of that command-and-control structure would have been 
revealed.
    So, I think it's a question of not setting the expectation 
too high, recognizing that 26 nations agreeing on how to 
command and control the troops is a very, very delicate issue. 
Trying to apply the principles that one would find in a 
national command structure to an alliance is very hard to do.
    I think it's workable. I think it was agreed to. Can you 
make improvements on it? Sure, and do things change, and should 
you change the command structure to go along with that change? 
Absolutely. But, I don't think there's too much--I think the 
evidence is that the command structure works, let's put it that 
way, and that it takes the goodwill of people who are within it 
to make it work.
    Senator Thune. General, Mr. Ambassador, thank you for your 
service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    A second vote is on. I want to take just a couple of 
minutes, though, to ask a few additional questions.
    At least one of the reports suggest that there be an 
increase in the size of the Afghan National Army. The question 
is, where would the cost come from on that? I figured out here 
what the cost would be. My math, if we double the size of it 
from 80,000 to 160,000, it would be something like $400 million 
a year. I think my math is correct. That's assuming, by the 
way, that the soldier be paid $5,000 a year, which I assume is 
way more than a soldier would be paid in the Afghan National 
Army, is that true? Do you have any idea what a soldier is 
paid? It wouldn't be $5,000 a year, would it?
    Ambassador Inderfurth. No. No.
    Chairman Levin. It might be a couple of thousand a year.
    Ambassador Inderfurth. I understand the point. As our 
report points out, if you're going to expand it, who's going to 
pay for it?
    Chairman Levin. Yes, but that's a pretty small amount of 
money, compared to----
    Ambassador Inderfurth. Small amount, and you know what I 
would suggest? For our NATO allies who have decided that, for 
their own political reasons, they can't go south to fight? Send 
the Afghan army.
    Train them, supply them, fund----
    Chairman Levin. Pay for them.
    Ambassador Inderfurth. Pay for them.
    Chairman Levin. Yes. That's where I was going with this.
    Ambassador Inderfurth. That seems to be a nice offset to 
provide security for Afghanistan.
    Chairman Levin. Yes, that's where I was going. That may be 
a very conservative amount--so, if they're $2,500 a year as an 
average pay--I'm just taking a number, here--it would be about 
$200 million a year, which is pretty tiny percentage of what we 
pay in Afghanistan, but, more importantly, if our NATO allies 
are not going to do what they should do, relative to putting 
their own troops in harm's way, that kind of funding to train 
the Afghan army surely could be expected from them.
    Now, General, you had to deal with our NATO allies for many 
years. What would be the likely response? We apparently have 
failed to get Germany, for instance, to agree to put their 
troops in combat. Would they, you think, be open to an idea 
that, for a couple of hundred million dollars a year, if my 
math is right, that they could double the size by at least the 
pay of 79,000 or 80,000 additional Afghan army members?
    General Jones. I wouldn't want to speak for any particular 
country. The logic appears sound. But, if you look at what 
hasn't been done already--for example, take the case of 
Germany, which has the responsibility of training the police 
force, yet we still lack size, capacity, resources, and 
everything else.
    So, I think the financial condition of many of our allies 
in Europe has gotten much better over the years; their GDP has 
grown, and everything else. But there is great reluctance to 
not only provide manpower, but also to provide the resources. 
So, all we can do is continue to try. I have no idea whether 
they would agree to do that. I would hope they would.
    Chairman Levin. The Study Group has recommended that the 
administration decouple the missions in Afghanistan and Iraq as 
a way of improving the overall U.S. approach to the global war 
on terrorism. I think you mentioned that the way to do this is 
both in terms of our budgeting; put the Afghanistan war in our 
regular budget, keep the Iraq war in a supplemental budget, for 
instance. The rhetoric, surely we ought to separate them. I 
think it was your suggestion that the European populations 
might be more willing to support Afghanistan if they didn't 
link, in their minds, the two efforts together. Is that a fair 
comment?
    Ambassador Inderfurth. Secretary Gates said that, just the 
other day.
    Chairman Levin. He did. Is that a fair statement about your 
report?
    Ambassador Inderfurth. It is a fair statement and it's 
supported by the administration's Defense Secretary.
    Chairman Levin. We'll press him on that one when he gets up 
here on that. We had this morning General Sattler; we asked him 
about the reference that Chairman of the Joint Chiefs, Admiral 
Mullen, made about troops in Iraq versus troops in Afghanistan, 
and he said, ``It's simply a matter of resources, of capacity. 
In Afghanistan, we do what we can; in Iraq, we do what we 
must.'' In other words, Iraq is our first priority, and that 
means Afghanistan is a lesser priority. Would it be helpful in 
that analysis if we continue to reduce our presence in Iraq, in 
your judgment, so that those forces at least would be available 
to go to Afghanistan? Whether they would go there or not would 
be a different decision, but at least would that be helpful? 
Are they related, in that sense?
    Ambassador Inderfurth. The Iraq Study Group made that 
recommendation, as combat forces are withdrawn from Iraq, that 
some be sent to Afghanistan. The ASG endorsed that 
recommendation. So, I think that that's the answer to that 
question.
    Chairman Levin. They are linked, in that sense, aren't 
they?
    Ambassador Inderfurth. They are linked. There's only finite 
resources, and the Army and our military is stretched thin. So, 
you can't make up out of whole cloth. But, the statement that 
Admiral Mullen made, ``do what we must, do what we can,'' I 
think my major point this afternoon is that we have to put 
Afghanistan into the ``do what we must'' category. It should be 
there, too. It's not just a ``can,'' ``want to do,'' ``like to 
do,'' it's a ``must.''
    Chairman Levin. On that note--I think, General, you 
probably would agree with that, but I don't want to put words 
in your mouth, but I have to run and catch a vote.
    General Jones. No, I do agree with that.
    Chairman Levin. Thank you both. I'm just going to run. I 
won't even have a chance to come personally to thank you. It's 
been very, very helpful. This was actually a significant 
turnout of Senators under a very difficult afternoon. That's 
how much interest there is in Afghanistan.
    Thank you. The committee stands adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Robert Byrd
                          al qaeda safe haven
    1. Senator Byrd. Ambassador Inderfurth, both reports (the 
Afghanistan Study Group and the Atlantic Council of the United States) 
suggest that if immediate action is not taken by as early as this 
spring to turn around world attention and involvement in the rebuilding 
of Afghanistan, it stands in danger of becoming a failed state--a safe 
haven for al Qaeda, run by the Taliban, with an economy based primarily 
on the cultivation of the opium poppy. This, you argue, would be 
catastrophic for regional stability and U.S. and western security. 
Without suggesting that this would be an acceptable outcome, how would 
a failed Afghanistan differ from the Afghanistan of 2000, except that 
we are now aware of and prepared to take preemptive action against a 
resurgent al Qaeda?
    Ambassador Inderfurth. The Afghanistan Study Group estimated that 
the prospect of again losing significant parts of Afghanistan to the 
forces of Islamist extremists has become possible, and that an effort 
has to be in place to prevent Afghanistan from becoming a failed state. 
In addition to the consequences in Afghanistan itself, including the 
implications on poppy trafficking, al Qaeda activity, et cetera, the 
regional and international implications should also be taken into 
account. Failure in Afghanistan will also enhance instability and 
insecurity in the neighboring Pakistan, where local Taliban and other 
extremist groups would be inspired to step up their effort to stabilize 
the regime, and would be able to use Afghanistan as their base for 
doing so. Also, were Afghanistan to slip into a ``failed state'' status 
despite the resources and commitment by the international community, 
and the North Atlantic Treaty Organization (NATO) specifically, it 
would severely discredit the ability of the United States and its 
allies on the international level.

                         resources and funding
    2. Senator Byrd. General Jones, the ambitious agenda laid out in 
these two reports will require concerted international effort and 
coordination, as well as substantial resources. Please describe in more 
detail the military and economic resources that you believe would be 
required to achieve your prescribed outcome, both from the 
international community as a whole and from the United States. From 
where would you reallocate these resources?
    General Jones.
Military Resources
    It is my understanding that NATO military commanders have asked 
allies, including the United States, for several additional maneuver 
battalions, as well as heavy and medium lift helicopters and airborne 
intelligence surveillance and reconnaissance. The alliance has those 
resources in its inventory. It is a lack of political will, whether due 
to force overstretch, financial costs to deploy, or domestic politics, 
that keeps these gaps from being filled. Given the large numbers of 
U.S. forces already deployed to Afghanistan, these resources should 
come from our allies.
Economic Resources
    Success in Afghanistan will not come without a revamped civilian 
effort to convert tactical military success into large scale strategic 
gains. This means that the international community must provide more 
aid to help build a functioning and competent civilian government in 
Afghanistan. For instance, the European Union (EU) could provide more 
police trainers in Afghanistan to help create a society based on the 
rule of law. Those allies who cannot provide forces to International 
Security Assistance Force (ISAF) can provide civil reconstruction 
assistance, whether in terms of money or people. For example, those 
allies could stand up another Provincial Reconstruction Team (PRT). 
Ideally new U.N. envoy Kai Eide will be able to marshal these resources 
into a more efficient and focused effort to affect real change in the 
country. Increased activity and coordination of PRTs will be necessary 
to achieve lasting success in Afghanistan as well.
    Specifically, more development resources should be directed to 
infrastructure development, especially outlays on roads, power, and 
water systems. These will be crucial in the overall improvement in 
security, governance, and economic growth in Afghanistan. Afghan 
workers and resources should be used whenever possible to create job 
growth.

    3. Senator Byrd. General Jones, your report describes corruption in 
Afghanistan that has reached a level where only $1 in aid out of every 
$10 goes directly to Afghans, compounding already difficult reform and 
reconstruction problems. Until this situation is corrected, how can you 
expect the American public to support further expenditure of already 
scarce tax dollars toward Afghan reconstruction?
    General Jones. The estimate that only $1 of every $10 distributed 
in aid goes to the Afghan people is an indication of how inefficient 
(and costly) the distribution of assistance is in Afghanistan. The 
long-term hopes of Afghanistan lie in enhanced and better coordinated 
civilian aid to the Afghan people. Numerous allied and international 
officials have commented on the lack of human capital in Afghanistan in 
the public and private sectors. The good news is that the mandate of 
Kai Eide as U.N. High Representative is to ensure that international 
assistance (including U.S. assistance) goes towards meeting a common 
strategic vision and goal.
    Still, despite the fact that poverty remains one of the major 
problems in Afghanistan, there are a number of economic indicators that 
should reassure the American taxpayer that progress is being made with 
their aid dollars. Since the fall of the Taliban in 2001, economic 
growth has averaged 8.7 percent annually, resulting in a doubling of 
per capita gross domestic product since 2002. Inflation remains low, 
the Afghan national currency is stable, and currency reserves are 
stable and sit at $5 billion. Agricultural output continues to rise and 
the country is presently experiencing a construction boom thanks to 
foreign aid, refugee return, and a growth in trade.

    4. Senator Byrd. General Jones, is it reasonable to expect that 
Afghan security forces and judicial systems can be established and be 
effective quickly enough to make a difference?
    General Jones. Generally, success in Afghanistan will not come 
quickly, particularly in the civil reconstruction side.
Afghan Security Forces
    In terms of the Afghan National Army (ANA), they are beginning to 
make a difference and are growing in numbers. There are nearly 57,000 
personnel in the ANA today, and we are seeing signs that the Afghan 
security forces are able to lead operations with just NATO advisors and 
support. They are close to being able to take responsibility for 
security in certain sectors, such as in Kabul.
    The Focused District Development plan has been put in place now to 
reduce corruption and improve competence in the police force. 
Specifically, officers are taken out of the force, rescreened, and then 
given remedial training before being put back into the force. This plan 
is starting to take hold and officers are already graduating and being 
put back into the police force.
Judicial System (including the Afghan National Police (ANP))
    The Afghan judicial system has much work to do to become a 
credible, respected institution with reach throughout Afghanistan. 
Especially needing improvement is the ANP, but a renewed effort there 
to retrain forces and improve corruption indices is making progress.
    Fortunately, the Europeans offered in 2007 to provide $777 million 
over the next 4 years to improve governance, with over 40 percent of 
that money dedicated to judicial system reform. In particular, the 
system has faced a problem with poorly trained and corrupt officials.
    In 2006, President Karzai appointed a fresh team of judges and made 
a series of reforms that will hopefully begin to bear fruit in the 
future. As part of Karzai's reforms, the new Supreme Court justices are 
given the responsibility to monitor judicial activity in the district 
to which they are assigned. To prevent nepotism and corruption in the 
process of selecting justices, committees were created to screen and 
select potential judges based on applicants' education and background, 
and each committee must include a member of the Supreme Court.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                          afghan national army
    5. Senator Akaka. General Jones, looking ahead, it seems that one 
of the most critical challenges to long-lasting stability in 
Afghanistan is a shortfall in the number of trainers capable of 
mentoring the ANA so that it is eventually capable of defending its own 
borders from Taliban and al Qaeda sanctuaries in neighboring Pakistan. 
Without NATO assistance with providing language-skilled trainers, is 
the United States capable of fulfilling this shortfall in developing 
effective Afghani forces?
    General Jones. Training and mentoring of Afghan national forces is 
one of the most important tasks facing the alliance and its partners 
today in Afghanistan. While I must defer to the U.S. Government on 
whether the United States is capable of fulfilling this mission without 
NATO assistance, it is important to point out that NATO and the 
international community is assisting in the training of Afghan forces 
and is increasing their effort. We have seen a number of our allies 
increase their training contributions--including the French--following 
the NATO Defense ministers meeting in the Netherlands.
    In addition, for nations that cannot provide combat forces to 
Afghanistan, providing trainers, especially police trainers, will go 
far in assisting the Afghan Government to build a nation. Providing 
personnel for an Operational Mentor and Liaison Team is an excellent 
way to play a major role in the training and mentoring of the Afghan 
army.
    Frankly speaking, the ANA is one of the real successes of a post-
Taliban Afghanistan. There was no ANA just several years ago, and 
already the force is at 57,000 with the goal of reaching 70,000 by 
March 2008.
    Finally, as mentioned before, problems in Afghanistan are part of a 
larger regional problem that will require creative thinking for the 
U.S. Government, NATO, and the international community. Pakistan itself 
seems unwilling or unable to secure the Federally Administered Tribal 
Areas and eliminate radicalism in its frontier provinces. It is time 
for the United States and NATO to develop a regional strategy for the 
problems in Afghanistan, and that would include a reassessment of the 
aid and assistance programs in place for Pakistani security forces as 
well. After all, controlling the Pakistani-Afghan border will be most 
effective if both countries are actively participating in the effort.

                     long-term afghanistan strategy
    6. Senator Akaka. Ambassador Inderfurth, one of your overarching 
recommendations was to propose an Eminent Persons Group to ``develop a 
long-term, coherent international strategy for Afghanistan''. I am very 
concerned that in 6\1/2\ years of combat operations and international 
aid efforts, we are still hearing calls for the big-picture strategy. 
What has been the major problem with developing this coherent strategy 
for achieving long-term success in Afghanistan up to this point, and 
how can it be overcome?
    Ambassador Inderfurth. Many factors have contributed to the 
inability to create a coherent strategy for achieving long-term success 
in Afghanistan up to this point. In the United States, there has been a 
lack of coherence driven by both the focus on Iraq (which at least 
partly came on the expense of strategic resources being devoted to 
Afghanistan), coupled by the more systemic difficulty to coordinate 
policy effectively within the executive branch. This is why the 
Afghanistan Study Group has also recommended to decouple Iraq and 
Afghanistan and appoint a special envoy to Afghanistan within the 
executive branch. On the international level, the United States has 
been successful in rallying allies to the mission in Afghanistan, after 
initially turning down NATO's offer of assistance in the aftermath of 
September 11. However, this also presents a challenge when there is a 
need to coordinate on a strategic level. The problem is compounded by 
the multitude of private contractors and NGOs that work in Afghanistan. 
The issue of international coordination has been identified as one of 
the key issues that require urgent attention.
    More than 6 years after the beginning of the international 
intervention in Afghanistan, we believe that now is a critical moment 
to rethink our strategies, and that is why we suggested a concrete 
effort to develop a new strategy on an international level through an 
eminent persons group.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                                training
    7. Senator Pryor. General Jones, one of your overarching 
recommendations is to decouple Afghanistan in the legislative process 
and in the management of these conflicts in the executive branch. In 
your report you state that tying together Afghanistan and Iraq also 
creates the false impression that they consist of the same mission. 
Yet, you identify issues such as a coherent and resourced strategy to 
increase the reach, capacity, and the legitimacy of the Afghan 
Government, fighting terrorism from al Qaeda insurgents, a 
reconstruction effort aimed at infrastructure, roads, power, and water 
systems, the resurrection of an integrated and effective justice 
system, and a focused effort and resources on training and standing up 
the ANA and recruiting, training, and providing adequate pay and 
equipment to the ANP to maintain security in an area once coalition 
forces depart. Besides enhances in poppy crop eradication and 
interdiction initiatives of a counternarcotics policy, can you explain 
what you found to be the differences in philosophy and strategic vision 
between the two conflicts that warrant such a ``decoupling'' of the 
budget process for authorizations, appropriations, and supplemental 
requests?
    General Jones. I would argue that although these two conflicts face 
a number of commonalities, the differences between them are greater 
than you implied. One of the problems that we face is that lumping the 
two together sometime result in creating a false image of similarity 
between the conflicts.
    First, the Afghan war is one in which we are engaged with all of 
our 26 NATO allies and coalition partners under the alliance umbrella. 
The war in Iraq has enjoyed a not insignificant level of coalition 
support, but it has never been fought under the NATO umbrella with such 
sustained international engagement. This implies that in dealing with 
the challenges in Afghanistan the United States faces different 
opportunities, but also challenges, with regard to joint efforts with 
our allies.
    Second, Afghanistan is a tribal country where the divisions between 
groups are not based on religious affiliations. While one of the major 
challenges in Iraq is to create a shared power between different 
religious groups, in Afghanistan the challenges are different and are 
less based on the issue of power sharing among different ethnic or 
religious groups.
    Third, the poppy problem is more significant than you imply. The 
poppy issue affects governance, security, economic, and societal issues 
in Afghanistan. It is intimately linked with the resurgence of the 
insurgency in Afghanistan and is a major factor in the corruption and 
poor governance in the country. The United States will be hard pressed 
to succeed in achieving its political goals in Afghanistan without 
creating a non-drug-based economy.
    Fourth, the Afghan war is intimately linked to the political and 
security struggles of Pakistan. The Iraq conflict is tied into regional 
dynamics as well, with the questionable intent of neighboring countries 
such as Syria and Iran affecting coalition efforts in a negative 
fashion. The ability, or lack thereof, of Pakistan to secure the border 
with Afghanistan is a crucial factor in the ability of the alliance to 
win the battle against the Taliban and al Qaeda in Afghanistan. It is 
for this region that NATO needs to approach the Afghan mission in a 
regional context to achieve success. If the border remains porous and 
Afghanistan cannot prevent the militants from gaining sanctuary, the 
alliance will not defeat the Afghan insurgency.
    Lastly, perhaps the most substantial difference is the opportunity 
to create different coalitions for these two conflicts. Decoupling can 
help both domestically and internationally in that regard. Also, 
delinking the funding processes for these two conflicts can assist in 
more balanced approach to funding priorities in each conflict on the 
basis of its own merits.
    As stated in the Afghanistan Study Group Report, decoupling the two 
conflicts within the executive and legislative branch would ``enable 
more coherence and focus and on the increasingly important Afghanistan 
(and related Pakistan) issues [and] will likely improve the overall 
U.S. approach to fighting global terrorism.''

    8. Senator Pryor. General Jones, what is your recommended policy 
roadmap as to how to organize, implement, and administer this 
recommendation?
    General Jones. I would argue that unfortunately, our allies already 
see the conflicts in Afghanistan and Iraq as inextricably linked 
because the U.S. Government has been rhetorically linking the conflicts 
for the last 5 years. Despite that, the United States should 
immediately cease referring to the war in Iraq and Afghanistan together 
as `the war on terror.' Yes, the United States is fighting terrorists 
in Iraq, as in Afghanistan. However, this rhetoric is fundamentally 
unhelpful in dealing with our allies and building support for enhanced 
engagement in Afghanistan. In fact, according to experts in the region, 
it is even undermining public support for NATO amongst countries 
seeking to join the alliance in the Balkans, as they believe that by 
joining NATO they will be obligated to send forces to Iraq. I would 
argue as well that NATO needs a regional strategy and approach to the 
Afghan conflict. The United States and a few of its allies are aware 
that the Afghan conflict cannot be decoupled from what is happening in 
Pakistan. The United States needs to work to create a framework or 
mechanism in which NATO itself can be engaged with Pakistan to better 
address the border issues that are hampering efforts to secure 
Afghanistan.
    The Afghanistan Study Group called for the decoupling to take place 
in both the executive branch and the legislative branch. On the 
legislative side, appropriations, especially defense appropriation, 
need to be delinked. On the executive side, the ASG called for the 
appointment of a Special Envoy to Afghanistan that would be charged 
with coordinating and orchestrating all aspects of U.S. policies 
towards Afghanistan, to ensure a more comprehensive, strategic approach 
to managing that conflict in the interagency level. The challenge of 
coordinating the missions in Afghanistan is compounded by the need to 
coordinate with NATO as well as multiple different agencies and NGOs on 
the ground. Without a designated official it is hard to envision a 
necessarily effective strategic approach to Afghanistan that is not 
over-influenced by day-to-day events in Iraq. As the ASG report stated, 
``while potentially challenging and possible contentious within the 
U.S. bureaucracy, higher level of coordination in Washington is 
necessary to increase our chances of success in Afghanistan.''

                            nato cooperation
    9. Senator Pryor. General Jones, your report indicates that NATO 
faces a lack of a common strategic vision and has struggled to increase 
the number of combat troops and military equipment in Afghanistan, 
particularly in Kandahar Province. While Canada is the third largest 
contributor to the military effort in Afghanistan next to the United 
States and United Kingdom and has been engaged in the region since 
early 2002, Canadian Prime Minister Stephen Harper has warned that 
Canada may withdraw its troops from the ISAF if NATO fails to station 
additional coalition troops in the southern part of Afghanistan. What 
have you concluded about the cooperative fashion among those entities 
representing NATO, the U.N., and the EU?
    General Jones. While all three organizations are cooperating to 
some degree in Afghanistan, there is clearly not the close, daily 
coordination between these three major international actors. In part, 
institutional blockages limit cooperation on these matters. Namely, the 
Turkey-Cyprus diplomatic conflict limits the development of formal 
dialogue and consultations between top NATO and EU leadership. 
Furthermore, the EU defense ministers rarely--if ever--discuss the 
issue of Afghanistan when they meet as a group.
    Achieving long-term systemic EU-NATO cooperation in theory is a 
major diplomatic task that will require sustained effort and 
cooperation. However, improved practical cooperation is possible, 
particularly if new U.N. High Representative Kai Eide receives the 
mandate and authority needed to improve coordination in Afghanistan 
among the major international actors. The U.N., NATO, and the EU need 
to work with the Karzai Government to develop a comprehensive strategic 
plan that they all can implement to provide assistance efficiently.

    10. Senator Pryor. General Jones, how can we bring about a more 
unified strategy for operations?
    General Jones. There are a number of ways we can bring about a more 
unified strategy for operations.
    First, the alliance is presently working to create a common 
strategic vision and 5 year plan for Afghanistan to be released at the 
NATO Summit in Bucharest. This document will articulate to NATO member 
publics the rationale for being in Afghanistan and the need to achieve 
the goals outlined in this strategic vision. It will call on NATO 
allies to pledge to share the burden together and to commit to 
achieving long-term alliance goals.
    Unfortunately, a document won't fix the problems of coordination in 
Afghanistan. A more sustained diplomatic effort is required. One major 
issue facing the allied effort is a lack of PRT coordination among the 
nations involved. Until now, national PRTs have coordinated with their 
country capitals rather than working with other PRTs in the region to 
target their efforts for maximal effect. Unfortunately NATO-EU 
cooperation is lacking, and not just in Afghanistan. The Atlantic 
Council, of which I am Chairman, is working to propose ideas on how to 
improve the NATO-EU relationship, but unfortunately, bureaucratic 
blockages and diplomatic differences make improved coordination between 
these two organizations exceedingly difficult. Ultimately, improving 
NATO-EU cooperation will require a more sustained and long-term 
diplomatic effort among the United States and its allies than a simple 
NATO summit meeting.
                                 ______
                                 
              Questions Submitted by Senator Roger Wicker
                          afghan police force
    11. Senator Wicker. General Jones and Ambassador Inderfurth, in 
your testimony you discuss the problems surrounding the Afghan police 
force. Specifically, you detail reports of corruption throughout. As we 
assist in the development of a reliable and effective Afghan police 
force, what steps are being taken to weed out vulnerable police 
recruits during the training process?
    General Jones. The ANP force is a weak link in the effort to 
provide security in Afghanistan and corruption is a particular problem 
in the police. Therefore, NATO has undertaken a review of the current 
police force to attempt to weed out corrupt officers, ensure that they 
have proper training, and better determine where they come from. This 
process is called Focused District Development, an initiative developed 
by the Afghan Ministry of Interior. ISAF works with the Afghans to 
identify regions particularly affected by corruption and then takes the 
officers in that district offline for 8 weeks to provide them with 
remedial training, make sure that they are the right people for the 
job, and ensure that they are capable of providing the level of service 
the job requires. It is our hope and intent that this type of training 
will help instill a culture of service necessary to create a more 
effective Afghan police force. The first class graduated in late 
February 2008.
    Ambassador Inderfurth. I concur with General Jones' response.

    12. Senator Wicker. General Jones and Ambassador Inderfurth, are 
police candidates screened prior to training?
    General Jones. Police candidates are screened prior to training, 
and over the last year and a half, efforts have been made to improve 
screening of police recruits to ensure that they do not have ties to 
extremism or criminal backgrounds.
    However, it should be remembered that good recruits with clean 
backgrounds can be pushed into corruption by circumstances. It is for 
this reason that proper training, improved morale, and timely pay of 
decent wages be seen as a priority for reducing corruption among the 
Afghan police forces.
    Ambassador Inderfurth. I concur with General Jones' response.
                                 ______
                                 
    [Annexes A through G follow:]

                                ANNEX A

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                                ANNEX B

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                                ANNEX C
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                                ANNEX D

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                                ANNEX E

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                                ANNEX F

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                                ANNEX G

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Whereupon, at 4:47 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
